Capital Case
Case No.19-1105

In the Supreme Court of the United States
TOMMY SHARP, Interim Warden
Oklahoma State Penitentiary,
Petitioner,
v.
JIMMY DEAN HARRIS
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit

RESPONDENT’S APPENDIX TO
BRIEF IN OPPOSITION

JACK FISHER
Okla. Bar # 2939
Fisher Law Office
P. O. Box 1976
Edmond, OK 73083
Telephone: (405) 235-9466
Facsimile: (405) 340-7269
Okfishlaw@aol.com

EMMA V. ROLLS*
Okla. Bar # 18820
Assistant Federal Public Defender
215 Dean A. McGee, Suite 707
Oklahoma City, OK 73102
Telephone: (405) 609-5975
Facsimile: (405) 609-5976
Emma_Rolls@fd.org

COUNSEL FOR RESPONDENT/APPELLEE,
JIMMY DEAN HARRIS

* Counsel of Record
Dated this 11th day of May, 2020

RESPONDENT’S APPENDIX
TABLE OF CONTENTS

Opinion of the Tenth Circuit Court of Appeals . . . . . . . . . . . . . . . . . . Resp. App. 1
Harris v. Sharp, 941 F.3d 962 (10th Cir. 2019)
Case No. 17-6109
Judgment rendered October 28, 2019
Opinion of the United States District Court . . . . . . . . . . . . . . . . . . . Resp. App. 52
Harris v. Royal, No. CIV-08-375 (W.D. Okla. 2017)
Memorandum Opinion rendered April 19, 2017
Harris v. State, 164 P.3d 1103 (Okla. Crim. App. 2007) . . . . . . . . Resp. App. 118
Case No. D-2005-117, Opinion rendered July 19, 2007
Report of Dr. Jennifer Callahan, Ph.D. . . . . . . . . . . . . . . . . . . . . . . Resp. App. 136
Report of Dr. Martin Krimsky, Ph.D. . . . . . . . . . . . . . . . . . . . . . . . Resp. App. 157
Report of Dr. Nelda Ferguson, Ph.D. . . . . . . . . . . . . . . . . . . . . . . . Resp. App. 159

962

941 FEDERAL REPORTER, 3d SERIES

range Defendant says he expected in the
absence of the cross-reference was unreasonably long, amounting to an abuse of the
court’s discretion.
CONCLUSION
We accordingly AFFIRM Defendant’s
sentence.

,
Jimmy Dean HARRIS, Petitioner Appellant,
v.
Tommy SHARP, Interim Warden,
Oklahoma State Penitentiary,*
Respondent - Appellee.
No. 17-6109
United States Court of Appeals,
Tenth Circuit.
October 28, 2019
Background: Following affirmance on direct appeal of petitioner’s state court conviction for murder and sentencing to
death, 84 P.3d 731 and 164 P.3d 1103, and
denial of his motion for post-conviction relief, 167 P.3d 438, petitioner sought federal
writ of habeas corpus. The United States
District Court for the Western District of
Oklahoma, Stephen P. Friot, Senior District Judge, 2017 WL 1403302, denied petition. Petitioner appealed.

hearing to assess whether defendant
had an intellectual disability;
(2) Oklahoma Court of Criminal Appeals’
(OCCA) decision denying defendant’s
ineffective assistance of counsel claim
was based on an unreasonable factual
determination regarding what evidence
at a pretrial hearing would have
showed;
(3) OCCA’s determination that defendant’s
attorney had strategically decided how
to present mitigation evidence regarding his borderline intellectual functioning was not unreasonable in light of the
facts presented to OCCA;
(4) OCCA’s determination that defendant
did not suffer prejudice from defense
counsel’s failure to present additional
mitigation evidence was based on a
reasonable determination of facts and
Strickland standard for ineffective assistance claims;
(5) OCCA’s determination that defense
counsel had presented evidence of
defendant’s mental illness but strategically decided to downplay such evidence was not an unreasonable determination of fact;
(6) OCCA’s determination that defense
counsel acted reasonably in only engaging in limited questioning of expert
witness regarding defendant’s mental
illnesses was reasonable; and

Holdings: The Court of Appeals, Bacharach, Circuit Judge, held that:

(7) petitioner was not entitled to federal
habeas relief on his Eighth Amendment challenge alleging that jury was
prevented from considering all mitigating evidence.

(1) trial counsel’s performance was deficient in failing to request a pretrial

Affirmed in part, reversed in part, and
remanded.

* Pursuant to Fed. R. App. P. 42(c)(2), Mike
Carpenter is replaced by Tommy Sharp, as

the Interim Warden of the Oklahoma State
Penitentiary.

Resp. App. 1

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

963

1. Habeas Corpus O842

7. Criminal Law O1882

The Court of Appeals engages in de
novo review of the federal district court’s
legal analysis in a habeas case.

Attorneys are ‘‘deficient,’’ for purpose
of an ineffective assistance of counsel
claim, when their mistakes are so serious
that they stop functioning as ‘‘counsel’’ for
purposes of the Sixth Amendment. U.S.
Const. Amend. 6.

2. Habeas Corpus O766
In district court, review of a habeas
petition under Antiterrorism and Effective
Death Penalty Act is deferential when the
state appellate court rejects a claim on the
merits. 28 U.S.C.A. § 2254(d).
3. Habeas Corpus O450.1, 452
Under Antiterrorism and Effective
Death Penalty Act, to determine whether a
state-court decision was contrary to, or
involved an unreasonable application of,
clearly established law, federal courts engage in a two-step process: they first determine the clearly established law by considering Supreme Court precedent, and
then ask whether the state court’s decision
was contrary to, or involved an unreasonable application of, that precedent. 28
U.S.C.A. § 2254(d).
4. Habeas Corpus O767
On federal habeas review, the federal
court must defer to the state court’s factual findings unless the state court plainly
misapprehended or misstated the record in
making its findings, and the misapprehension goes to a material factual issue that is
central to the petitioner’s claim. 28
U.S.C.A. § 2254(d).

See publication Words and Phrases
for other judicial constructions and
definitions.

8. Criminal Law O1871
In determining whether counsel was
deficient, the court ordinarily presumes
that counsel’s performance is reasonable
and might entail a sound strategy. U.S.
Const. Amend. 6.
9. Criminal Law O1886
In capital cases alleging ineffective assistance of counsel, courts scrutinize attorney performance particularly closely in the
sentencing phase. U.S. Const. Amend. 6.
10. Criminal Law O1871, 1882
To overcome the presumption that
counsel’s performance was reasonable on
an ineffective assistance of counsel claim, a
petitioner must show that counsel’s representation fell below an objective standard
of reasonableness. U.S. Const. Amend. 6.
11. Criminal Law O1870

The Sixth Amendment entitles a defendant to effective assistance of counsel.
U.S. Const. Amend. 6.

The inquiry into whether counsel’s
representation fell below an objective
standard of reasonableness, as required to
satisfy first element of an ineffective assistance of counsel claim, is highly deferential, and courts should avoid the distorting
effects of hindsight. U.S. Const. Amend.
6.

6. Criminal Law O1882

12. Criminal Law O1884

Under the first part of the Strickland
test for ineffective assistance of counsel,
the court is to determine whether the defendant’s attorney was deficient. U.S.
Const. Amend. 6.

Strategic decisions of counsel after a
thorough investigation are afforded even
greater deference and are virtually unchallengeable in an ineffective assistance of
counsel claim. U.S. Const. Amend. 6.

5. Criminal Law O1870

Resp. App. 2

964

941 FEDERAL REPORTER, 3d SERIES

13. Criminal Law O1870
Even under de novo review, the standard for judging counsel’s representation
on an ineffective assistance of counsel
claim is a most deferential one. U.S.
Const. Amend. 6.
14. Habeas Corpus O486(1), 773
When a habeas petitioner alleges ineffective assistance of counsel, deference exists both in the underlying constitutional
test under Strickland and the Antiterrorism and Effective Death Penalty Act standard for habeas relief, creating a doubly
deferential judicial review; under this double deference, the court considers whether
there is any reasonable argument that
counsel satisfied Strickland’s deferential
standard. U.S. Const. Amend. 6; 28
U.S.C.A. § 2254(d).
15. Criminal Law O1881
To succeed on an ineffective assistance of counsel claim, the petitioner must
show not only a deficiency in the representation but also prejudice. U.S. Const.
Amend. 6.
16. Criminal Law O1883
To establish prejudice prong of an
ineffective assistance of counsel claim, the
petitioner must show that there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the
proceeding would have been different.
U.S. Const. Amend. 6.
17. Habeas Corpus O816
Even in habeas cases involving
death penalty, federal courts consider
guments forfeited or waived when they
raised for the first time on appeal.
U.S.C.A. § 2254.

the
arare
28

18. Courts O90(2)
Although a panel typically cannot
overrule an earlier precedent, a panel is

not bound by precedents that have been
superseded by a change in state law.
19. Habeas Corpus O766
On a federal habeas claim, Court of
Appeals considers the Oklahoma Court of
Criminal Appeals’ denial of an evidentiary
hearing on an ineffective-assistance claim
as an adjudication on the merits. 28
U.S.C.A. § 2254.
20. Criminal Law O1963
Trial counsel’s performance was deficient in failing to request a pretrial hearing to assess whether defendant had an
intellectual disability, which would have
precluded imposition of the death penalty
after he was convicted of murder, as required element of defendant’s ineffective
assistance claim; defense would have lost
nothing if it had requested a pretrial hearing on intellectual disability, even if defendant been found not to have been intellectually disabled, given availability of a posttrial motion to revisit the issue, but there
was considerable possible upside to a pretrial hearing, given evidence that defendant had an IQ score under the 70-point
threshold necessary for a determination of
intellectual disability under Oklahoma law
and an expert witness had already diagnosed defendant with an intellectual disability. U.S. Const. Amends. 6, 8.
21. Criminal Law O1884
On an ineffective assistance claim, an
attorney’s strategic decisions draw considerable deference when the attorney has
thoroughly investigated the law, the facts,
and the plausible alternatives. U.S. Const.
Amend. 6.
22. Criminal Law O1884
Merely calling an attorney’s decisions
strategy does not prevent meaningful scrutiny on an ineffective assistance claim; the
court must still determine: (1) whether an
attorney has chosen to forgo a course of

Resp. App. 3

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

action, and (2) whether that choice was
reasonable under the circumstances. U.S.
Const. Amend. 6.
23. Criminal Law O1960
In assessing the reasonableness of an
attorney’s investigation during the penalty
phase of a capital case on an ineffective
assistance claim, the court refers to the
American Bar Association Guidelines for
the Appointment and Performance of
Counsel in Death Penalty Cases, which
require that counsel at every stage of the
case should take advantage of all appropriate opportunities to argue why death is not
suitable punishment for their particular
client. U.S. Const. Amend. 6.
24. Habeas Corpus O486(5)
Oklahoma Court of Criminal Appeals’
(OCCA) decision denying defendant’s ineffective assistance of counsel claim based on
counsel’s failure to request a pretrial hearing to determine whether defendant was
intellectually disabled and thus ineligible
for the death penalty was based on an
unreasonable factual determination that
evidence at a pretrial hearing would not
have shown that defendant was intellectually disabled, as required for defendant to
be entitled to federal habeas relief;
OCCA’s determination that defendant was
not prejudiced by the lack of a hearing was
based on its finding that there would not
have been any evidence that defendant
was intellectually disabled, despite fact
that an expert had found that he was
mildly intellectually disabled based on two
IQ tests. U.S. Const. Amends. 6, 8; 28
U.S.C.A. § 2254(d)(2).
25. Habeas Corpus O816
Petitioner adequately raised before
district court in his habeas petition his
argument that Oklahoma Court of Criminal Appeals’ denial of his ineffective assistance of counsel claim was based on an
unreasonable determination of fact in light

965

of expert’s assessment of an intellectual
disability, as required to preserve such
argument for appeal; although petitioner
treated another expert’s opinion regarding
his alleged intellectual disability as significant new evidence of intellectual disability
in district court, his argument supporting
his claim of ineffective assistance extensively discussed all prior expert opinions
on the existence of intellectual disability,
including opinion of expert at issue. U.S.
Const. Amend. 6; 28 U.S.C.A. § 2254(d)(2).
26. Habeas Corpus O816
To preserve an issue in district court,
a habeas petitioner need only alert the
court to the issue and seek a ruling. 28
U.S.C.A. § 2254.
27. Habeas Corpus O742
An evidentiary hearing on a petition
for habeas corpus is ordinarily unavailable
when the petitioner failed to diligently develop the factual bases of the claim in state
court. 28 U.S.C.A. § 2254.
28. Criminal Law O1963
Defense counsel’s deficient performance in failing to request a pretrial hearing
on the issue of a defendant’s alleged intellectual disability would be prejudicial, compelling a finding of ineffective assistance, if
a pretrial hearing would create a reasonable probability of a lesser sentence. U.S.
Const. Amend. 6.
29. Habeas Corpus O746
Petitioner who was sentenced to death
in state court upon his murder conviction
was entitled to evidentiary hearing to determine if he was prejudiced by his counsel’s deficient performance in failing to
request a pretrial hearing to determine if
he was intellectually disabled and thus ineligible for death penalty, as required to
support finding that petitioner was denied
effective assistance of counsel, in petitioner’s federal habeas action; petitioner had

Resp. App. 4

966

941 FEDERAL REPORTER, 3d SERIES

demonstrated a deficiency in his counsel’s
performance and had made allegations regarding his intellectual functioning that
could have supported a finding of an intellectual disability, if proven. U.S. Const.
Amend. 6; 28 U.S.C.A. § 2254.
30. Criminal Law O1961
To assess prejudice prong of an ineffective assistance of counsel claim based on
counsel’s failure to present mitigating evidence, the court must evaluate the totality
of the evidence, including: (1) the aggravating circumstances found by the jury; (2)
the mitigation evidence; (3) the mitigation
evidence that might have been introduced;
and (4) what the prosecution’s response to
that evidence would have been. U.S.
Const. Amend. 6.
31. Habeas Corpus O383
Petitioner failed to exhaust his claim
that defense counsel was ineffective in failing to present mitigation evidence involving intellectual disability in his sentencing
on capital murder conviction by failing to
raise such issue before Oklahoma Court of
Criminal Appeals (OCCA), and thus such
claim was barred for purpose of his federal
habeas petition; although petitioner argued
before OCCA that his counsel was ineffective for failing to present mitigation evidence regarding borderline intellectual
functioning, such argument was confined
to evidence of a lesser intellectual impairment than an intellectual disability, which
he did not raise due to an assumption that
it could only have been addressed in a
pretrial hearing. U.S. Const. Amend. 6;
28 U.S.C.A. § 2254(b)(1)(A).
32. Habeas Corpus O408
Exhaustion of state-court remedies
prior to raising an issue in a federal habeas proceeding is unnecessary when it
would
be
futile.
28
U.S.C.A.
§ 2254(b)(1)(A).

33. Federal Courts O3391
The Court of Appeals ordinarily considers an appellee’s arguments for affirmance even if they had not been presented
in district court.
34. Habeas Corpus O845
On a habeas petition, the court does
not regard a factual finding as unreasonable if reasonable minds reviewing the record might disagree about the finding in
question.
35. Habeas Corpus O486(5)
Oklahoma Court of Criminal Appeals’
(OCCA) determination that defendant’s attorney had strategically decided not to
present mitigation evidence regarding his
borderline intellectual functioning during
sentencing on capital murder conviction
was not unreasonable in light of the facts
presented to OCCA, and thus federal habeas relief based on ineffective assistance
of counsel was not warranted; evidence
showed that defense counsel knew of the
borderline intellectual functioning evidence
from defendant’s first trial on murder
charges but chose not to highlight the
diagnoses and testing in his retrial, instead
focusing on defendant’s development
throughout his life. U.S. Const. Amend. 6;
28 U.S.C.A. § 2254(d)(2).
36. Habeas Corpus O486(5)
Oklahoma Court of Criminal Appeals’
(OCCA) determination that defendant did
not suffer prejudice from defense counsel’s failure to present additional mitigation evidence involving borderline intellectual functioning during sentencing of
defendant for capital murder was based
on a reasonable determination of facts
and Strickland standard for ineffective
assistance claims, and thus defendant was
not entitled to federal habeas relief based
on ineffective assistance of counsel; given
evidence presented of defendant’s low intellectual ability, childhood development,

Resp. App. 5

967

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

and poor problem-solving skills, OCCA
could have reasonably attributed little
value to further evidence of borderline
functioning. U.S. Const. Amend. 6; 28
U.S.C.A. § 2254(d).
37. Habeas Corpus O486(5)
Oklahoma Court of Criminal Appeals’
(OCCA) determination that defense counsel had presented evidence of defendant’s
mental illness but strategically decided to
downplay such evidence was not an unreasonable determination of fact, and thus did
not support federal habeas relief based on
ineffective assistance of counsel in presenting mitigating evidence during sentencing
of defendant on capital murder conviction;
although defendant’s specific mental illness
diagnoses were not presented to the jury,
jurors had been told by expert witness
that he had a prior diagnosis of serious
psychological problems, and while counsel
asked witness whether defendant’s medications were for mental illness, he may not
have further questioned witness about
such drugs as a strategy to avoid sparking
a concern about defendant’s continued
dangerousness. U.S. Const. Amend. 6; 28
U.S.C.A. § 2254(d)(2).
38. Habeas Corpus O767
On federal habeas review, a state appellate court’s finding may be reasonable
even if the federal court would have decided the issue differently; the test is whether
the state appellate court had evidentiary
support for its view.
28 U.S.C.A.
§ 2254(d).
39. Habeas Corpus O486(5)
Oklahoma Court of Criminal Appeals’
(OCCA) determination that defense counsel acted reasonably in only engaging in
limited questioning of expert witness regarding defendant’s mental illnesses because such evidence constituted a doubleedged sword that could have served as
mitigating evidence or had substantial ag-

gravating potential was a reasonable application of Supreme Court precedents on the
deficiency prong of defendant’s ineffective
assistance claim, precluding federal habeas
relief based on such claim for defendant
who was convicted of murder and sentenced to death. U.S. Const. Amend. 6; 28
U.S.C.A. § 2254(d)(1).
40. Habeas Corpus O486(5)
Oklahoma Court of Criminal Appeals’
(OCCA) conclusion that defense counsel’s
omission of evidence regarding defendant’s
mental illness, during sentencing phase of
defendant’s capital murder trial, was not
prejudicial to defendant given fact that
counsel kept other possibly aggravating
evidence from the jury by focusing on
defendant’s development rather than his
mental illness was reasonable, and thus
defendant was not entitled to federal habeas relief based on ineffective assistance of
counsel.
U.S. Const. Amend. 6; 28
U.S.C.A. § 2254(d).
41. Criminal Law O1961
In analyzing the prejudice prong of an
ineffective assistance claim based on failure to present mitigating evidence, the
court considers not only the mitigation evidence that defense counsel should have
presented but also what the prosecution
would have presented in response. U.S.
Const. Amend. 6.
42. Constitutional Law O4705
Sentencing and Punishment O1757
In capital cases, the Eighth and Fourteenth Amendments ordinarily prevent the
trial court from barring consideration of
any of the defense evidence on mitigation.
U.S. Const. Amends. 8, 14.
43. Sentencing
and
O1780(3), 1789(9)

Punishment

In reviewing a claim that the jury was
instructed too narrowly on evidence that

Resp. App. 6

968

941 FEDERAL REPORTER, 3d SERIES

could be considered mitigating in a capital
case, the court first asks whether there is
a reasonable likelihood that the jury has
applied the challenged instruction in a way
that prevents the consideration of constitutionally relevant evidence, and second,
whether a reasonable likelihood exists that
arguments by the prosecutor reinforced an
impermissible interpretation of the challenged jury instruction and made it likely
that jurors would arrive at such an understanding.
44. Habeas Corpus O508
Oklahoma Court of Criminal Appeals’
(OCCA) approval of jury instruction used
at sentencing phase of petitioner’s capital
murder trial, which defined mitigating circumstances as those that could reduce degree of moral culpability, was not contrary
to or unreasonable application of clearly
established federal law, and thus petitioner
was not entitled to federal habeas relief on
his Eighth Amendment challenge alleging
that jury was prevented from considering
all mitigating evidence; three other jury
instructions given suggested that the jury
would have recognized its ability to consider all mitigating evidence. U.S. Const.
Amend. 8; 28 U.S.C.A. § 2254(d)(1).
45. Habeas Corpus O508
Oklahoma Court of Criminal Appeals’
(OCCA) decision that prosecutors’ arguments did not improperly invite jury to
disregard mitigating evidence in sentencing defendant for capital murder was not
based on unreasonable determination of
facts, and thus federal habeas relief was
not warranted due to alleged violation of
defendant’s Eighth and Fourteenth
Amendment rights; second prosecutor’s rebuttal argument asking jury to determine
whether aggravators outweighed the mitigation evidence defendant presented could
have been seen as an invitation to weigh
all mitigating evidence, and although prosecutor referred to moral culpability, such

argument could have been seen as a response to defense counsel’s argument that
defendant was not a cold-blooded terrorist
but was reacting to setbacks involving divorce and unemployment. U.S. Const.
Amends. 8, 14; 28 U.S.C.A. § 2254(d)(2).
46. Habeas Corpus O767
Even if a state court’s individualized
factual determinations are overturned as
unreasonable on federal habeas review,
what factual findings remain to support
the state court decision must still be
weighed under the overarching standard of
Antiterrorism and Effective Death Penalty
Act. 28 U.S.C.A. § 2254(d)(2).
47. Habeas Corpus O508
Oklahoma Court of Criminal Appeals’
(OCCA) decision that prosecutor’s improper comment, suggesting that mitigation evidence mattered only if it reduced defendant’s culpability, did not preclude jury
from considering mitigating evidence in
light of jury instructions and other comments by prosecution was not based on
unreasonable application of Supreme
Court precedent, and thus federal habeas
relief was not warranted due to alleged
violation of defendant’s Eighth and Fourteenth Amendment rights in his prosecution for capital murder; jury received virtually all jury instructions that federal
courts had regarded as curative in such
circumstances. U.S. Const. Amends. 8, 14;
28 U.S.C.A. § 2254(d)(1).
48. Habeas Corpus O498
When a habeas petitioner argues that
a prosecutor exploited a jury instruction to
improperly restrict what could be mitigating, the court considers the extent to
which the jury was properly instructed.
49. Sentencing and Punishment O57
Families of murder victims are
banned from requesting a particular sentence.

Resp. App. 7

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

969

50. Habeas Corpus O508

55. Habeas Corpus O447

Oklahoma Court of Criminal Appeals’
(OCCA) determination that trial court did
not violate the constitution by permitting
two of victim’s family members to request
the death penalty in defendant’s murder
trial was contrary to clearly established
Supreme Court precedent, as required for
defendant to be entitled to federal habeas
relief. 28 U.S.C.A. § 2254(d)(1).

For harmlessness inquiry, federal habeas court considers whether the constitutional error had substantial and injurious
effect or influence in determining the
jury’s verdict.

51. Habeas Corpus O765.1
Federal habeas court engages in de
novo review of whether state court’s constitutional error was harmless.
52. Habeas Corpus O505
Federal habeas court regards improper testimony requesting a particular sentence as prejudicial, thus warranting habeas relief, only if it had a substantial and
injurious effect or influence in determining
the jury’s verdict.
53. Habeas Corpus O505
Erroneous introduction of victim-impact testimony is reviewable for harmlessness on federal habeas review.
54. Habeas Corpus O508
Trial court’s erroneous introduction of
victim-impact testimony, in which two family members of victim requested death
penalty, did not substantially affect jury’s
recommendation to sentence defendant to
death on murder conviction, and thus was
harmless, precluding federal habeas relief,
where improper testimony was very brief,
prosecutor did not mention such testimony
in closing arguments, and state had presented powerful evidence on aggravating
factors of the great risk of death of more
than one person and defendant’s continuing threat, which defendant did not challenge. 28 U.S.C.A. § 2254.

56. Habeas Corpus O461
A cumulative-error analysis on federal
habeas review aggregates all errors that
are individually harmless, analyzing
whether the cumulative effect undermines
confidence in the fairness of the retrial and
reliability of the verdict.
57. Habeas Corpus O461
Federal habeas court considers cumulative errors to be separate constitutional
violations.
58. Habeas Corpus O486(1)
When a federal habeas court rejects a
claim of ineffective assistance based on a
lack of prejudice, it can aggregate the
prejudice from the deficient performance.
U.S. Const. Amend. 6.
59. Habeas Corpus O818
Court of Appeals can grant a certificate of appealability on an issue in a habeas case only if the district court’s ruling
were debatable among reasonable jurists.
60. Habeas Corpus O818
No reasonable jurist would have regarded as debatable issue of whether defendant’s trial counsel breached his duty to
defendant by failing to present as mitigation evidence a psychological risk assessment in response to state’s evidence that
defendant posed a continuing threat to
society, and thus court would not grant
certificate of appealability to review such
issue in defendant’s federal habeas action
challenging his conviction for murder and
sentencing to death; counsel had presented
expert witness who testified that defendant would not have posed a significant

Resp. App. 8

970

941 FEDERAL REPORTER, 3d SERIES

risk of future violence in a structured environment, and additional expert that defendant sought to have testify would have
testified that he was bipolar with psychotic
features, which could have backfired and
led to further evidence of dangerousness.
28 U.S.C.A. § 2254(d).

Appeal from the United States District Court for the Western District of
Oklahoma (D.C. No. 5:08-CV-00375-F)
Jack Fisher, Fisher Law Office, Edmond, Oklahoma, and Emma V. Rolls, Assistant Federal Public Defender, Oklahoma City, Oklahoma, on behalf of the
Petitioner-Appellant.
Jennifer L. Crabb, Assistant Attorney
General (Mike Hunter, Attorney General
of Oklahoma, with her on the briefs), Oklahoma City, Oklahoma, on behalf of the
Respondent-Appellee.
Before TYMKOVICH, Chief Judge,
BACHARACH, and McHUGH, Circuit
Judges.
BACHARACH, Circuit Judge.

The Standard of ReviewTTT972
Appellate Arguments Covered in an Existing Certificate of AppealabilityTTT973

A.

of

of

(b) The Need for an Evidentiary HearingTTT982
(c)

ConclusionTTT987

C. Failure to Adequately Present Mitigation EvidenceTTT987
1. The Legal Standard and the Standard
of ReviewTTT987
2. Intellectual Impairment as a MitigatingTTT988
(a) Evidence of an Intellectual ImpairmentTTT988
(b) Mitigation Evidence Involving an Intellectual DisabilityTTT989
(c) Mitigation Evidence Involving Borderline Intellectual FunctioningTTT991
i. The OCCA’s Reliance on Both Prongs
(Deficient
Performance
and
Prejudice)TTT991
ii.

Deficient PerformanceTTT991

iii.

PrejudiceTTT993

(d) Mitigation Evidence Involving Mental
IllnessTTT994

ii. Other Existing Evidence of Mr. Harris’s Mental IllnessTTT995

BackgroundTTT971

Assistance

Determination

i. Mental Health Evidence in the 2005
RetrialTTT994

TABLE OF CONTENTS

I. Ineffective
selTTT973

(a) Unreasonable
FactTTT978

Coun-

The Strickland StandardTTT973

B. Failure to Seek a Pretrial Hearing
on Intellectual Disability as a Bar to ExecutionTTT974

iii. Claim of Ineffective Assistance of
CounselTTT995
a.

Deficiency ProngTTT996

(i) Unreasonable Factual DeterminationsTTT996
(ii) Unreasonable Application of Supreme Court PrecedentsTTT997
b.

PrejudiceTTT997

II. Jury Instructions and Closing Arguments as to Mitigation EvidenceTTT999

1.

The Standard of ReviewTTT974

2.

Deficiency ProngTTT976

A. The Standard of ReviewTTT999

3.

Prejudice ProngTTT978

B.

The Jury InstructionTTT1000

Resp. App. 9

971

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

C. The Prosecutors’
mentsTTT1001

Closing
28

Argu-

1. Applicability
§ 2254(d)TTT1001

of

U.S.C.

2. Unreasonable
FactTTT1001

Determination

of

3. Unreasonable Application of Supreme
Court PrecedentTTT1003
III.

Victim-Impact TestimonyTTT1006

A. The Constitutional Limit on VictimImpact TestimonyTTT1006
B. The Victim-Impact Testimony and
the Issue of HarmlessnessTTT1007
C. Structural
rorTTT1007
D.
IV.

or

Harmless

On appeal, Mr. Harris argues in part
that his trial counsel was ineffective in
failing to seek a pretrial hearing on the
existence of an intellectual disability, which
would have prevented the death penalty.1
The federal district court rejected this
claim. In our view, the district court should
have conducted an evidentiary hearing to
decide this claim, so we reverse and remand for further consideration. Given the
need to remand on this issue, we also
remand for the district court to reconsider
the claim of cumulative error. But we affirm the denial of habeas relief on Mr.
Harris’s other claims.

Er-

HarmlessnessTTT1008
Cumulative ErrorTTT1010

Motion to Expand the Certificate of AppealabilityTTT1011

Background 2
Jimmy Dean Harris and Pam Harris
were married for about twenty years. Mr.
Harris repaired transmissions, as did Pam,
who worked for Mr. Merle Taylor. With
the passage of time came marital strain
between Mr. Harris and Pam.

ConclusionTTT1012
Mr. Jimmy Dean Harris was convicted
of first-degree murder and sentenced to
death. He appealed, and the Oklahoma
Court of Criminal Appeals (OCCA) reversed his sentence and remanded for a
retrial at the penalty phase. After the retrial, the state district court reimposed the
death penalty. Mr. Harris appealed and
sought post-conviction relief in state court.
When these efforts failed, he brought a
habeas petition in federal district court.
The court denied relief, and Mr. Harris
appeals.
1.

Older opinions often used the term ‘‘mentally retarded.’’ See, e.g., Atkins v. Virginia, 536
U.S. 304, 316, 122 S.Ct. 2242, 153 L.Ed.2d
335 (2002). But more recently, we have used
the term ‘‘intellectually disabled.’’ See Postelle
v. Carpenter, 901 F.3d 1202, 1210 n.4 (10th
Cir. 2018); cf. Rosa’s Law, Pub. L. No. 111256, 124 Stat. 2643 (2010) (changing references in federal law from ‘‘mental retarda-

In 1999, Pam obtained a divorce and
restraining order, requiring Mr. Harris to
move out of their house. He complied,
moving his belongings into a storage shed,
but he grew distraught—crying, drinking,
and taking Valium.
The next day, Pam returned home and
discovered that Mr. Harris had vandalized
the house and moved some of her belongings into the storage shed. This incident
led Pam to change the locks and to obtain
a second restraining order, which required
Mr. Harris to stay away from the house.
tion’’ and ‘‘mentally retarded’’ to ‘‘intellectual
disability’’ and ‘‘intellectually disabled’’).
2.

Under the Antiterrorism and Effective
Death Penalty Act (AEDPA), we defer to the
OCCA’s factual findings absent clear and convincing evidence to the contrary. 28 U.S.C.
§ 2254(e)(1). We thus state the facts as the
OCCA found them unless noted otherwise.

Resp. App. 10

972

941 FEDERAL REPORTER, 3d SERIES

Mr. Harris repeatedly asked Pam to
allow him to retrieve his tools. After a few
days, Mr. Harris went to Pam’s workplace
and shot at her, Mr. Taylor, and his
daughter (Jennifer Taylor). Mr. Taylor
died, Pam was wounded, and Jennifer Taylor escaped without injury.
At a 2001 trial, the jury found Mr. Harris guilty of first-degree murder in the
death of Merle Taylor and recommended
the death penalty, finding one aggravating
circumstance (creation of a substantial risk
of death to more than one person).3 As
noted above, the death sentence was vacated by the OCCA in a prior appeal. At the
2005 retrial on the penalty, the prosecution
alleged two aggravating factors:
1. Mr. Harris created a substantial risk
of death to more than one person.
2. Mr. Harris posed a continuing threat
to society. The jury found both aggravating factors and again recommended the death penalty. The trial
court agreed with the recommendation and resentenced Mr. Harris to
the death penalty.
The Standard of Review
[1, 2] We engage in de novo review of
the federal district court’s legal analysis.
Littlejohn v. Trammell, 704 F.3d 817, 825
(10th Cir. 2013). In district court, review is
deferential when the state appellate court
rejects a claim on the merits. After rejection of the claim in state court, the federal
district court can reach the merits only if
the state appellate court’s decision was
1

3.

contrary to, or involving an unreasonable application of, clearly established Federal law, as determined by
the Supreme Court of the United
States; or
The jury also found Mr. Harris guilty of

1

based on an unreasonable determination of the facts given the evidence
presented in state court.

Antiterrorism and Effective Death Penalty
Act of 1996 (AEDPA), 28 U.S.C. § 2254(d).
[3] To determine whether a state-court
decision was contrary to, or involved an
unreasonable application of, clearly established law, we engage in a two-step process. Budder v. Addison, 851 F.3d 1047,
1051 (10th Cir.), cert. denied, ––– U.S.
––––, 138 S. Ct. 475, 199 L.Ed.2d 374
(2017). We first determine the clearly established law by considering Supreme
Court precedent. Williams v. Taylor, 529
U.S. 362, 379, 120 S.Ct. 1495, 146 L.Ed.2d
389 (2000). We then ask whether the state
court’s decision was contrary to, or involved an unreasonable application of, that
precedent. Id.
[4] We must defer to the state court’s
factual findings unless ‘‘the state court[ ]
plainly misapprehend[ed] or misstate[d]
the record in making [its] findings, and the
misapprehension goes to a material factual
issue that is central to [the] petitioner’s
claim.’’ Ryder ex rel. Ryder v. Warrior,
810 F.3d 724, 739 (10th Cir. 2016) (quoting
Byrd v. Workman, 645 F.3d 1159, 1171–72
(10th Cir. 2011)). To overcome the state
appellate court’s factual findings, the petitioner must show that they are objectively
unreasonable. Smith v. Aldridge, 904 F.3d
874, 880 (10th Cir. 2018).
If the state’s highest court acted unreasonably in applying Supreme Court precedent or finding facts, the district court
must decide whether the conviction or sentence violated the Constitution. See Fry v.
Pliler, 551 U.S. 112, 119, 127 S.Ct. 2321,
168 L.Ed.2d 16 (2007) (stating that 28
U.S.C. § 2254(d) provides ‘‘precondition[s]
to the grant of habeas relief TTT, not an
entitlement to it’’); Hancock v. Trammell,
attempted murder as to Pam.

Resp. App. 11

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

798 F.3d 1002, 1010 (10th Cir. 2015)
(‘‘[E]ven when petitioners satisfy the
threshold in § 2254(d), they must establish
a violation of federal law or the federal
constitution.’’).
Appellate Arguments Covered in
an Existing Certificate of
Appealability
Our court previously granted a certificate of appealability on Mr. Harris’s appellate arguments involving ineffective
assistance of counsel, an improper jury
instruction on mitigation evidence, improper closing arguments about the mitigation evidence, improper victim testimony recommending a particular sentence,
and cumulative error. We reverse and
remand for further consideration of the
claims involving (1) ineffective assistance
in the failure to seek a pretrial hearing
on an intellectual disability and (2) cumulative error.
I.

Ineffective Assistance of Counsel

[5] The Sixth Amendment entitles a
defendant to effective assistance of counsel. Strickland v. Washington, 466 U.S.
668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984).
Invoking this amendment, Mr. Harris argues that his attorney at the 2005 retrial
was ineffective for failing to
1

seek a pretrial hearing on the existence of an intellectual disability,
which would have precluded the
death penalty,

1

present additional trial evidence for
mitigation based on an intellectual
disability, and

1

present additional mitigation evidence at trial regarding a lesser intellectual impairment or mental illness.

A.

973

The Strickland Standard

To address Mr. Harris’s arguments, the
district court needed to apply the two-part
test set out in Strickland v. Washington,
466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d
674 (1984).
[6–9] Under the first part of the test,
the court was to determine whether Mr.
Harris’s attorney was deficient. Attorneys
are deficient when their mistakes are so
serious that they stop functioning as
‘‘counsel’’ for purposes of the Sixth
Amendment. Id. at 687, 104 S.Ct. 2052. In
making this determination, the court ordinarily presumes that counsel’s performance is reasonable and might entail a
sound strategy. Newmiller v. Raemisch,
877 F.3d 1178, 1196 (10th Cir. 2017). In
capital cases, however, courts scrutinize
attorney performance particularly closely
in the sentencing phase. Littlejohn v.
Trammell, 704 F.3d 817, 859 (10th Cir.
2013).
[10–13] To overcome this presumption,
a petitioner ‘‘must show that counsel’s representation fell below an objective standard of reasonableness.’’ Strickland, 466
U.S. at 688, 104 S.Ct. 2052. This inquiry is
‘‘highly deferential,’’ and courts should
avoid ‘‘the distorting effects of hindsight.’’
Id. at 689, 104 S.Ct. 2052. Strategic decisions after a ‘‘thorough investigation’’ are
afforded even greater deference and are
‘‘virtually unchallengeable.’’ Id. at 690, 104
S.Ct. 2052. ‘‘Even under de novo review,
the standard for judging counsel’s representation is a most deferential one.’’ Harrington v. Richter, 562 U.S. 86, 105, 131
S.Ct. 770, 178 L.Ed.2d 624 (2011).
[14] When a habeas petitioner alleges
ineffective assistance of counsel, deference
exists both in the underlying constitutional
test (Strickland) and the AEDPA’s standard for habeas relief, creating a ‘‘doubly
deferential judicial review.’’ Knowles v.

Resp. App. 12

974

941 FEDERAL REPORTER, 3d SERIES

Mirzayance, 556 U.S. 111, 123, 129 S.Ct.
1411, 173 L.Ed.2d 251 (2009). Under this
double deference, we consider ‘‘whether
there is any reasonable argument that
counsel satisfied Strickland’s deferential
standard.’’ Ellis v. Raemisch, 872 F.3d
1064, 1084 (10th Cir. 2017) (quoting Harrington v. Richter, 562 U.S. 86, 105, 131
S.Ct. 770, 178 L.Ed.2d 624 (2011) (emphasis in original)).
[15, 16] The petitioner must show not
only a deficiency in the representation but
also prejudice. Strickland v. Washington,
466 U.S. 668, 692, 104 S.Ct. 2052, 80
L.Ed.2d 674 (1984). For prejudice, the petitioner ‘‘must show that there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the
proceeding would have been different.’’ Id.
at 694, 104 S.Ct. 2052.
B.

Failure to Seek a Pretrial Hearing on Intellectual Disability as a
Bar to Execution

Mr. Harris argues that his counsel was
ineffective for failing to seek a pretrial
hearing on an intellectual disability that
would render him ineligible for the death
penalty. This argument is based on Atkins
v. Virginia, 536 U.S. 304, 122 S.Ct. 2242,
153 L.Ed.2d 335 (2002), where the Supreme Court concluded that the execution
of intellectually disabled persons violates
the Eighth Amendment’s prohibition on
cruel-and-unusual punishment. 536 U.S. at
317, 321, 122 S.Ct. 2242.4
Despite this conclusion, the Supreme
Court allowed states to establish their own
standards for an intellectual disability. Id.
at 317, 122 S.Ct. 2242 n.22. We thus focus
on the content of Oklahoma law (when Mr.
Harris’s retrial took place). At that time,
4.

In the first direct appeal, Mr. Harris’s appellate counsel invoked Atkins, urging the
OCCA to remand for the state trial court to
determine the existence of an intellectual dis-

Oklahoma law allowed consideration of an
intellectual disability only if the defendant
had at least one IQ score under 70. See
Murphy v. State, 54 P.3d 556, 567–68
(Okla. Crim. App. 2002), overruled in part
on other grounds by Blonner v. State, 127
P.3d 1135, 1139 (Okla. Crim. App. 2006).
Upon such a showing, the defendant could
then establish an intellectual disability by
proving intellectual and adaptive deficits
and manifestation before age eighteen. Id.;
see pp. 983–84, below.
Mr. Harris argues that his attorney was
ineffective by failing to ask for a pretrial
hearing on intellectual disability. To address this argument, we consider and apply the standard of review.
1. The Standard of Review
In denying relief on this claim, the
OCCA explained that ‘‘[Mr.] Harris must
[1] show that counsel’s performance was so
deficient that he did not have counsel as
guaranteed by the Sixth Amendment, and
that [2] the deficient performance created
errors so serious as to deprive him of a
fair trial with reliable results.’’ Harris v.
State, 164 P.3d 1103, 1114 (Okla. Crim.
App. 2007). The OCCA rejected this claim
on the ground that Mr. Harris could not
establish prejudice. See id. at 1115–16
(concluding that ‘‘Harris cannot show he
was prejudiced by counsel’s failure’’ because ‘‘[w]e cannot conclude there was a
reasonable probability that, but for counsel’s omission, the results of this resentencing proceeding would have been different’’).
The State nevertheless argues that the
OCCA implicitly decided the deficiency
prong on the merits. The State’s argument
ability. But the OCCA vacated the sentence
without reaching this issue. Harris v. State, 84
P.3d 731, 757 (Okla. Crim. App. 2004).

Resp. App. 13

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

conflates two of the OCCA’s determinations: One involves Mr. Harris’s claim that
his counsel failed to seek a pretrial hearing
on the existence of an intellectual disability; the other determination involves Mr.
Harris’s claim that his counsel failed to
adequately present mitigating evidence at
the trial. See Harris v. State, 164 P.3d
1103, 1118 (Okla. Crim. App. 2007). For
the second claim (failure to adequately
present mitigating evidence at the trial),
the OCCA addressed the merits of the
deficiency prong. But the OCCA did not
address the deficiency prong on the first
claim (failure to seek a pretrial hearing on
intellectual disability). For this claim, the
OCCA expressly rested on the prejudice
prong without any mention of the deficiency prong. Harris v. State, 164 P.3d 1103,
1115–16 (Okla. Crim. App. 2007).
Because the OCCA did not adjudicate
the merits of the deficiency prong on this
claim, we engage in de novo review of this
part of the district court’s ruling. See
Rompilla v. Beard, 545 U.S. 374, 390, 125
S.Ct. 2456, 162 L.Ed.2d 360 (2005) (reviewing de novo the prejudice prong of an
ineffective-assistance claim because the
state court had not reached this prong);
Smith v. Sharp, 935 F.3d 1064, 1072 (10th
Cir. 2019) (‘‘[I]n cases in which a state
court addresses only one prong of a multiprong analysis, the Supreme Court requires that federal habeas courts address
the other prongs de novo.’’).
But the OCCA did reach the merits of
the prejudice prong, rejecting Mr. Harris’s
arguments. Still, Mr. Harris argues that
5.

Our precedents are inconsistent in discussing preservation in cases involving 28 U.S.C.
§ 2254. We sometimes treat unpreserved issues as waived, sometimes as forfeited. See
Harmon v. Sharp, 936 F.3d 1044, 1085–91
(10th Cir. 2019) (Holmes, J., concurring) (discussing this inconsistency in our case law).
The difference here is academic. If the issue

975

we should engage in de novo review on this
prong because the OCCA did not
1 sufficiently consider Dr. Callahan’s
report or
1 permit an evidentiary hearing.
[17] Mr. Harris did not raise his first
argument (insufficient consideration of the
evidence by the OCCA) in district court.
Even in habeas cases involving the death
penalty, we consider arguments forfeited
or waived when they are raised for the
first time on appeal. See Hancock v. Trammell, 798 F.3d 1002, 1011 (10th Cir. 2015)
(forfeited); Owens v. Trammell, 792 F.3d
1234, 1246 (10th Cir. 2015) (waived).5
Mr. Harris’s second argument (the
OCCA’s denial of an evidentiary hearing)
is based on Wilson v. Workman, 577 F.3d
1284 (10th Cir. 2009) (en banc), where we
considered the OCCA’s denial of an evidentiary hearing and rejection of an ineffective-assistance claim without considering material non-record evidence. In these
circumstances, we concluded that the denial did not constitute an adjudication on the
merits under § 2254(d). Wilson, 577 F.3d
at 1300.
After we issued this opinion, however,
the OCCA clarified its procedures for deciding these claims. Simpson v. State, 230
P.3d 888 (Okla. Crim. App. 2010). Given
this clarification, we concluded in Lott v.
Trammell that
1 Wilson no longer applies and
1 any denial of a request for an evidentiary hearing on an ineffective-assistance claim constitutes an adjudication on the merits.
involves forfeiture rather than waiver, we
could consider the issue under the plain-error
standard. United States v. Carrasco-Salazar,
494 F.3d 1270, 1272 (10th Cir. 2007). But Mr.
Harris has not argued plain error, so we
would not entertain the issue even if it had
been forfeited rather than waived. See Hancock, 798 F.3d at 1011.

Resp. App. 14

976

941 FEDERAL REPORTER, 3d SERIES

705 F.3d 1167, 1213 (10th Cir. 2013). Mr.
Harris’s argument is thus foreclosed by
Lott.
Mr. Harris contends that (1) the panel in
Lott could not overrule the en banc opinion
in Wilson and (2) the OCCA’s clarification
of the standard came after the OCCA had
rejected Mr. Harris’s argument. We reject
both contentions.
[18] It is true that a panel typically
cannot overrule an earlier precedent. United States v. White, 782 F.3d 1118, 1123 n.2
(10th Cir. 2015). But a panel is not bound
by precedents that have been superseded
by a change in state law. Wankier v.
Crown Equip. Corp., 353 F.3d 862, 867
(10th Cir. 2003). Our interpretation of
state law changed when the OCCA clarified the standard for adjudicating a request for an evidentiary hearing. Lott, 705
F.3d at 1213.
[19] As Mr. Harris points out, the
OCCA had rejected his argument before
the OCCA clarified the state-law standard.
But the same was true in Lott, and we
relied there on the OCCA’s clarification in
deciding that the denial of an evidentiary
hearing constituted an adjudication on the
merits. Id. This approach makes sense because the OCCA was clarifying what its
rules had already been and didn’t suddenly
start adjudicating the merits when denying
evidentiary hearings. Wilson v. Trammell,
706 F.3d 1286, 1311 (10th Cir. 2013) (Gorsuch, J., concurring). Before Lott, we had
simply misunderstood Oklahoma law. See
id. (‘‘[T]he OCCA has explained that Wilson was mistaken in its understanding of
Oklahoma law.’’). Under Lott, we thus consider the OCCA’s denial of an evidentiary
hearing on an ineffective-assistance claim
as an adjudication on the merits.
6.

Alternatively, Mr. Harris could have asked
the trial jury to determine the existence and
impact of an intellectual disability. Lane, 87

We thus engage in de novo review of the
OCCA’s ruling on the deficiency prong, but
we apply § 2254(d)’s deferential standard
of review on the prejudice prong.
2.

Deficiency Prong

[20] Applying de novo review, we conclude that Mr. Harris’s attorney was deficient in failing to request a pretrial hearing to assess an intellectual disability.
[21, 22] The State argues that defense
counsel strategically decided to forgo a
pretrial hearing after a thorough investigation. Strategic decisions draw considerable
deference when the attorney has thoroughly investigated the law, the facts, and the
plausible alternatives. Strickland v. Washington, 466 U.S. 668, 690, 104 S.Ct. 2052,
80 L.Ed.2d 674 (1984). But merely calling
something a strategy does not prevent
meaningful scrutiny. We must still determine (1) whether an attorney has chosen
to forgo a course of action and (2) whether
that choice was reasonable under the circumstances. Brecheen v. Reynolds, 41 F.3d
1343, 1369 (10th Cir. 1994).
[23] In assessing the reasonableness of
an attorney’s investigation, we engage in
close scrutiny during the penalty phase of
capital cases. Littlejohn v. Trammell, 704
F.3d 817, 859 (10th Cir. 2013). In these
cases, ‘‘we refer to the ABA Guidelines for
the Appointment and Performance of
Counsel in Death Penalty Cases.’’ Id.
These guidelines require that ‘‘[c]ounsel at
every stage of the case should take advantage of all appropriate opportunities to
argue why death is not suitable punishment for their particular client.’’ ABA
Guidelines § 10.11(L). One appropriate opportunity involved a pretrial hearing on
the existence of an intellectual disability.6
P.3d at 632. But Mr. Harris argues only that
his attorney should have requested a pretrial
hearing.

Resp. App. 15

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

State ex rel. Lane v. Bass, 87 P.3d 629, 633
(Okla. Crim. App. 2004), overruled in part
on other grounds by Blonner v. State, 127
P.3d 1135, 1139 (Okla. Crim. App. 2006).
Had Mr. Harris been found intellectually
disabled, he would have been ineligible for
the death penalty. Id. at 632.
When the 2005 retrial took place, Oklahoma law permitted pretrial evidentiary
hearings before a judge on the existence of
an intellectual disability. See State ex rel.
Lane v. Bass, 87 P.3d 629, 633–35 (Okla.
Crim. App. 2004), overruled in part on
other grounds by Blonner v. State, 127
P.3d 1135, 1139 (Okla. Crim. App. 2006). If
the defendant preferred a jury, he or she
could also opt for a jury finding on the
existence of an intellectual disability. If the
jury found no intellectual disability, the
defendant could ask the judge to revisit
the issue after the trial. Id. at 635.
So if the judge or jury found no intellectual disability, the defense would have lost
nothing. But if either the judge or jury
found an intellectual disability, the death
penalty would have vanished as a possibility. Defense counsel thus had a risk-free
opportunity to avoid the death penalty.
Frazier v. Jenkins, 770 F.3d 485, 501 (6th
Cir. 2014)7; see Clinkscale v. Carter, 375
F.3d 430, 443 (6th Cir. 2004) (holding that
7.

The Frazier court explained: ‘‘[W]e fail to
see the downside in having a non-frivolous
Atkins hearing, and it is difficult to ascertain a
strategic reason for withdrawing the motion
[for an Atkins hearing] in this case.’’ 770 F.3d
at 501.

8.

At oral argument, the State also suggests
that Mr. Harris might have wanted to avoid
the delay from a pretrial hearing on intellectual disability. But the State had never before
argued in state or federal court that Mr. Harris wanted to expedite his capital proceedings. See United States v. Gaines, 918 F.3d
793, 800–801 (10th Cir. 2019) (‘‘We typically
decline to consider an appellee’s contentions
raised for the first time in oral argument.’’).

977

defense counsel was deficient by failing to
file a timely notice of an alibi defense when
counsel had ‘‘everything to gain’’ and
‘‘nothing to lose’’); see also Browning v.
Baker, 875 F.3d 444, 473 (9th Cir. 2017)
(‘‘[T]he obligation to investigate, recognized by Strickland, exists when there is
no reason to believe doing so would be
fruitless or harmful.’’).8
Though no downside existed,9 a pretrial
hearing had considerable upside. The evidence of an intellectual disability was
ready-made. For example, Mr. Harris had
IQ scores under the 70-point threshold
necessary for a determination of intellectual disability under Oklahoma law. Murphy
v. State, 54 P.3d 556, 567–68 (Okla. Crim.
App. 2002), overruled in part on other
grounds by Blonner v. State, 127 P.3d
1135, 1139 (Okla. Crim. App. 2006). One
expert witness, Dr. Martin Krimsky, had
already diagnosed Mr. Harris with a mild
intellectual disability. And other evidence
of Mr. Harris’s difficulties in intellectual
and adaptive functioning had already been
introduced at a competency hearing and
the 2001 trial.
The State contends that defense counsel
did not request a pretrial hearing because
he believed that Mr. Harris was not intellectually disabled.10 For this contention,
9.

We do not suggest that counsel should always argue points lacking any downside. See
Knowles v. Mirzayance, 556 U.S. 111, 121–22,
129 S.Ct. 1411, 173 L.Ed.2d 251 (2009) (stating that counsel may not be ineffective by
declining to assert a defense even when there
is nothing to lose).

10. In oral argument, the State also argues for
the first time that a pretrial hearing on intellectual disability might have generated new
evidence for the State to support an aggravating circumstance. This argument was omitted in the briefs. See note 8, above. But even if
we were to consider this argument, the State
does not explain what new evidence would
have been elicited at the pretrial hearing that

Resp. App. 16

978

941 FEDERAL REPORTER, 3d SERIES

the State points to the voir dire, where
defense counsel conceded that Mr. Harris
was not intellectually disabled. We do not
know why defense counsel made this concession,11 and there is nothing to suggest
that he had investigated the possibility of
an intellectual disability. Before this concession, Dr. Krimsky had already testified
that Mr. Harris was intellectually disabled.
Even if defense counsel had disagreed with
Dr. Krimsky’s assessment, the ABA guideline required him to take advantage of
every opportunity to argue against a death
sentence. One such opportunity existed for
a pretrial hearing on an intellectual disability, and the failure to request this hearing fell outside the acceptable range of
reasonable performance. See Williamson
v. Ward, 110 F.3d 1508, 1517–18 & n.12
(10th Cir. 1997) (concluding that the petitioner’s counsel was ineffective in failing to
seek a competency hearing given the existing evidence of incompetency and the lack
of any strategic advantage).
***
Defense counsel had nothing to lose by
requesting a pretrial hearing on an intellectual disability. Prevailing would have
eliminated the possibility of the death penalty, and losing would have left Mr. Harris
precisely where he would be anyway, free
to urge acquittal and a life sentence upon a
conviction. Given the evidence already developed in the 2001 proceedings, any reasonable defense attorney would have
sought a pretrial hearing on the existence
of an intellectual disability. By failing to
had not already been fully aired in the 2001
proceedings. Those proceedings included a
competency hearing and trial, and both included considerable evidence of Mr. Harris’s
mental state. In fact, the State ultimately conceded that any resulting evidence in aggravation had already been created in the 2001
proceedings. We thus reject the State’s eventual argument that the pretrial hearing might
have generated additional evidence of an aggravating circumstance.

seek a pretrial hearing, Mr. Harris’s attorney bypassed a risk-free opportunity to
avoid the death penalty. Bypassing this
opportunity constituted a deficiency in the
representation.
3. Prejudice Prong
Because the OCCA adjudicated the
prejudice prong on the merits, the federal
district court could have reached the merits of the prejudice issue only if Mr. Harris had cleared the hurdle under 28
U.S.C. § 2254(d). See pp. 972–73, above.
Section 2254(d) prevents consideration of
the merits unless the OCCA’s decision on
prejudice was (1) contrary to, or an unreasonable application of, clearly established
federal law or (2) based on an unreasonable determination of fact in light of the
evidence presented in state court. 28
U.S.C. § 2254(d)(1)–(2).
In our view, the OCCA’s decision on
prejudice was based on an unreasonable
factual determination, so we consider the
merits.12
(a) Unreasonable
Fact

Determination

of

[24] Mr. Harris contends that the
OCCA’s decision was based on an unreasonable factual determination under 28
U.S.C. § 2254(d)(2). He points to this passage in the OCCA’s decision: ‘‘All Harris’s
experts, including the ones who testified at
his [2001] trial and competency hearing,
considered these scores along with Har11. When defense counsel made the concession, he was supposed to be asking questions
to the venirepersons.
12. Given this conclusion, we need not decide
whether the OCCA’s decision on prejudice
was contrary to, or an unreasonable application of, clearly established federal law.

Resp. App. 17

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

ris’s other characteristics and concluded he
was not mentally retarded.’’ Harris v.
State, 164 P.3d 1103, 1115 (Okla. Crim.
App. 2007). Mr. Harris contends that this
passage reflects an unreasonable determination of fact because Dr. Krimsky had
assessed an intellectual disability.13
[25] The State argues that Mr. Harris
failed to preserve this contention in district
court by limiting his argument to Dr. Callahan’s affidavit. We disagree.
[26] To preserve the issue in district
court, Mr. Harris needed only to alert the
court to the issue and seek a ruling. See
Ecclesiastes 9:10-11-12, Inc. v. LMC Holding Co., 497 F.3d 1135, 1141 (10th Cir.
2007) (‘‘An issue is preserved for appeal if
a party alerts the district court to the issue
and seeks a ruling.’’); United States v.
Harrison, 743 F.3d 760, 763 (10th Cir.
2014) (stating that the test for specificity
of an objection in district court ‘‘is whether
the district court was adequately alerted to
the issue’’). We thus consider whether Mr.
Harris’s argument in district court encompassed Dr. Krimsky’s opinion. The State
answers ‘‘no;’’ we answer ‘‘yes.’’

979

(d).’’). In the ensuing section, Mr. Harris
extensively discusses all of the prior expert
opinions on the existence of an intellectual
disability.
For example, in discussing the criterion
of significant sub-average intellectual functioning, Mr. Harris discusses Dr. Callahan’s references to IQ tests administered
by herself, Dr. Martin Krimsky, and Dr.
Nelda Ferguson. Mr. Harris notes that the
IQ tests by Dr. Ferguson and Dr. Krimsky
would have met the state-law criterion for
IQ test results below 70. And Mr. Harris
underscores Dr. Krimsky’s test results and
assessment of mild intellectual disability:
Dr. Krimsky concluded the IQ scores
indicated that Mr. Harris was mildly
mentally retarded. He did not believe
Mr. Harris was malingering or ‘‘trying
to fool the test.’’ He again confirmed
Jimmy Dean Harris ‘‘an individual with
mental retardation.’’
Id. at 110 (citations omitted).
Mr. Harris also discusses the expert
opinions by Dr. John Smith, Dr. Wanda
Draper, and Dr. Ray Hand. In this discussion, Mr. Harris points out that Dr. Smith
confirmed Dr. Krimsky’s testing as an indication of intellectual disability. Id. at 112.

In district court, Mr. Harris treated Dr.
Callahan’s opinion as significant new evidence of intellectual disability. But Mr.
Harris did not confine his argument to Dr.
Callahan’s opinion. Mr. Harris’s argument
on prejudice spanned roughly 32 pages.
Within this discussion lay Mr. Harris’s
challenge to the OCCA’s characterization
of the expert opinions. Mr. Harris prefaces
this discussion by explaining why the
OCCA’s decision was unreasonable under
§ 2254(d)(2). See Habeas Pet. at 107 (‘‘Below is a discussion of the three (3) criteria,
the impact of Dr. Callahan’s report and
argument why the OCCA decision was unreasonable under both prongs of § 2254

Despite this broad record-based attack
on the OCCA’s factual determination, the
State points to two pages in which Mr.
Harris discusses his reliance on Dr. Callahan’s opinion. The State’s reliance on these
two pages disregards the other 30 pages in
Mr. Harris’s argument as well as the nature of Dr. Callahan’s report. In this report, Dr. Callahan relied not only on her
own examination and testing but also on
the prior testing and diagnoses. For example, Dr. Callahan noted that Dr. Krimsky,
Dr. Ferguson, and Dr. Smith had sepa-

13. Dr. Krimsky actually used the term ‘‘mentally retarded.’’ But in analyzing Mr. Harris’s

claim, we use the term ‘‘intellectually disabled.’’ See note 1, above.

Resp. App. 18

980

941 FEDERAL REPORTER, 3d SERIES

rately diagnosed Mr. Harris as having a
mild intellectual disability.
The State also argues that Mr. Harris
was relying solely on Dr. Callahan’s opinion. We disagree. Mr. Harris addressed all
of the expert witnesses, including both Dr.
Krimsky and Dr. Callahan. On appeal, Mr.
Harris narrows his focus to Dr. Krimsky.
This narrower argument is subsumed by
the broader argument that Mr. Harris had
presented in district court. The district
court was thus alerted to Mr. Harris’s
appellate argument, which sufficed for
preservation. See Joseph A. ex rel. Wolfe v.
N.M. Dep’t of Hum. Servs., 28 F.3d 1056,
1060 (10th Cir. 1994) (concluding that the
appellants had preserved their appellate
argument because it had been subsumed
by the argument presented in district
court); accord PCTV Gold, Inc. v. Speednet, LLC, 508 F.3d 1137, 1144 n.5 (8th Cir.
2007) (concluding that an appellate argument was preserved because it had been
encompassed in a more general argument
presented in district court). Because Mr.
Harris preserved the issue, we consider
the merits of his challenge to the reasonableness of the OCCA’s factual determination.
We conclude that the OCCA was clearly
mistaken as to Dr. Krimsky. The OCCA
concluded that all of the defense experts
had opined that Mr. Harris was not intellectually disabled. Harris v. State, 164
P.3d 1103, 1115 (Okla. Crim. App. 2007).
But Dr. Krimsky had opined that Mr. Harris was intellectually disabled.
In our appeal, the State appears to acknowledge expert testimony that Mr. Harris is intellectually disabled: ‘‘The only experts who have opined that Petitioner is
mentally retarded have relied upon unreliable test results that contradict the experts’ experiences with him.’’ Appellee’s
Resp. Br. at 32–33. In oral argument, the
State elaborates on this argument, insist-

ing that the OCCA could reasonably reject
Dr. Krimsky’s test results because Mr.
Harris was psychotic at the time of testing.
But this was not the OCCA’s rationale.
The OCCA reasoned that all defense experts had opined that Mr. Harris was not
intellectually disabled, and this was simply
not true of Dr. Krimsky. Harris, 164 P.3d
at 1115.
The State also denies that the OCCA
misunderstood Dr. Krimsky’s opinion. The
State points to a footnote where the OCCA
1 noted that one expert had believed
that he ‘‘had’’ to say that Mr. Harris’s test scores indicated an intellectual disability but
1 added that it ‘‘was not his conclusion’’ after examining Mr. Harris.
Id. at 1115 n.55.
The State’s argument misstates the testimony. Dr. Krimsky testified that he had
administered two IQ tests: (1) the Slossen
Intelligence Test Revised (‘‘SIT’’) and (2)
the Wechsler Adult Intelligence Scale, Revised (‘‘WAIS-R’’). Mr. Harris scored a 66
on the SIT and a 68 on the WAIS-R, and
Dr. Krimsky regarded these scores as
proof of mild intellectual disability.
He explained that ‘‘[t]here was an ambiguity comparing the result of the first test
[the SIT] TTT and [Mr. Harris’s] occupation of having been involved in repair of
auto transmissions.’’ 2001 Comp. Hearing,
vol. 1, at 63. But Dr. Krimsky noted that
the second test [the WAIS-R] was ‘‘much
more comprehensive’’ with ‘‘a high validity
in relation to occupational and socioeconomic status.’’ Id. at 64. Dr. Krimsky ultimately considered both sets of results to
be consistent and accurate.
Dr. Krimsky also testified that Mr. Harris’s mechanical skills could have been acquired by someone who was mildly intellectually disabled, pointing out that Mr.
Harris had spent ‘‘a long period of time

Resp. App. 19

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

TTT observing his father and other people
fix transmissions.’’ Id. at 65. Given this
lengthy period of observation, Dr. Krimsky
opined that Mr. Harris’s low IQ was consistent with his skill in fixing transmissions.
Dr. Krimsky thus testified that Mr. Harris’s skills did not undermine the assessment of mild intellectual disability. In fact,
Dr. Krimsky corrected an attorney who
had referred to Mr. Harris as ‘‘borderline,’’ with Dr. Krimsky repeating his characterization of Mr. Harris as having ‘‘mild
mental retardation.’’14 Id. The OCCA thus
made an unreasonable factual finding that
all of Mr. Harris’s experts had opined that
he was not intellectually disabled. Dr.
Krimsky was one of Mr. Harris’s experts,
and he specifically opined that Mr. Harris
was intellectually disabled.

981

sonable factual determination; the state
court’s decision must have also been
‘‘based on’’ the unreasonable factual determination. Byrd v. Workman, 645 F.3d
1159, 1172 (10th Cir. 2011).
In our view, however, the OCCA did
indeed base its decision on the unreasonable factual determination. The OCCA explained that it had found no prejudice:
Nothing in this record shows that, had
counsel made [a request for a pretrial
hearing], evidence would have shown by
a preponderance of the evidence that
Harris was mentally retarded. There is
a great deal of evidence in the record to
show otherwise, including the opinion
of several experts who testified that
Harris was not mentally retarded. We
cannot conclude that there was a reasonable probability that, but for counsel’s
omissions, the results of this resentencing proceeding would have been different.

The State also argues that even if the
OCCA’s factual determination had been
unreasonable, this factual determination
had not formed the basis for the OCCA’s
decision. As the State points out, it is not
enough for Mr. Harris to show an unrea-

Harris v. State, 164 P.3d 1103, 1116 (Okla.
Crim. App. 2007) (emphasis added).15 By

14. At one point, Dr. Krimsky was asked,
‘‘[W]hat conclusions did you come to regarding [Mr. Harris’s] mental state as far as his IQ
and the mental retardation?’’ Id. He answered
that the ‘‘mental retardation’’ was ‘‘incidental.’’ Id. In Dr. Krimsky’s view, Mr. Harris
was ‘‘in a psychotic status and in need of
mental health treatment, psychiatric treatment.’’ Id. at 65–66. Dr. Krimsky used the
term ‘‘mental state’’ to refer to Mr. Harris’s
competency and his ability to retain consistent contact with his ‘‘outer situation.’’ Id. at
66–67. With respect to this mental state, Dr.
Krimsky concluded that Mr. Harris was delusional and not competent, adding that Mr.
Harris’s competency could probably be restored within a reasonable period of time. But
Dr. Krimsky did not testify that the delusions
had affected the IQ scores or that Mr. Harris
was trying to manipulate the results. Indeed,
Dr. Krimsky’s assessment of Mr. Harris’s intellectual disability remained consistent
throughout the competency hearing. In Dr.
Krimsky’s unchanging view, Mr. Harris had
mild intellectual disability.

15. In assessing the evidence, the OCCA disregarded the fact that the controlling Oklahoma definition of intellectual disability was
set forth in a case decided after the competency hearing and the first trial. Murphy v.
State, 54 P.3d 556, 567-68 (Okla. Crim. App.
2002), overruled in part on other grounds by
Blonner v. State, 127 P.3d 1135, 1139 (Okla.
Crim. App. 2006). Accordingly, none of the
2001 testimony applied the controlling standard for an intellectual disability. We have no
way of knowing what the expert witnesses
would have said if they had applied the standard for an intellectual disability that governed at the time of the 2005 retrial. For
example, Dr. Ray Hand testified at the first
trial that Mr. Harris had exhibited ‘‘borderline intellectual functioning’’ but was not
‘‘mentally retarded.’’ 2001 Tr., v. 15, at 133–
34. But Dr. Hand based that conclusion in
part on his view about which IQ scores were
‘‘more realistic and more representative of
[Mr. Harris’s] actual abilities.’’ Id. at 131. In
contrast, the controlling standard does not

Resp. App. 20

982

941 FEDERAL REPORTER, 3d SERIES

highlighting the expert opinions rejecting
an intellectual disability, the OCCA suggested that this was the critical evidence
on prejudice. The OCCU thus based its
decision on its perception of the various
expert opinions, including its mistaken
perception of Dr. Krimsky’s opinion.
(b) The Need for an Evidentiary Hearing
We thus must tackle the prejudice prong
in the first instance. Magnan v. Trammell,
719 F.3d 1159, 1175 (10th Cir. 2013). To do
so, we must consider the evidence of intellectual disability.
Mr. Harris contends that a pretrial
hearing could have led to a finding of
intellectual disability, pointing to his history of IQ testing, Dr. Callahan’s report,
expert testimony, and evidence of difficulties in adaptive functioning. In response,
the State focuses on Mr. Harris’s older IQ
tests, the testimony of other experts, and
Mr. Harris’s employment history.
The issue of prejudice turns on whether
a reasonable factfinder could find an intellectual disability. With this issue hotly disputed and the lack of a factual finding, the
district court could not grant habeas relief.
See Littlejohn v. Trammell, 704 F.3d 817,
856 (10th Cir. 2013) (stating that even
though counsel’s conduct may have been
prejudicial, the court could not grant habeas relief ‘‘[a]t this juncture’’ because the
require the parties or the court to identify the
more realistic or representative score. The
question is instead whether the defendant has
‘‘an intelligence quotient of seventy or below,
as reflected by at least one scientifically recognized, scientifically approved, and contemporary intelligence quotient test.’’ Murphy, 54
P.3d at 568. Dr. Hand did not apply this test.
Dr. Hand also testified about various deficits in Mr. Harris’s adaptive functioning. But
Dr. Hand was not asked whether Mr. Harris
had ‘‘significant limitations in adaptive functioning in at least two of the following skill
areas: communication; self-care; social/interpersonal skills; home living; self-direction; ac-

persuasiveness of particular expert testimony was disputed and the claim was
‘‘highly fact-bound’’).
Nor could the district court deny habeas
relief, for no factfinder has considered Mr.
Harris’s evidence of intellectual disability
based on the Oklahoma test that applied
during Mr. Harris’s retrial. Without a factual finding based on the applicable test, a
court could not properly assess the extent
of the prejudice.
To decide the issue of prejudice, the
district court needed to assess the likelihood that defense counsel could have proven the existence of an intellectual disability. Like us, the district court had only a
cold record containing conflicting evidence
on Mr. Harris’s intellectual status. Dr.
Krimsky assessed an intellectual disability;
Dr. Callahan assessed borderline intellectual functioning; and Dr. Draper considered Mr. Harris to be intellectually impaired but not intellectually disabled.16
No court has had the opportunity to
hear these experts testify and apply the
Oklahoma test on intellectual disability. If
these experts had testified in a pretrial
hearing focused on that test, which experts
would have swayed the factfinder? To provide at least a meaningful prediction, a
court must at least hear the conflicting
evidence, apply Oklahoma’s test for an intellectual disability, and determine which
expert witnesses to believe. See Smith v.
ademics; health and safety; use of community
resources; and work.’’ Murphy, 54 P.3d at
568.
16. Dr. Hand and Dr. Smith supplied other
assessments. Dr. Hand did not believe that
Mr. Harris was mentally retarded (under his
definition of mental retardation) but thought
that he had ‘‘mixed specific learning disabilities’’ and was likely ‘‘slow’’ or had ‘‘borderline intellectual functioning.’’ 2001 Tr., v. 15,
at 133–34. And Dr. Smith believed that Mr.
Harris had ‘‘normal intelligence.’’ Comp.
Hearing, v. 1, at 215.

Resp. App. 21

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

Sharp, 935 F.3d 1064, 1077 (10th Cir. 2019)
(stating that ‘‘Atkins clearly establishes
that intellectual disability must be assessed, at least in part, under the existing
clinical definitions applied through expert
testimony’’ and recognizing ‘‘the centrality
of expert testimony to our review of Atkins verdicts’’). No court has engaged in
this scrutiny, so any court would need an
evidentiary hearing to predict the outcome
of a pretrial hearing on an intellectual
disability.
We addressed a similar situation in Littlejohn v. Trammell, 704 F.3d 817 (10th
Cir. 2013). There we concluded that the
availability of habeas relief turned on a
disputed factual issue that prevented a
meaningful decision based on the cold record alone. Littlejohn, 704 F.3d at 856. We
directed the district court to conduct an
evidentiary hearing on the issue of prejudice. Id. Here we have the same need for
an evidentiary hearing.
[27] An evidentiary hearing is ordinarily unavailable when the petitioner
failed to diligently develop the factual bases of the claim in state court. Williams v.
Taylor, 529 U.S. 420, 432, 120 S.Ct. 1479,
146 L.Ed.2d 435 (2000).17 Here, however,
Mr. Harris diligently tried to develop the
factual foundations of his claim when he
was in state court. For example, he argued
that his trial counsel had failed to seek a
pretrial hearing on intellectual disability.
With this argument, Mr. Harris requested
an evidentiary hearing and supported the
request with Dr. Callahan’s affidavit. The
OCCA denied this request.
Mr. Harris did all that he could to develop the factual foundation for a showing of
17. Exceptions exist when the habeas claim is
based on
1 a new constitutional rule that the Supreme Court has made retroactive on
collateral review or
1 a factual predicate not reasonably discoverable earlier through reasonable dil-

983

prejudice. By denying the opportunity for
an evidentiary hearing, the OCCA left us
with only a cold record and no factual
findings for the innately fact-intensive issue of prejudice.
[28] Because Mr. Harris was diligent,
we consider whether Mr. Harris’s proof of
allegations would entitle him to habeas
relief. See Hammon v. Ward, 466 F.3d
919, 927 (10th Cir. 2006). That inquiry
turns on the issue of prejudice. Defense
counsel’s deficient performance would be
prejudicial if a pretrial hearing would create a reasonable probability of a lesser
sentence. See Strickland v. Washington,
466 U.S. 668, 694, 104 S.Ct. 2052, 80
L.Ed.2d 674 (1984).
Mr. Harris argues that if his trial attorney had requested a pretrial hearing, the
trial court would have granted the request
and found Mr. Harris intellectually disabled, rendering him ineligible for execution. We thus gauge the likelihood that the
state court would have found an intellectual disability.
As noted, the Supreme Court has prohibited the execution of intellectually disabled individuals, but allowed the states to
define the term ‘‘intellectual disability.’’ Atkins v. Virginia, 536 U.S. 304, 317, 122
S.Ct. 2242, 153 L.Ed.2d 335 (2002). When
Mr. Harris appealed his conviction, Oklahoma law required a defendant to show at
least one IQ score under 70. Murphy v.
State, 54 P.3d 556, 567–68 (Okla. Crim.
App. 2002), overruled in part on other
grounds by Blonner v. State, 127 P.3d
1135, 1139 (Okla. Crim. App. 2006). If the
defendant produced at least one score unigence, along with clear and convincing
evidence showing that no reasonable
factfinder would have found guilt without the constitutional error.
28 U.S.C. § 2254(e)(2)(A)(i)–(ii).

Resp. App. 22

984

941 FEDERAL REPORTER, 3d SERIES

der 70, he or she would need to satisfy
three elements:
1. The person ‘‘functions at a significantly sub-average intellectual level
that substantially limits his or her
ability to understand and process information, to communicate, to learn
from experience or mistakes, to engage in logical reasoning, to control
impulses, and to understand the reactions of others.’’
2. The disability ‘‘manifested itself before the age of eighteen.’’
3. The disability ‘‘is accompanied by
significant limitations in adaptive
functioning in at least two of the
following skill areas: communication;
self-care; social/interpersonal skills;
home living; self-direction; academics; health and safety; use of
community resources; and work.’’
Id.; see p. 974, above.
Mr. Harris’s counsel could have satisfied
the threshold requirement for at least one

IQ score below 70. And the State does not
challenge the second element (manifestation before the age of eighteen). The dispute exists on the first and third elements,
which address Mr. Harris’s intellectual and
adaptive deficits.
Mr. Harris’s evidence on intellectual deficits involves three categories:
1.

his history of IQ testing,

2.

the testimony of an expert witness,
and

3.

the affidavit of an expert witness.

First, Mr. Harris’s IQ testing began in
his childhood. Two childhood IQ tests
yielded scores of 87 and 83. After the
murder, new IQ tests yielded scores of 63,
66, 68, and 75. And after Mr. Harris’s
retrial, Dr. Jennifer Callahan tested Harris’s IQ and obtained scores ranging from
67–75 and 72–77.

Resp. App. 23

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

Second, Mr. Harris points to Dr. Krimsky’s testimony about his two IQ tests. Dr.
Krimsky testified in the 2001 competency
hearing, explaining that his testing showed
‘‘mild mental retardation.’’ See 2001 Comp.
Hearing, v. 1, at 58. When asked whether
Mr. Harris’s occupation was consistent
with borderline intellectual disability, Dr.
Krimsky corrected the attorney, pointing
out that Mr. Harris was ‘‘not borderline’’
and reiterated that he had ‘‘mild mental
retardation.’’ Id. at 65.
Third, Mr. Harris points to an affidavit
and report by Dr. Callahan, who concluded
that Mr. Harris’s IQ fell in the ‘‘impaired
to borderline impaired range.’’ R. at 287.
On one test, Mr. Harris’s scaled score was
67–75; on another test, the scaled scored
was 72–77, which Dr. Callahan said would

985

approximate the mental status of a child
only 6 years and 10 months old. Dr. Callahan explained the disparity in Mr. Harris’s
IQ scores, concluding that ‘‘greater consistency’’ existed in the scores than ‘‘one may
appreciate initially’’ because IQ is ideally
viewed as a range and IQ scores change
over time based on a phenomenon known
as the ‘‘Flynn effect.’’ Id. at 288.
The Flynn effect is designed to account
for two facts:
1. IQ tests measure intelligence relative to the contemporaneous general
population, not as an absolute number.
2. IQ scores tend to increase over time.
Given these two facts, an older IQ
test would typically yield a higher

Resp. App. 24

986

941 FEDERAL REPORTER, 3d SERIES

figure than a more recent test for
the same individual. For example,
Mr. Harris took one of the IQ tests
in 1964. By the time of Mr. Harris’s
test, the grading scale was roughly
fifteen years old. So Dr. Callahan
lowered Mr. Harris’s score from 83
v/- 5 to 75.5 v/- 5.
Dr. Callahan concluded that her findings
indicated ‘‘borderline intellectual functioning,’’ but she acknowledged that Mr. Harris’s cognitive abilities were ‘‘not uniformly
at this level.’’ Id. at 289.18
Mr. Harris also presented six forms of
evidence involving adaptive deficits:
1. Dr. Callahan’s testing showed
adaptive strengths, including Mr.
Harris’s ‘‘visual-spatial thinking abilities,’’ which explained how he could
work. But his ‘‘relative weakness[es]’’ included the inability to
quickly process information, difficulty in learning and recalling new information, and impairment in his
ability to ‘‘plan and organize.’’ Id. at
289–90.
2. Mr. Harris had a history of poor
academic performance. Even with
tutors, he dropped out of high school
and experienced problems in recognizing words, spelling, and doing
mathematics. These problems led
Dr. Callahan to regard Mr. Harris
as functionally illiterate, with abilities approximating those of a first or
second grader.
3. Though Mr. Harris worked as a mechanic, he was ‘‘slow’’ and his wife
needed to read the technical manuals and call hotlines for help. 2005
Tr., v. 5, at 55–56, 58, 157.
18. Dr. Callahan added that Mr. Harris was
not malingering.
19. For example, in Pickens v. State, 126 P.3d
612 (Okla. Crim. App. 2005), the OCCA concluded that a petitioner was intellectually dis-

4.

A former employer testified about
difficulty in communicating with Mr.
Harris, stating that ‘‘[h]e would start
one sentence and end it with a different sentence.’’ 2001 Tr., v. 12, at
28–29.

5.

Mr. Harris engaged in very risky
behavior as a child and teen, leading
to injuries.

6.

Mr. Harris had a lifelong addiction
to alcohol and narcotics, showing difficulties in self-care (a feature of
adaptive functioning).

This combination of evidence could lead to
a reasonable finding that Mr. Harris had
satisfied the first and third elements of an
intellectual disability (impairments in intellectual and adaptive functioning).
The State disagrees, relying on Mr.
Harris’s childhood IQ tests and employment history. But the tests and employment history invoked by the State are
controverted by
1.

Dr. Callahan’s discussion of the
Flynn effect, which would contextualize the IQ scores stressed by the
State,

2.

expert testimony that an intellectual
disability would not necessarily prevent work as a mechanic, and

3.

OCCA decisions in other cases stating that similar evidence of adaptive
functioning and borderline intellectual functioning did not preclude relief.19

Thus, proof of Mr. Harris’s allegations
would support the finding of an intellectual
disability. Given the potential for this finding, a habeas court could view defense
abled as a matter of law when his IQ testing
indicated borderline intellectual functioning
and showed some ability to function adaptively. 126 P.3d at 618–20.

Resp. App. 25

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

counsel’s failure to request a pretrial hearing as prejudicial.
[29] Ultimately, however, we cannot
accurately resolve the dispute over the
first and third elements of an intellectual
disability. Mr. Harris and the State point
to evidentiary disputes on these elements,
and these disputes have not been presented to a factfinder for resolution under
Oklahoma’s test for an intellectual disability. So a decision on the prejudice prong
should await an evidentiary hearing in district court. See p. 983, above (discussing
Littlejohn v. Trammell, 704 F.3d 817, 856–
57 (10th Cir. 2013)); accord Sasser v.
Hobbs, 735 F.3d 833, 850 (8th Cir. 2013)
(concluding that ‘‘misconceptions about the
Arkansas legal standard [for identifying an
intellectual disability] led the district court
to answer the wrong factual questions,
leaving the pertinent questions unanswered’’ and that ‘‘[t]he proper course TTT
[was] to vacate the district court’s finding
that [the defendant] [was] not mentally
retarded and remand so that the district
court [could] answer the critical factual
questions in the first instance according to
the correct legal standard’’); Allen v. Buss,
558 F.3d 657, 663 (9th Cir. 2009) (observing that ‘‘the [state] trial court did not
determine whether [the petitioner] is mentally retarded under Indiana’s test for
mental retardation’’ and remanding the
case to the federal district court for an
evidentiary hearing).
(c) Conclusion

987

1

shown a deficiency in defense counsel’s performance and

1

alleged a theory of prejudice that, if
true, could justify habeas relief.

Although factual disputes preclude us from
deciding the issue of prejudice, Mr. Harris
is entitled to an evidentiary hearing. We
thus remand for an evidentiary hearing as
to prejudice. At this hearing, the parties
should be able to present expert testimony
on whether Mr. Harris satisfied Oklahoma’s test for an intellectual disability.
Smith v. Sharp, 935 F.3d 1064, 1077 (10th
Cir. 2019) (noting our prior recognition of
‘‘the centrality of expert testimony to our
review of Atkins verdicts’’).
C.

Failure to Adequately Present
Mitigation Evidence

The Supreme Court has recognized that
attorneys in death-penalty cases are ineffective if they bypass evidence that might
have altered the jury’s selection of a penalty. Williams v. Taylor, 529 U.S. 362, 398,
120 S.Ct. 1495, 146 L.Ed.2d 389 (2000). Mr.
Harris invokes this case law, arguing that
his attorney failed to adequately present
mitigation evidence on intellectual impairments and mental illness.
Mr. Harris’s arguments encompass evidence that would show not only an intellectual disability but also lesser intellectual
impairments that the jury could regard as
mitigating. Mr. Harris also points to evidence of other mental illnesses.20
1.

The Legal Standard and the Standard of Review

Engaging in de novo review, we conclude that Mr. Harris has

[30] For these arguments, we consider
whether the OCCA unreasonably applied

20. We consider three categories of mitigating
evidence. The first is an ‘‘intellectual disability,’’ meaning evidence that meets the Oklahoma test at the time of the 2005 retrial. The
second is ‘‘borderline intellectual functioning,’’ which consists of lesser cognitive and

adaptive impairments that might be mitigating. See 2001 Tr., v. 15, at 133–36 (testimony
of Dr. Hand). The third category consists of
other mental illnesses that might be mitigating.

Resp. App. 26

988

941 FEDERAL REPORTER, 3d SERIES

Strickland v. Washington, 466 U.S. 668,
104 S.Ct. 2052, 80 L.Ed.2d 674 (1984). To
assess prejudice, we must evaluate the totality of the evidence, including
1.

the aggravating circumstances found
by the jury,
2. the mitigation evidence,
3. the mitigation evidence that might
have been introduced, and
4. ‘‘what the prosecution’s response to
that evidence would have been.’’
Littlejohn v. Royal, 875 F.3d 548, 553
(10th Cir. 2017), cert. denied, ––– U.S.
––––, 139 S. Ct. 102, 202 L.Ed.2d 65 (2018).
Applying both prongs of Strickland (deficiency and prejudice), the OCCA rejected
the mitigation-related claims on the merits.21 Harris v. State, 164 P.3d 1103, 1118
(Okla. Crim. App. 2007). We thus apply the
standard set out in 28 U.S.C. § 2254(d).
See pp. 972–73, above.
2.

Intellectual Impairment as a Mitigating Factor

Mr. Harris argues that his attorney performed deficiently by calling only one expert witness (Dr. Draper) to testify about
an intellectual impairment involving either
an intellectual disability or borderline intellectual functioning. According to Mr.
Harris, his attorney should have presented
better mitigation evidence of an intellectual impairment. In our view, however, the
OCCA acted reasonably in rejecting this
claim based on a failure to show either
deficient performance or prejudice.
(a) Evidence of Intellectual Impairments

witness, Dr. Wanda Draper. Dr. Draper
was not an expert in intellectual impairments; her expertise instead involved development, an interdisciplinary field involving psychology, sociology, and other
disciplines. She testified mainly about Mr.
Harris’s ‘‘life path,’’ which included his
childhood, education, and personal relationships. 2005 Tr., v. 5, at 35.
Some of Dr. Draper’s testimony concerned Mr. Harris’s intellectual impairments. For example, Dr. Draper testified
that Mr. Harris had ‘‘[p]oor [s]chool [p]erformance,’’ was ‘‘[s]low [i]n school,’’ had an
IQ score in the 80s, suffered from ‘‘[d]yslexia,’’ had a ‘‘[c]ompulsive personality,’’ and
experienced a ‘‘[p]erception disorder.’’ Def.
Exh. 2. Dr. Draper added that (1) Mr.
Harris’s dyslexia had impeded his ability
to read and write and (2) he had suffered
from a ‘‘perception disorder,’’ which led to
compulsiveness and an inability to see
things in perspective. 2005 Tr., v. 5, at 43.
Dr. Draper explained that Mr. Harris
‘‘was not retarded, but he was slow and he
had to do things very slowly and with
help.’’ Id. at 58. According to Dr. Draper,
the need to act slowly rendered him dependent on Pam. Dr. Draper also explained the unevenness in Mr. Harris’s IQ
test results:
Q: [H]e was given IQ tests, for lack of a
better term, intelligence test, after
the fact, after he was arrested.
A: Right.
Q: And there was a scatter in those IQ
tests?

In the 2005 retrial, defense counsel presented testimony by seven of Mr. Harris’s
family, friends, and associates. But Mr.
Harris’s attorney called only one expert

A: Yes, they were relatively low, but
there was a scatter. And because he
had what we would call high level of
spatial and visual intelligence he was
able to do that transmission work.

21. Mr. Harris insists that the OCCA’s denial
of an evidentiary hearing could not have constituted a denial on the merits. But as we

explain above, this argument is based on a
misunderstanding of Oklahoma law. See pp.
975–76, above.

Resp. App. 27

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

He had good eye/hand coordination.
And he was able to look at a threedimensional object and figure how it
goes together in a car. And all of
that comes from a pretty high level
of spatial intelligence. But his other
intelligences were much lacking.
Id. at 68. On cross-examination, Dr. Draper supplied greater detail about Mr. Harris’s history of intelligence testing:
[W]hen he was tested during his early
school years it was low/normal IQ, I
believe, in the low 80s as a full scale.
And it was only later, after the fact,
after the incident, I think he was given a
battery of tests by several different examiners and he was found to have an IQ
that ranged from the 60s to the 80s.
Id. at 133.
Both sides presented closing arguments
on Mr. Harris’s intellectual functioning. In
their arguments, the prosecutors acknowledged that Mr. Harris had a low IQ, but
questioned the reliability of Dr. Draper’s
testimony about past IQ tests. The prosecutors also pointed out that another expert
witness had opined that Mr. Harris was
malingering and told the jury:
Who ever told you that he had a low IQ
and that made it difficult for him to
solve problems? He can solve problems.
He just doesn’t solve them in a way that
we think is appropriate. Jimmy Dean
Harris doesn’t have any problem with
the way he solves problems. It’s the rest
of us that need to fear him for his
problem-solving abilities.
2005 Tr., v. 6, at 935.
The defense countered with Dr. Draper’s testimony. Defense counsel urged the
jury to focus on
[t]he images of a kid who falls behind in
school because he just can’t read. He’s
got dyslexia, but he’s also close to mentally retarded. We don’t have an exact

989

number, but Dr. Draper testified that 75
was the best consensus of all the numbers that she looked at in the 60 hours
that she prepared, talking to everybody
in this case, looking into his life.
Id. at 944. The attorney later emphasized
Mr. Harris’s ‘‘75 IQ and real lack of problem-solving skills,’’ noting that Dr. Draper
had ‘‘talked about [how] a person with a
little better makeup, a little better development,’’ would have been able to navigate
the marital conflict without resorting to
murder. Id. at 960.
(b) Mitigation Evidence Involving an
Intellectual Disability
[31] On appeal, Mr. Harris argues that
his trial counsel was ineffective in failing to
present mitigation evidence involving both
an intellectual disability and borderline intellectual functioning. But in the OCCA,
Mr. Harris did not argue that defense
counsel should have presented mitigation
evidence involving an intellectual disability.
In briefing the issue to the OCCA, defense counsel was specific, confining his
argument to mitigation evidence involving
borderline intellectual functioning. In making this argument, defense counsel considered intellectual disability an issue that
could be addressed only in a pretrial hearing. If the defendant prevailed, he would
be ineligible for the death penalty under
Atkins v. Virginia, 536 U.S. 304, 321, 122
S.Ct. 2242, 153 L.Ed.2d 335 (2002). If the
defendant lost on this issue, defense counsel apparently assumed that he would have
been barred from urging mitigation based
on an intellectual disability. Cf. Blonner v.
State, 127 P.3d 1135, 1144 (Okla. Crim.
App. 2006) (stating that if the pretrial
hearing results in a finding of no intellectual disability, ‘‘[t]he issue of mental retardation shall not be relitigated at the capital
first degree murder trial’’).22

Resp. App. 28

990

941 FEDERAL REPORTER, 3d SERIES

Defense counsel thus acknowledged that
he was not alleging a failure to present
additional mitigation evidence involving
‘‘mental retardation.’’ He was instead confining the argument to additional evidence
of a lesser intellectual impairment that he
called ‘‘borderline mental retardation,’’
presumably a synonym for Dr. Callahan’s
preferred term ‘‘borderline intellectual
functioning’’:
Appellant is not here claiming only to
be borderline mentally retarded – his
claim of mental retardation is addressed
in Proposition I. However, given the
procedural posture of this case, counsel
could not have argued that Mr. Harris
was mentally retarded since the mentally retarded are exempt from the death
penalty. If counsel had simply taken the
previous testimony at face value and not
conducted an independent investigation
into Mr. Harris’ mental deficiencies,
then he would have had overwhelming
evidence that Mr. Harris was borderline
mentally retarded. On the other hand,
had defense counsel independently investigated his client’s mental condition
and determined that a sufficient basis
existed for a jury determination of the
mental retardation issue, it is likely that
such a hearing would have been held. In
such a case, either Mr. Harris would
have been determined to be retarded, or
not, by a jury. In this scenario, counsel
would have argued borderline mental retardation because had a jury determined
22. At oral argument, Mr. Harris contends the
opposite, insisting that he could have urged
mitigation based on an intellectual disability
even if the state trial court had found no
intellectual disability as a bar to execution.
But the OCCA did not have the benefit of this
argument. In the OCCA, Mr. Harris had disclaimed any argument that he could relitigate
the existence of an intellectual disability at the
penalty phase.

Mr. Harris to be mentally retarded, then
there would have been no capital sentencing at all.
Appellant’s Opening Br. at 16–17 n.15, No.
D-2005-117 (Okla. Crim. App. May 18,
2006).
Given Mr. Harris’s framing of the issue,
the OCCA never referred to an issue involving an intellectual disability. See Strelecki v. Okla. Tax Comm’n, 872 P.2d 910,
925 n.1 (Okla. 1993), clarified on reh’g
(Okla. Mar. 23, 1994) (‘‘[C]ourts are not
free to act as advocates and to raise claims
that should be raised by the parties.’’). The
court instead referred to ‘‘diminished mental capacity,’’ presumably as a synonym for
defense counsel’s term ‘‘borderline mental
retardation’’ or Dr. Callahan’s preferred
term ‘‘borderline intellectual functioning.’’
So the OCCA addressed only the lack of
mitigation evidence involving borderline
intellectual functioning (not an intellectual
disability).
[32, 33] Mr. Harris’s failure to present
the OCCA with his current argument
would ordinarily constitute nonexhaustion
of state-court remedies. See 28 U.S.C.
§ 2254(b)(1)(A). But exhaustion is unnecessary when it would be futile. Selsor v.
Workman, 644 F.3d 984, 1026 (10th Cir.
2011). And exhaustion now would be futile
because the OCCA would undoubtedly consider the claim waived. See Slaughter v.
State, 105 P.3d 832, 833 (Okla. Crim. App.
2005).23 Mr. Harris’s claim is thus subject
to a procedural default,24 and consideration
23. Mr. Harris has already pursued a direct
appeal and post-conviction proceedings in
which he could have (but failed to) raise this
argument.
24. The State contends that even if the claim is
unexhausted, the court could deny relief on
the merits under the AEDPA. It’s true that
unexhausted claims can be denied on the
merits. 28 U.S.C. § 2254(b)(2). But if the
OCCA had not decided the claim on the mer-

Resp. App. 29

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

of the merits would be available only if Mr.
Harris shows cause and prejudice. Banks
v. Workman, 692 F.3d 1133, 1144 (10th
Cir. 2012). Because Mr. Harris cannot
show cause and prejudice, we apply an
anticipatory procedural bar and decline to
consider this claim. See Pavatt v. Carpenter, 928 F.3d 906, 924 (10th Cir. 2019) (en
banc) (holding that the habeas petitioner’s
appellate argument was subject to an anticipatory procedural bar because the argument had not been fairly presented to the
OCCA).25
(c) Mitigation Evidence Involving Borderline Intellectual Functioning
We also reject Mr. Harris’s claim that
his counsel was ineffective in presenting
mitigation evidence on borderline intellectual functioning.
i.

The OCCA’s Reliance on Both
Prongs (Deficient Performance
and Prejudice)

On this claim, the OCCA concluded that
Mr. Harris had not shown either deficient
performance or prejudice. Harris v. State,
164 P.3d 1103, 1116–18 (Okla. Crim. App.
2007). On the prong of deficient performance, the court
1

noted that counsel had presented
some evidence that involved intellectual impairments,

1

discussed the virtually unchallengeable nature of strategic decisions, and

its, the AEDPA would not apply. See pp. 972–
73, 975, above.
25. Mr. Harris contends that the State failed to
preserve its current argument that defense
counsel had not acted deficiently in failing to
urge mitigation based on an intellectual disability. But we ordinarily consider an appellee’s arguments for affirmance even if they
had not been presented in district court. See
United States v. Mosley, 743 F.3d 1317, 1324

1

991

concluded that defense ‘‘[c]ounsel’s
choice of mitigating evidence did not
amount to ineffective assistance.’’

Id. at 1103, 1116, 1118. In this discussion,
the OCCA rejected the claim at least partly based on Mr. Harris’s failure to show a
deficiency in the representation.
On the prejudice prong, the OCCA referred to Mr. Harris’s argument ‘‘that that
the prejudice from this decision is evident.’’ Id. at 1118. The OCCA rejected this
argument, finding that the jurors at the
retrial had chosen the death sentence even
after hearing some of this mitigating evidence. Id.
ii.

Deficient Performance

Mr. Harris claims that defense counsel
should have presented additional mitigation evidence on his borderline intellectual
functioning. For this claim, Mr. Harris argues that the OCCA made an unreasonable
determination
of
fact
under
§ 2254(d)(2). According to Mr. Harris, the
OCCA unreasonably found that Mr. Harris’s attorney had strategically chosen to
bypass additional mitigation evidence. Mr.
Harris argues that if his attorney had conducted a reasonable investigation, he
would have learned of the evidence presented in the 2001 proceedings and would
have used a better expert witness to explain the evidence of borderline intellectual
functioning. The OCCA concluded that trial counsel’s performance was neither deficient nor prejudicial. Harris v. State, 164
& n.2 (10th Cir. 2014) (considering an argument for affirmance made by the government
for the first time on appeal even though the
argument conflicted with the government’s
position in district court); see also United
States v. Bagley, 877 F.3d 1151, 1154 (10th
Cir. 2017) (‘‘Though the government did not
raise this argument in district court, we can
affirm on alternative grounds when the district court record is adequately developed.’’).

Resp. App. 30

992

941 FEDERAL REPORTER, 3d SERIES

P.3d 1103, 1116–18 (Okla. Crim. App.
2007). These conclusions were reasonable
under § 2254(d)(2).
[34, 35] We begin with the OCCA’s determination that defense counsel’s selection of evidence had been strategic. Mr.
Harris argues that the OCCA made an
unreasonable factual determination because the state-court record shows that
defense counsel had not made a strategic
decision. For this argument, Mr. Harris
states that
1

nothing in the record supported the
OCCA’s determination that Mr. Harris’s attorney had made a strategic
decision and
1 after the penalty phase in the 2005
retrial, the attorney continued to list
Mr. Harris’s low IQ and inadequate
problem-solving skills as mitigating
factors.
But we do not regard a factual finding as
unreasonable if ‘‘ ‘[r]easonable minds reviewing the record might disagree’ about
the finding in question.’’ Wood v. Allen,
558 U.S. 290, 301, 130 S.Ct. 841, 175
L.Ed.2d 738 (2010) (quoting Rice v. Collins, 546 U.S. 333, 341–42, 126 S.Ct. 969,
163 L.Ed.2d 824 (2006) (alteration in original)).
Reasonable minds could conclude that
Mr. Harris’s attorney had strategically decided how to present the evidence. For
example, the record indicated that the attorney was aware of the evidence that had
been presented in the state-court proceeding. In a colloquy with the judge, the attorney said: ‘‘I’m not calling any shrinks, I’m
not calling any psychiatrists or all of the
other people that testified last time.’’ 2005
Tr., v. 5, at 150. The OCCA could reason26. Mr. Harris also incorporates other arguments regarding an unreasonable determination of fact. These arguments are addressed
elsewhere. For instance, Mr. Harris’s other
arguments about the scope of the investiga-

ably infer from this testimony that defense
counsel
1

had known of the evidence in the
2001 trial and

1

had deliberately declined to present
additional evidence of intellectual deficiencies.

See Wood v. Allen, 558 U.S. 290, 301–02,
130 S.Ct. 841, 175 L.Ed.2d 738 (2010)
(holding that evidence that counsel had
known about omitted evidence and chosen
not to present it to a jury could ‘‘fairly be
read to support’’ the state court’s judgment that counsel had acted strategically).26
In the alternative, Mr. Harris argues
that even if the OCCA had reasonably
found that counsel acted strategically, this
strategy would not have involved a reasonable investigation. This argument fails
because the OCCA reasonably applied Supreme Court decisions in finding that defense counsel had not performed deficiently. Wiggins v. Smith, 539 U.S. 510, 523,
123 S.Ct. 2527, 156 L.Ed.2d 471 (2003).
To assess this argument, we consider
the investigation underlying the strategy.
Wiggins v. Smith, 539 U.S. 510, 523, 123
S.Ct. 2527, 156 L.Ed.2d 471 (2003). Mr.
Harris argues that the investigation was
unreasonable because the attorney had
1

known of evidence, presented in the
2001 trial, that Mr. Harris was intellectually disabled and

1

engaged Dr. Draper (instead of another expert witness with better
qualifications) to discuss intellectual
impairments.

tion are better understood
reversal under 28 U.S.C.
thus consider these in our
Harris’s arguments under §

as arguments for
§ 2254(d)(1); we
discussion of Mr.
2254(d)(1).

Resp. App. 31

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

The OCCA concluded that Mr. Harris’s
attorney had decided not to highlight the
diagnoses and testing, choosing to focus
instead on Mr. Harris’s development
throughout his life. Harris v. State, 164
P.3d 1103, 1118 (Okla. Crim. App. 2007).
This conclusion was supported by the record: Dr. Draper testified about Mr. Harris’s intellectual development and his IQ
testing. And in closing argument, defense
counsel emphasized Dr. Draper’s testimony about Mr. Harris’s overall development.
Counsel used that testimony to argue that
an adult with greater development would
not have committed the murder.
This was not a case in which an attorney
failed to investigate or present any mitigation evidence on intellectual impairments.
Rather, the defense attorney pursued a
strategy focusing on childhood development rather than Mr. Harris’s mental
state after the crime. And in implementing
this strategy, the attorney used a witness
with expertise in personal development.
Applying the deferential AEDPA standard, we conclude that defense counsel’s
performance fell within the broad range of
acceptable strategies. See Doyle v. Dugger,
922 F.2d 646, 652 (11th Cir. 1991) (concluding that defense counsel was not deficient
for presenting only some of the available
evidence about the defendant’s mental
state).
iii.

Prejudice

[36] Mr. Harris urges prejudice from
his attorney’s failure to call an expert on
intellectual impairments, focusing on the
27. We assume, for the sake of argument, that
other evidence of intellectual impairments
would have been mitigating. In Tennard v.
Dretke, the Supreme Court recognized the inherently mitigating nature of evidence involving intellectual impairments. 542 U.S. 274,
287, 124 S.Ct. 2562, 159 L.Ed.2d 384 (2004).
But in Atkins v. Virginia, the Supreme Court
noted that ‘‘reliance on mental retardation as

993

‘‘inherently mitigating’’ nature of evidence
of intellectual impairments when the death
penalty is at stake. Supp. Mem. Br. of
Petitioner at 8 (quoting Tennard v. Dretke,
542 U.S. 274, 287, 124 S.Ct. 2562, 159
L.Ed.2d 384 (2004)). The OCCA found no
prejudice from defense counsel’s failure to
present additional mitigation evidence involving borderline intellectual functioning.
This finding was based on a reasonable
determination of facts and Supreme Court
precedent.27
We addressed an analogous issue in
Grissom v. Carpenter, 902 F.3d 1265 (10th
Cir. 2018). In Grissom, the petitioner
claimed that his trial attorneys had been
ineffective by failing to investigate and
present evidence of organic brain damage
because of ‘‘red flags’’ pointing to a potentially fruitful defense on mitigation. 902
F.3d at 1272–73. We affirmed the denial of
habeas relief, explaining that the petitioner
could not show prejudice partly because
his attorney had already presented a robust mitigation case and the omitted report had ‘‘largely reflect[ed] the mitigating
narrative already presented at trial.’’ Id. at
1279 (quoting Grissom v. State, 253 P.3d
969, 995 (Okla. Crim. App. 2011)).
This explanation is equally fitting here.
Although a cognition expert might have
better emphasized the extent of an intellectual impairment, defense counsel did
not present the kind of ‘‘paradigmatic
halfhearted mitigation case’’ that we’ve regarded as constitutionally defective. Littlejohn v. Royal, 875 F.3d 548, 563 (10th Cir.
2017), cert. denied, ––– U.S. ––––, 139 S.
a mitigating factor can be a two-edged sword
that may enhance the likelihood that the aggravating factor of future dangerousness will
be found by the jury.’’ 536 U.S. 304, 321, 122
S.Ct. 2242, 153 L.Ed.2d 335 (2002). That risk
was arguably present here because the State
had alleged an aggravating circumstance of
future dangerousness.

Resp. App. 32

994

941 FEDERAL REPORTER, 3d SERIES

Ct. 102, 202 L.Ed.2d 65 (2018). Instead,
defense counsel presented seven fact witnesses who testified about
1

Mr. Harris’s need for Pam’s help in
reading technical information, doing
paperwork, and calling hotlines,

additional mitigation evidence on borderline functioning. We thus conclude that the
OCCA reasonably applied Supreme Court
precedents in finding no prejudice from
the failure to present greater evidence of
borderline intellectual functioning.

1

Mr. Harris’s difficulties in school because he was a slow learner,

(d) Mitigation
Mental Illness 28

1

Mr. Harris’s dependable work,

1

verbal combat between Mr. Harris
and Pam,

Mr. Harris also argues that his attorney
was ineffective by failing to

1

Pam’s berating of Mr. Harris,

Involving

1

call an expert witness specializing in
mental health,

parental

1

highlight diagnoses of mental illness,
and

Mr. Harris’s loving relationship with
his siblings and daughters.

1

show how mental illness might have
contributed to the murder.

1 childhood suffering
abuse, and
1

Evidence

of

Defense counsel also presented Dr. Draper, who testified that Mr. Harris was
‘‘slow,’’ had trouble in school, and needed
help in working and functioning in society.
2005 Tr., v. 5, at 58. Dr. Draper added that
Mr. Harris’s IQ scores were low, reflecting
a high visual and spatial intelligence that
facilitated work as a transmission mechanic despite shortcomings in other intellectual abilities. Id. at 68.
This testimony was not qualitatively different than Dr. Callahan’s affidavit. Dr.
Callahan assessed Mr. Harris’s intellectual
status as ‘‘borderline intellectual functioning.’’ R. at 289. And like Dr. Draper, Dr.
Callahan explained that Mr. Harris had
strengths that allowed him to work despite
his intellectual deficits.

According to Mr. Harris, these shortcomings were prejudicial because the additional evidence might have convinced at least
one juror to vote for life in prison rather
than the death sentence. We reject this
argument.
i.

Mental-Health Evidence in the
2005 Retrial

At the 2005 retrial, defense counsel presented some evidence of mental-health
problems. But Mr. Harris argues that defense counsel should have presented additional evidence from the 2001 trial and the
competency hearing.

In closing argument, defense counsel
also used Dr. Draper’s testimony to emphasize Mr. Harris’s low intellectual ability
and poor problem-solving skills. Given the
evidence and closing argument, the OCCA
could reasonably attribute little value to

At the 2005 retrial, defense counsel
urged mitigation based on Mr. Harris’s
mental condition, alcoholism, drug abuse,
and strong emotions. But defense counsel
did not call an expert witness specializing
in mental health; most of the evidence
involving these mitigating factors came
from Dr. Draper.

28. As noted above, we use the term ‘‘mental
illness’’ to refer to various cognitive and behavioral deficits not included in the other

categories of intellectual impairments (intellectual disability and borderline intellectual
functioning). See note 20, above.

Resp. App. 33

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

Dr. Draper testified about three facets
of mitigation:
1.

2.

3.

When Mr. Harris had been a child,
he suffered parental abuse and saw
his father abuse his mother.
As a teenager, Mr. Harris had obtained narcotics and alcohol from
his father, which led to a lifelong
pattern of substance abuse.
Mr. Harris had tried to commit suicide.

Dr. Draper added that eight to ten other
doctors had found ‘‘serious psychological
problems’’:
Q: You have been given various psychological tests that have been administered to Jimmy Dean Harris over the
years. Have there been reports in
there of any mental illnesses?
A: Well, there were. This was -- I think
these were tests that were administered after the incident.
Q: And approximately how many different doctors?
A: Well, there were probably eight or
ten. I listed those in my report; although, I did not pursue that area
with any diligence because that was
after the fact. The significance of
that is all of those found that he had
some serious psychological problems.
2005 Tr., v. 5, at 67–68. Dr. Draper also
testified that Mr. Harris was taking medication to control his mental illness:
Q: And have you seen any records of
medications given to him in the jail?
A: Yes. I think he’s taking some psychotropic drugs and some other medications for general health problems.
Q: And you’re not a physician, but you
do know that the drugs are for controlling mental illness?

995

A: Yes.
Id. at 68–69.
ii.

Other Existing Evidence of Mr.
Harris’s Mental Illness

In the prior proceedings, counsel for
both parties elicited additional evidence of
Mr. Harris’s mental illness.
For example, Dr. John Smith testified
that before the murder, Mr. Harris had
suffered from bipolar II disorder with psychosis. But Dr. Smith conceded that it was
difficult to pinpoint when Mr. Harris had
experienced the effects of drugs and alcohol.
An expert witness for the prosecution
testified that Mr. Harris had
1 suffered from a major depressive episode with associated psychotic features and
1 stabilized through medication.
And a jail counselor diagnosed Mr. Harris
with schizo-affective disorder. Dr. Smith
and the jail counselor described Mr. Harris after the murder as erratic, delusional,
psychotic, and suicidal.
Other evidence suggested that Mr. Harris was responsive to medication. Dr.
Smith described these medications and
opined that they had helped, allowing Mr.
Harris to attend the trial and testify with
focus.
iii.

Claim of Ineffective Assistance of
Counsel

Mr. Harris argues that defense counsel
was ineffective for failing to call a mentalhealth expert and present this evidence in
the penalty phase. The OCCA rejected this
claim without specifying whether the court
was relying on (1) the failure to show
deficient representation or (2) prejudice.
Harris v. State, 164 P.3d 1103, 1116–19
(Okla. Crim. App. 2007). Given this ambiguity, we apply 28 U.S.C. § 2254(d) on
both prongs (deficient performance and
prejudice). Premo v. Moore, 562 U.S. 115,
123, 131 S.Ct. 733, 178 L.Ed.2d 649
(2011).29

Resp. App. 34

996
a.

941 FEDERAL REPORTER, 3d SERIES

Deficiency Prong

Mr. Harris contends that the OCCA unreasonably determined the facts and applied Supreme Court precedents.
(i) Unreasonable Factual Determinations
[37] Mr. Harris argues that the OCCA
based its decision on two unreasonable determinations of fact:
1.

that defense counsel had presented
evidence of a mental illness and

2.

that defense counsel had strategically decided to downplay the evidence
of mental illness.

The OCCA also stated that defense
counsel had strategically decided to downplay the evidence of mental illness. Mr.
Harris argues that this statement entailed
an unreasonable factual determination. See
28 U.S.C. § 2254(d)(2). For this argument,
he points to three facts:
1.

Defense counsel asked Dr. Draper
whether Mr. Harris’s medications
were for a mental illness, but defense counsel was unable to obtain a
response.

2.

Defense counsel then tried to call an
expert witness regarding Mr. Harris’s medications, but the trial court
sustained an objection based on inadequate notice.

3.

Despite the inability to obtain a response or call an expert witness on
medications, defense counsel continued to list Mr. Harris’s ‘‘mental condition’’ as a mitigating factor.

We reject both arguments.
Mr. Harris first points out that the
OCCA said that ‘‘[w]hile Harris’s specific
diagnoses of mental illness [had not been]
presented to the jury,’’ jurors had been
told that he was diagnosed as mentally ill.
Harris v. State, 164 P.3d 1103, 1118 (Okla.
Crim. App. 2007). According to Mr. Harris,
this statement constituted an unreasonable
determination of fact because the State
had denied the existence of any evidence of
a mental illness.

Mr. Harris argues that these three facts
show that defense counsel had tried to
prove a mental illness through an expert
witness but couldn’t because counsel had
violated evidentiary and disclosure requirements.

We reject Mr. Harris’s argument. The
OCCA observed that the jury ‘‘had been
told’’ of a diagnosis. Id. This observation
was accurate, for Dr. Draper had testified
about a prior diagnosis of ‘‘serious psychological problems.’’ 2005 Tr., v. 5, at 67–68;
see p. 995, above. The OCCA’s statement
was thus reasonable based on the evidence
presented.

[38] A state appellate court’s finding
may be reasonable even if we would have
decided the issue differently. Grant v.
Trammell, 727 F.3d 1006, 1024 (10th Cir.
2013). The test is whether the state appellate court had evidentiary support for its
view. Id.

29. On this claim, Mr. Harris contends that
the district court should have conducted an
evidentiary hearing. But the reasonableness of
the OCCA’s conclusion must be based on the
existing state-court record. See Cullen v. Pinholster, 563 U.S. 170, 181, 131 S.Ct. 1388,
179 L.Ed.2d 557 (2011) (holding ‘‘that review
under § 2254(d)(1) is limited to the record
that was before the state court that adjudicat-

ed the claim on the merits’’); Hooks v. Workman, 689 F.3d 1148, 1163 (10th Cir. 2012)
(stating that habeas review under § 2254(d)(2)
is also confined to the record in state court).
Thus, the district court could not consider
evidence newly presented in federal court to
determine whether the OCCA had unreasonably applied federal law or determined the
facts.

Under this test, the OCCA finding was
reasonable. When defense counsel called

Resp. App. 35

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

an expert witness to testify about Mr.
Harris’s medications, the judge asked the
relevance. The attorney explained: ‘‘It goes
to mitigation, that he has something wrong
with him and we don’t know what it is.’’
2005 Tr., v. 5, at 152. The attorney added
that ‘‘[a]ll he is going to do is say these are
his medications and one, two, three, and
four are mental health medicines the other
ones are for something else. And that’s all
he is going to say.’’ Id. at 149.
The OCCA could reasonably find that
defense counsel was trying to present limited evidence on mental health, informing
the jury of a mental illness without enough
detail to spark concern about continued
dangerousness. The attorney couldn’t ultimately execute this strategy, but the
OCCA could view the strategy itself as
reasonable. We thus conclude that the
OCCA acted reasonably in viewing defense
counsel’s effort as strategic.
(ii) Unreasonable Application of Supreme Court Precedents
[39] The OCCA also reasonably applied Supreme Court precedents on the
deficiency prong. The ultimate failure of
the attorney’s effort does not undermine
the reasonableness of the OCCA’s conclusion. United States v. Haddock, 12 F.3d
950, 956 (10th Cir. 1993).
Mr. Harris contends that his attorney
failed to present expert testimony on the
nature, extent, and significance of the
mental illness. Again, however, the OCCA
acted reasonably in rejecting this contention. As we discuss below, the excluded
evidence constituted a ‘‘double-edged
sword’’ with substantial aggravating potential. See p. 998, below. Given this potential
for aggravation, the OCCA justifiably concluded that defense counsel had acted reasonably.

b.

997

Prejudice

[40] Even if Mr. Harris could satisfy
the deficiency prong, the claim would have
foundered on the prejudice prong. Mr.
Harris argues that his counsel’s failure to
present mitigation evidence of mental illness (1) opened the door to evidence of
malingering and (2) bypassed powerful
mitigation evidence that would have explained Mr. Harris’s violent actions and
why, with proper treatment, he would be
unlikely to repeat this crime.
[41] In analyzing the prejudice prong,
we consider not only the mitigation evidence that defense counsel should have
presented but also what the prosecution
would have presented in response. Wilson
v. Trammell, 706 F.3d 1286, 1306 (10th
Cir. 2013). To identify that evidence, we
can consider the 2001 trial as a useful
guide. At that trial, the prosecution had
used Dr. John Call, who testified that
1

a ‘‘strong possibility’’ existed that
Mr. Harris was a psychopath and

1

psychopaths were more violent than
other individuals.

2001 Tr., v. 16, at 75–78.
This testimony was supported by Mr.
Harris’s own expert at the 2001 trial, Dr.
Smith. Dr. Smith regarded Mr. Harris as
bipolar and acknowledged that bipolar individuals share traits with psychopaths.
After acknowledging the sharing of these
traits, Dr. Smith refused to rule out Dr.
Call’s diagnosis of Mr. Harris as a psychopath or as someone with antisocial personality disorder, admitting the presence of
‘‘elements’’ of these conditions in Mr. Harris’s history and in his current psychological status. 2001 Tr., v. 18, at 182. Dr. Smith
thus admitted that Mr. Harris presented a
substantial risk of violence. Id. at 183. On
cross-examination, Dr. Smith added that
Mr. Harris had antisocial traits:

Resp. App. 36

998

941 FEDERAL REPORTER, 3d SERIES

Q: But you don’t disagree with the diagnosis that [Mr. Harris] has an antisocial personality disorder?
A: As long as you mix it with a mixed
personality disorder with narcissistic,
obsessive-compulsive, and antisocial
traits. I do believe he does have that.
Id. at 192. Dr. Smith also acknowledged
that Mr. Harris had each clinical trait associated with antisocial personality disorder.
Given this prior testimony, the OCCA
could reasonably conclude that further
mitigation testimony involving mental illness would have opened the door to evidence of psychopathy with antisocial
personality disorder. ‘‘[C]ourts have
characterized antisocial personality disorder as the prosecution’s ‘strongest possible evidence in rebuttal.’ ’’ Littlejohn v.
Royal, 875 F.3d 548, 564 (10th Cir.
2017) (quoting Evans v. Sec’y, Dep’t of
Corr., 703 F.3d 1316, 1327 (11th Cir.
2013)), cert. denied, ––– U.S. ––––, 139
S. Ct. 102, 202 L.Ed.2d 65 (2018).
We addressed a similar issue in Littlejohn v. Royal, 875 F.3d 548 (10th Cir.
2017), cert. denied, ––– U.S. ––––, 139 S.
Ct. 102, 202 L.Ed.2d 65 (2018). There the
petitioner presented evidence of organic
brain disorder. The State responded with
evidence of a diagnosis involving antisocial
personality disorder, and the defense expert admitted that the petitioner had displayed traits consistent with the diagnosis.
Id. at 565. Given the nature of antisocial
personality disorder, we concluded that the
evidence of an organic brain disorder was
likely to be aggravating rather than mitigating. Id.
The same is true here. Like organic
brain damage, mental illness can be mitigating; but the OCCA could reasonably
view this possibility as outweighed by the
30.

Mr. Harris points out that
1

risk of rebuttal evidence of psychopathy
and antisocial personality disorder.
Mr. Harris argues that the jury at the
2005 retrial heard testimony about his violent past with no explanation involving his
mental illness. But the OCCA could reasonably find that the aggravating nature of
the omitted evidence had outweighed the
mitigation value.
By focusing on Mr. Harris’s development rather than his mental illness, defense counsel also kept other possibly
aggravating evidence from the jury. For
instance, the presence of an untreatable
condition could have suggested future
dangerousness. Littlejohn, 875 F.3d at
565. And Dr. Smith admitted that
1 he could not be confident that Mr.
Harris would refrain from violence
while on medication,
1 Mr. Harris had probably been properly medicated during his 2001 competency trial (when he attacked a
detention officer), and
1 Mr. Harris had probably not been in
a psychotic state when he committed
the murder.
With these admissions, Dr. Smith could
not say whether Mr. Harris’s mental illness was connected to the crime.
Finally, Mr. Harris argues that his counsel’s actions opened the door to evidence of
malingering. Even if defense counsel had
presented additional mental-health evidence, however, the State could still have
presented evidence of malingering. Indeed,
at the 2001 trial, a prosecution witness had
testified that Mr. Harris was exaggerating
the symptoms of any mental illness. So the
OCCA could reasonably consider evidence
of malingering as available irrespective of
defense counsel’s strategy.
In sum, the OCCA acted reasonably in
concluding that the omissions were not
prejudicial.30
find the aggravator of future dangerous-

the jury at the 2001 trial had declined to

Resp. App. 37

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

II.

Jury Instructions and Closing Arguments on Mitigation Evidence

[42] In capital cases, the Eighth and
Fourteenth Amendments ordinarily prevent the trial court from barring consideration of any of the defense evidence on
mitigation. Lockett v. Ohio, 438 U.S. 586,
604, 98 S.Ct. 2954, 57 L.Ed.2d 973 (1978)
(plurality opinion).31 Mr. Harris argues
that the State violated this right in two
ways:
1.

The trial court instructed the jury
too narrowly on the evidence that
could be considered mitigating.
2. In closing argument, the first prosecutor exploited this instruction by
telling the jury that it should consider mitigation evidence only if it diminished Mr. Harris’s moral culpability.
These errors, according to Mr. Harris, created a reasonable likelihood that one or
more jurors believed themselves unable to
consider some of Mr. Harris’s mitigation
evidence.
A.

The Standard of Review

The OCCA rejected this claim. Because
Mr. Harris did not object to the instruction
ness after hearing evidence of mental
illness and
1 the jury at the 2005 retrial did find this
aggravator without hearing that evidence.
But other possible explanations may account
for the juries’ different findings on future dangerousness. For example, the 2001 jury was
erroneously instructed on the availability of
housing in a minimum-security prison, and
the jury at the 2005 retrial heard new evidence about Mr. Harris’s violent actions. Given these differences, we decline to speculate
about why either jury found as it did.
31.

The Lockett plurality stated:
[W]e conclude that the Eighth and Fourteenth Amendments require that the sentencer, in all but the rarest kind of capital

999

or the closing argument, the OCCA reviewed for plain error. Harris v. State, 164
P.3d 1103, 1113 (Okla. Crim. App. 2007).
Applying the plain-error standard, the
OCCA relied on its precedent to find the
jury instruction constitutional. E.g.,
Williams v. State, 22 P.3d 702, 727 (Okla.
Crim. App. 2001), cited with approval in
Harris, 164 P.3d at 1113 n.40. The OCCA
thus focused on the prosecutors’ arguments, considering how they might have
affected the jury’s ability to consider mitigation evidence. In considering this effect,
the OCCA found that
1 the first prosecutor’s argument had
been improper and
1 the second prosecutor’s argument
and the jury instruction had rendered the first prosecutor’s argument harmless.
Harris, 164 P.3d at 1113–14.
We treat the OCCA’s decision under the
plain-error standard as an adjudication on
the merits. Hancock v. Trammell, 798
F.3d 1002, 1011 (10th Cir. 2015); see pp.
972–73, above. We thus review this decision under 28 U.S.C. § 2254(d). Hancock,
798 F.3d at 1011–12; see pp. 972–73,
above.32
case, not be precluded from considering, as
a mitigating factor, any aspect of a defendant’s character or record and any of the
circumstances of the offense that the defendant proffers as a basis for a sentence less
than death.
Lockett, 438 U.S. at 604, 98 S.Ct. 2954 (emphasis in original) (footnote omitted). A majority of the Supreme Court later adopted this
view in Eddings v. Oklahoma, 455 U.S. 104,
113–15, 102 S.Ct. 869, 71 L.Ed.2d 1 (1982).
32. As noted above, the OCCA stated that the
first prosecutor’s argument was improper but
harmless. Harris v. State, 164 P.3d 1103,
1113–14 (Okla. Crim. App. 2007). But the test
(discussed in the text) determines whether a
constitutional violation took place, not whether an error was harmless. See Calderon v.
Coleman, 525 U.S. 141, 146, 119 S.Ct. 500,

Resp. App. 38

1000

941 FEDERAL REPORTER, 3d SERIES

[43] This review comprises two parts.
We first ask ‘‘whether there is a reasonable likelihood that the jury has applied
the challenged instruction in a way that
prevents the consideration of constitutionally relevant evidence.’’ Underwood v.
Royal, 894 F.3d 1154, 1169 (10th Cir. 2018)
(quoting Boyde v. California, 494 U.S. 370,
380, 110 S.Ct. 1190, 108 L.Ed.2d 316
(1990)), cert. denied, ––– U.S. ––––, 139 S.
Ct. 1342, 203 L.Ed.2d 583 (2019). We then
ask whether a reasonable likelihood exists
that ‘‘arguments by the prosecutor TTT
reinforced an impermissible interpretation
of [the challenged jury instruction] and
made it likely that jurors would arrive at
such an understanding.’’ Id. (quoting
Boyde, 494 U.S. at 384, 110 S.Ct. 1190).
B.

The Jury Instruction

[44] Mr. Harris challenges Instruction
Number 8, which stated in part: ‘‘Mitigating circumstances are those which, in fairness, sympathy, and mercy, may extenuate
or reduce the degree of moral culpability
or blame.’’ R. at 1607. Mr. Harris argues
that this instruction improperly prevented
the jury from considering all available mitigation evidence.

under the facts and circumstances of
this case.’’
2. Another jury instruction had identified many mitigating circumstances,
and some did not involve moral culpability.
3. The trial court had also instructed
the jury that it ‘‘may decide that
other mitigating circumstances exist,
and if so, [the jury] should consider
those circumstances as well.’’
Id. Given these instructions, we concluded
in Hanson that a jury would not ‘‘have felt
precluded from considering any mitigation
evidence, including the testimony of the
four testifying witnesses.’’ Id.
The same three instructions were given
here. So under Hanson, we conclude that
the OCCA reasonably determined that the
jury would have understood its ability to
consider all of Mr. Harris’s mitigation evidence. Hanson, 797 F.3d at 851; see
Simpson v. Carpenter, 912 F.3d 542, 578
(10th Cir. 2018).
Mr. Harris argues that the OCCA has
1

expressed concern about the way
that Oklahoma prosecutors have
used the jury instruction and

1

ordered revision of the jury instruction to minimize future abuses.

We rejected this argument in Hanson v.
Sherrod, where we considered the constitutionality of the same instruction. 797
F.3d 810 (10th Cir. 2015). When faced with
this argument, we addressed the instructions as a whole. Id. at 851 (quoting Boyde
v. California, 494 U.S. 370, 378, 110 S.Ct.
1190, 108 L.Ed.2d 316 (1990)). Viewing
them as a whole, we noted that three other
jury instructions had suggested that the
jury would recognize its ability to consider
all of the defendant’s mitigation evidence:
1. The trial court had instructed the
jury that it was to decide which ‘‘circumstances [were] mitigating TTT

Harris v. State, 164 P.3d 1103, 1114 (Okla.
Crim. App. 2007). But we have twice rejected the same argument, reasoning that
the OCCA’s concern over the wording of
the instruction did not suggest that it was
unconstitutional. Hanson v. Sherrod, 797
F.3d 810, 851 (10th Cir. 2015); Grant v.
Royal, 886 F.3d 874, 934–35 (10th Cir.
2018). Given these prior decisions, we conclude that the OCCA’s concern over the
instruction did not render its constitutional
holding unreasonable.

142 L.Ed.2d 521 (1998) (stating that Boyde’s
test of ‘‘reasonable likelihood’’ is used to de-

termine whether a constitutional error took
place, not to determine harmlessness).

Resp. App. 39

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

C.

1

1

neous interpretation of the prosecutor’s closing argument.

The Prosecutors’ Closing Arguments

Mr. Harris argues that even if the jury
instruction itself had been constitutional,
one of the prosecutors improperly exploited the jury instruction to urge disregard of
Mr. Harris’s mitigation evidence, violating
the Eighth and Fourteenth Amendments.
The OCCA rejected this argument. The
court acknowledged that the first prosecutor’s arguments had been improper; however, the court considered the impropriety
harmless because the jury instructions on
mitigating circumstances were proper and
the second prosecutor had invited the jury
to consider all of the mitigating circumstances. Harris v. State, 164 P.3d 1103,
1113 (Okla. Crim. App. 2007).33 In the
OCCA’s view, the ‘‘second prosecutor invited jurors to consider all Harris’s mitigation evidence, weigh it against the aggravating circumstances, and find that the
death penalty was appropriate.’’ Id. Mr.
Harris contends that the OCCA acted unreasonably in finding facts and applying
Supreme Court precedents. We disagree
because
the OCCA could reasonably view this
part of the closing argument as an
invitation to consider all of the evidence on mitigation and find it overridden by the horrific nature of the
crime and

1001

1.

Applicability of 28 U.S.C. § 2254(d)

The threshold issue is whether § 2254(d)
applies. It ordinarily would apply if the
OCCA adjudicated the merits of Mr. Harris’s constitutional claim. See pp. 972–73,
975–76, above. The OCCA wasn’t explicit.
It characterized the first prosecutor’s closing argument as improper, but didn’t say
whether this impropriety rose to the level
of a constitutional violation. Regardless of
the basis for characterizing the argument
as improper, the OCCA ultimately regarded the impropriety as harmless. Harris,
164 P.3d at 1113–14.
The district court characterized the
OCCA’s reasoning as an adjudication on
the merits, triggering § 2254(d). D. Ct.
Dkt. 77 at 49. In his appeal briefs, Mr.
Harris doesn’t question this characterization. We thus decline to sua sponte revisit
the district court’s application of § 2254(d).
See Grant v. Royal, 886 F.3d 874, 931–32
n.20 (10th Cir. 2018) (concluding that the
Court should not sua sponte reject the
applicability of the AEDPA on a claim
involving the prosecutor’s improper exploitation of a jury instruction defining the
proper use of mitigating evidence).
2.

Unreasonable
Fact

Determination

of

Mr. Harris has not shown that the
OCCA based its decision on an erro-

[45] In his rebuttal argument, the second prosecutor told the jury:

33. At oral argument, the State defends the
first prosecutor’s arguments, stating that they
invited the jury to consider mitigation evidence and to give it little weight. For example, the first prosecutor acknowledged that
the jury
1 could consider ‘‘sympathy or sentiment
for the defendant’’ and
1 needed to determine the importance of
the mitigating circumstances.
2005 Tr., v. 6, at 909. And this prosecutor
acknowledged the jury’s need to balance the

mitigating and aggravating circumstances. Id.
at 940–41. But the OCCA found that the first
prosecutor’s arguments had been improper:
One prosecutor did consistently argue in
closing that jurors should not consider Harris’s second stage evidence as mitigating,
since it did not extenuate or reduce his guilt
or moral culpability. This argument improperly told jurors not to consider Harris’s
mitigating evidence.
Harris v. State, 164 P.3d 1103, 1113 (Okla.
Crim. App. 2007).

Resp. App. 40

1002

941 FEDERAL REPORTER, 3d SERIES

I’m asking you to make a decision that I
believe is based upon principal [sic], to
examine the evidence, determine whether you believe beyond a reasonable
doubt one or both of these aggravators
are in existence, and I submit to you,
and then to make a determination of
whether these—these mitigation issues
that [Mr. Harris’s attorney] has brought
up really override the day of terror, and
a day that took a couple of weeks to
think through.
2005 Tr., v. 6, at 982–83. In our view, the
OCCA could reasonably construe this
statement as an invitation to weigh all of
the mitigation evidence against the aggravation evidence and decide that the death
sentence was appropriate.
The prosecutor did contend that the defense’s arguments on mitigation would not
‘‘override the day of terror.’’ The term
‘‘override’’ refers to the act of weighing
one item against another. See Override,
Oxford English Reference Dictionary 1038
(Judy Pearsall & Bill Trumble eds., 2d ed.
rev. 2006) (providing a primary definition
of ‘‘override’’ as ‘‘have a claim precedence
or superiority over’’). Given this meaning
of ‘‘override,’’ the OCCA could reasonably
conclude that the second prosecutor had
urged the jury to consider all of the mitigation evidence and to find that it paled in
comparison to the terrible nature of the
crime itself. Under this interpretation, the
second prosecutor’s rebuttal argument
would not have restricted the universe of
circumstances that could be considered
mitigating. Grant v. Royal, 886 F.3d 874,
938 (10th Cir. 2018), cert. denied, ––– U.S.
––––, 139 S. Ct. 925, 202 L.Ed.2d 659
(2019).
Mr. Harris notes that the second prosecutor also referred to moral culpability:
‘‘Do not reward this man for the things
that he claims are somehow supposed to
not make this as blameful, if you will, these

things that he says somehow lessen his
blame, lessen his moral responsibility.’’
2005 Tr., v. 6, at 983. According to Mr.
Harris, this statement reflects further efforts to restrict mitigating circumstances
to those bearing on moral culpability. This
argument bears defects that are both procedural and substantive.
The argument is procedurally defective
because
1 in the state-court appeal, defense
counsel never criticized the second
prosecutor’s reference to moral culpability and
1 in our appeal, defense counsel did
not criticize this statement in their
opening brief.
Defense counsel instead referred to this
excerpt only in their reply brief, when the
State no longer had an opportunity to respond. Making the argument in the reply
brief was too late. See Byrd v. Workman,
645 F.3d 1159, 1166 n.8 (10th Cir. 2011).
Even if we were to consider the second
prosecutor’s reference to moral culpability,
however, it would not render the OCCA’s
interpretation unreasonable. The second
prosecutor was responding to what defense counsel had argued. Defense counsel
had argued that Mr. Harris was not a coldblooded terrorist and was reacting to setbacks involving divorce and unemployment. The second prosecutor characterized
this argument as an effort to minimize
blame and moral culpability. With this
characterization, the prosecutor attributed
the statement about blame and moral culpability to defense counsel, arguing that
‘‘the [defense counsel] says [these things]
somehow lessen [Mr. Harris’s] blame, lessen his moral responsibility.’’ 2005 Tr., v. 6,
at 983. The prosecutor himself was not
suggesting that the universe of mitigating
circumstances should be limited to those
that diminish blame or moral culpability;
he was saying that defense counsel’s argu-

Resp. App. 41

1003

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

ment involved an effort to downplay blame
and moral culpability. We thus do not regard the OCCA’s interpretation of the rebuttal argument as objectively unreasonable.
Even if the OCCA had unreasonably
interpreted the rebuttal argument, however, § 2254(d)(2) would prevent the district
court from reaching the merits. Under
§ 2254(d)(2), the habeas court can consider
the merits only if the petitioner shows that
the OCCA based its decision on the factual
error. 28 U.S.C. § 2254(d)(2); see Lott v.
Trammell, 705 F.3d 1167, 1177 (10th Cir.
2013) (stating that ‘‘the burden rests on
[the petitioner] to establish that the
OCCA’s analysis was ‘based on an unreasonable determination of the facts’ ’’ (quoting 28 U.S.C. § 2254(d)(2))).
In deciding that the first prosecutor’s
improper arguments were harmless, the
OCCA gave two reasons:
1. The second prosecutor told the jury
to consider all of Mr. Harris’s mitigating circumstances and find that
the death penalty was appropriate
based on the greater strength of the
aggravating circumstances.
2. The trial court properly instructed
the jury on the definition of mitigation evidence, Mr. Harris’s evidence,
and the jurors’ duties.
Harris v. State, 164 P.3d 1103, 1113 (Okla.
Crim. App. 2007).
[46] Mr. Harris challenges the first
reason, but not the second. Let’s assume,
for the sake of argument, that the first
reason was objectively unreasonable. Given this assumption, the OCCA’s second
reason would remain valid and provide sufficient support for the OCCA’s finding of
harmlessness:
[E]ven if a state court’s individualized
factual determinations are overturned,
what factual findings remain to support

the state court decision must still be
weighed under the overarching standard
of section 2254(d)(2).
Lambert v. Blackwell, 387 F.3d 210, 235–
36 (3d Cir. 2004). Indeed, the OCCA has
elsewhere found improper closing arguments harmless when the jury was properly instructed. E.g., Miller v. State, 313
P.3d 934, 977 (Okla. Crim. App. 2013); Ake
v. State, 663 P.2d 1, 9 (Okla. Crim. App.
1983), rev’d on other grounds, 470 U.S. 68,
105 S.Ct. 1087, 84 L.Ed.2d 53 (1985). So
even if the OCCA had unreasonably interpreted the second prosecutor’s closing argument, Mr. Harris would have failed to
show that the decision itself had been
based on this factual error.
***
In sum, Mr. Harris has not satisfied his
burden of showing that the OCCA based
its decision on an unreasonable factual determination. The OCCA could reasonably
interpret the second prosecutor’s argument as an invitation to consider all of the
mitigation evidence and find it overridden
by the aggravating circumstances. The
second prosecutor did mention moral culpability, but Mr. Harris did not address
this statement in the state-court appeal or
in his opening appellate brief. And the
second prosecutor referred to moral culpability only when he paraphrased defense
counsel’s argument. In these circumstances, Mr. Harris has not overcome
§ 2254(d)(2).
3.

Unreasonable Application of Supreme Court Precedent

[47] Mr. Harris also argues that the
OCCA’s decision entailed an unreasonable
application of Supreme Court precedent.
See 28 U.S.C. § 2254(d)(1). We reject this
argument.
Like Mr. Harris and the OCCA, we view
the first prosecutor’s comments as improper. The first prosecutor told the jury that a

Resp. App. 42

1004

941 FEDERAL REPORTER, 3d SERIES

mitigating circumstance was something
that ‘‘extenuates or reduces the degree of
moral culpability or blame of [Mr.] Harris
for murdering Merle Taylor.’’ 2005 Tr., v.
6, at 929. The prosecutor then pointed to
each alleged mitigating circumstance and
asked if it reduced or extenuated Mr. Harris’s moral culpability. Id. at 929–40. The
prosecutor then proposed a two-part test:
One, is it true? Is what they have listed
here true? Did it really happen? And,
two, if it is true, does it make a difference? Does it extenuate or reduce his
culpability for the murder of Merle Taylor? Because it’s got to be both.
Id. at 930 (emphasis added). Through
these statements, the prosecutor effectively told the jury that the mitigation evidence mattered only if it tended to reduce
Mr. Harris’s culpability, creating a risk
that one or more jurors believed that they
could not consider constitutionally relevant
evidence of mitigation. See Underwood v.
Royal, 894 F.3d 1154, 1169 (10th Cir.
2018), cert. denied, ––– U.S. 139 S. Ct.
1342, 139 S.Ct. 1342 (2019).
We thus inquire whether ‘‘the OCCA
could reasonably conclude that it was not
reasonably likely that the [first] prosecutor’s comment[s] precluded the jury from
considering mitigation evidence, in light of
the jury instructions and the other unchallenged comments of the prosecution.’’
Grant v. Royal, 886 F.3d 874, 939 (10th
Cir. 2018), cert. denied, ––– U.S. ––––, 139
S. Ct. 925, 202 L.Ed.2d 659 (2019). Under
this inquiry, a court could grant habeas
relief only if ‘‘no fairminded jurist would
agree with the OCCA’s conclusion that the
jury was not precluded from considering
the evidence offered by [the petitioner] in
mitigation.’’ Simpson v. Carpenter, 912
F.3d 542, 582 (10th Cir. 2018). In our view,
fair-minded jurists could have agreed with
the OCCA’s conclusion in light of the jury

instructions and the second prosecutor’s
rebuttal argument.
[48] When the petitioner argues that a
prosecutor exploited a jury instruction to
improperly restrict what could be mitigating, we consider the extent to which the
jury was properly instructed. See, e.g.,
Grant, 886 F.3d at 939; Hanson v. Sherrod, 797 F.3d 810, 852 (10th Cir. 2015). The
jury at the 2005 retrial received virtually
all of the jury instructions that we have
regarded as curative. For example, the
trial court instructed the jury that
1

‘‘the determination of what circumstances are mitigating is for you to
resolve under the facts and circumstances of this case’’ and
1 evidence had been introduced on a
long list of mitigating circumstances
(many of which bore no relationship
to moral culpability).
See pp. 1000–01, above. In detailing the
mitigating circumstances, the trial court
reminded the jury of evidence that Mr.
Harris
1 had a ‘‘sister and a brother who love
him’’ and ‘‘daughters who love[d] and
need[ed] him,’’
1 had a ‘‘low I.Q.,’’
1 had been addicted to drugs and alcohol, and
1 had lost his mother to cancer when
he was young.
R. at 1608–10. These instructions served to
broaden the first prosecutor’s language,
suggesting to the jury that it could consider all of the mitigation evidence regardless
of whether it related to moral culpability.
Hanson, 797 F.3d at 851; see Brown v.
Payton, 544 U.S. 133, 144, 125 S.Ct. 1432,
161 L.Ed.2d 334 (2005) (‘‘[F]or the jury to
have believed it could not consider Payton’s mitigating evidence, it would have
had to believe that the penalty phase
served virtually no purpose at all.’’).

Resp. App. 43

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

In similar circumstances, we have often
held that prosecutors’ improper arguments
on mitigation evidence are ameliorated by
the jury instructions. E.g., Grant v. Royal,
886 F.3d 874, 939–42 (10th Cir. 2018); Underwood v. Royal, 894 F.3d 1154, 1171–73
(10th Cir. 2018); Simpson v. Carpenter,
912 F.3d 542, 581–82 (10th Cir. 2018);
Cuesta-Rodriguez v. Carpenter, 916 F.3d
885, 911–12 (10th Cir. 2019); Johnson v.
Carpenter, 918 F.3d 895, 907–08 (10th Cir.
2019); Harmon v. Sharp, 936 F.3d 1044,
1074–77 (10th Cir. 2019). For example, in
Cuesta-Rodriguez v. Carpenter, the trial
court instructed the jury on numerous mitigating circumstances, told the jury that it
was to determine what was mitigating, and
stated to the jury that it could consider
sympathy for the defendant. Cuesta-Rodriguez, 916 F.3d at 911–12. Given these instructions, we held that the OCCA had
reasonably applied Supreme Court decisions in rejecting a similar constitutional
claim. Id. at 912. All of these instructions
were given here.
Mr. Harris contends that in one of our
prior cases, Grant v. Royal, the trial court
had given two instructions that were omitted here:
1. that the jury instructions contained
all of the law and rules for the jury
to follow and
2. that the prosecutor’s closing arguments were arguments only and for
purposes of persuasion.
We reject these contentions.
Mr. Harris contends that the Grant panel found it ‘‘critically ameliorative’’ that the
trial court had told the jury that the instructions contained all of the law and
rules to be followed. Appellant’s Reply Br.
at 32. Though the Grant panel did consider
this instruction, along with others, the panel did not suggest that this instruction was
‘‘critical’’ to the outcome. Instead, the
Grant panel simply mentioned this instruc-

1005

tion ‘‘[i]n addition’’ to others. Grant, 886
F.3d at 941. Indeed, many of our opinions
recognize the ameliorative impact of other
jury instructions with no indication that
the jury had been told that the instructions
constituted all of the law and rules to be
followed. E.g., Simpson, 912 F.3d at 581–
82; Cuesta-Rodriguez, 916 F.3d at 911–12;
Johnson, 918 F.3d at 907–08.
But even if this instruction had been
critical, it was given to Mr. Harris’s jury.
Just after voir dire, the trial court instructed Mr. Harris’s jury that its responsibility was ‘‘to follow the law as stated in
the instruction that [the trial court] will
give [the jury].’’ 2005 Tr., v. 2, at 427. The
trial court returned to the subject later,
explaining what would likely happen if the
jury were to ask questions during its deliberations. 2005 Tr., v. 6, at 984. The court
explained that it would likely answer that
the jury has ‘‘all the law and evidence
necessary to reach a verdict.’’ Id. The
court explained that this answer would
mean that all of the necessary information
is in the jury instructions or the evidence.
Id. at 984–85. Thus, Mr. Harris’s jury was
ultimately told that all of the applicable
law was in the instructions.
Mr. Harris also observes that the jury in
Grant had been told that the prosecutor’s
remarks constituted only argument and
were offered only for persuasion. 886 F.3d
at 941–42. Mr. Harris says that this instruction was ‘‘critical’’ in Grant. Appellant’s Reply Br. at 32. We are not sure
why Mr. Harris regards this instruction as
critical, for the Grant panel attached no
particular importance to this instruction.
In any event, Mr. Harris’s jury was instructed to confine itself to the evidence
and reminded that ‘‘[n]o statement or argument of the attorneys [was] itself evidence.’’ 2005 Tr., v. 2, at 428.
Along with the ameliorating jury instructions, some of the second prosecutor’s

Resp. App. 44

1006

941 FEDERAL REPORTER, 3d SERIES

arguments also mitigated the risk from the
first prosecutor’s improper arguments. For
example, the second prosecutor told the
jury to weigh the defense’s evidence
against the aggravating evidence to see if
the mitigation evidence outweighed the aggravating evidence.34 And both prosecutors
spent considerable time rebutting the defense’s mitigation evidence even when it
had not involved moral culpability. The
prosecutors attacked this evidence not only
because it bore no relationship to moral
culpability but also on grounds that the
evidence lacked reliability or trustworthiness. For example, the first prosecutor
attacked the reliability of Mr. Harris’s evidence on an intellectual impairment. From
this attack, the jury could ‘‘logically infer
from this presentation that the evidence
actually did legally qualify as mitigating
evidence, and that the question before
them’’ involved the accuracy, credibility,
and weight of this evidence. Grant v. Royal, 886 F.3d 874, 943 (10th Cir. 2018) (emphasis in original).

tion.’’ Simpson v. Carpenter, 912 F.3d 542,
578 (10th Cir. 2018). And there the prosecutor had not said anything to encourage
consideration of all mitigating factors. Id.
at 580; see note 34, above.
Given the ameliorating jury instructions
and the closing arguments as a whole, fairminded jurists could agree with the
OCCA’s conclusion that the jury had understood its ability to consider Mr. Harris’s mitigation evidence. We thus conclude
that the OCCA did not unreasonably apply
Supreme Court precedent.
III.

Victim-Impact Testimony

Mr. Harris also contends that the prosecution improperly elicited victim-impact
testimony. Though some of the testimony
was unconstitutional, the constitutional violation was harmless.
A. The Constitutional Limit on Victim-Impact Testimony

Mr. Harris underscores the repeated nature of the first prosecutor’s improper
comments. But we’ve upheld the reasonableness of a similar conclusion by the
OCCA even when the prosecutor had
made at least ‘‘nine separate statements
which either generally defined mitigating
evidence as reducing moral culpability or
blame or specifically compared [the petitioner’s] mitigating factors to that defini-

[49] Mr. Harris’s contention stems
from the interplay between two Supreme
Court opinions: Booth v. Maryland and
Payne v. Tennessee. In Booth v. Maryland, the Supreme Court held that the
introduction of victim-impact testimony at
a capital-sentencing proceeding violated
the Constitution. 482 U.S. 496, 509, 107
S.Ct. 2529, 96 L.Ed.2d 440 (1987). In
Payne v. Tennessee, the Supreme Court
overruled part of Booth, holding that ‘‘evidence and argument relating to the victim

34. Mr. Harris insists that the second prosecutor did not suggest to the jury that it consider
any of the mitigation evidence. According to
Mr. Harris, the absence of such a suggestion
distinguishes Simpson v. Carpenter and Grant
v. Royal. We disagree. As noted above, the
OCCA reasonably concluded that the second
prosecutor had invited the jury to consider all
of the evidence, both mitigating and aggravating. See pp. 1002–04, above. But this factor
was not present in Simpson. There we described the prosecutor’s improper arguments
as ‘‘pervasive,’’ ‘‘extensive,’’ and ‘‘recurring.’’

912 F.3d 542, 581, 588 (10th Cir. 2018), petition for cert. filed (U.S. July 24, 2019) (No. 195298). Nowhere did we rely on arguments
inviting the jury to weigh the mitigation evidence. See id. at 585–87. The same is true in
Grant. 886 F.3d 874, 943 (10th Cir. 2018)
(‘‘To be sure, unlike Hanson, there were no
further statements from the prosecution —
i.e., Ms. Elliott — in rebuttal closing that
could reasonably suggest that ‘the prosecutor
encouraged the jury to consider all sorts of
mitigating evidence.’ ’’ (quoting Hanson v.
Sherrod, 797 F.3d 810, 852 (10th Cir. 2015))).

Resp. App. 45

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

and the impact of the victim’s death on the
victim’s family are [ ]admissible at a capital
sentencing hearing.’’ 501 U.S. 808, 830 n.2,
111 S.Ct. 2597, 115 L.Ed.2d 720 (1991).
But the Payne Court did not overrule
Booth’s recognition that the Constitution
forbids ‘‘the admission of a victim’s family
members’ characterizations and opinions
about the crime, the defendant, and the
appropriate sentence.’’ Id. Thus, Booth
continues to ban the families of murder
victims from requesting a particular sentence. Bosse v. Oklahoma, 580 U.S. ––––,
137 S. Ct. 1, 2, 196 L.Ed.2d 1 (2016) (per
curiam).
B.

The Victim-Impact Testimony
and the Issue of Harmlessness

[50] In Mr. Harris’s case, two of Mr.
Taylor’s family members requested the
death penalty. Mr. Harris argues that allowing this testimony violated the Constitution. The OCCA rejected this argument.
Harris v. State, 164 P.3d 1103, 1110 (Okla.
Crim. App. 2007). The OCCA was wrong:
Introduction of this testimony was unconstitutional under Booth and Payne, and
the OCCA’s decision was contrary to clearly established Supreme Court precedent.
Dodd v. Trammell, 753 F.3d 971, 996 (10th
Cir. 2013).
[51, 52] The remaining question is
whether the constitutional error was prejudicial or harmless. On this question, we
engage in de novo review. Lockett v.
Trammell, 711 F.3d 1218, 1238 (10th Cir.
2013). We regard the improper testimony
as prejudicial only if it had a substantial
and injurious effect or influence in determining the jury’s verdict. Id.
Mr. Taylor’s son testified for the State,
asking for the death penalty: ‘‘On behalf of
myself, my entire family, I respectfully ask
that you impose the maximum allowable
punishment and, in my mind, the only

1007

acceptable punishment, and sentence [Mr.]
Harris to death.’’ 2005 Tr., v. 4, at 891. Mr.
Taylor’s widow also testified, asking the
jury to impose the death penalty: ‘‘It
grieves me that my husband went to his
grave not knowing why he had to die. My
sons, grandchildren, and I ask you to sentence [Mr.] Harris to death.’’ Id. at 901.
In her closing argument, the first prosecutor did not refer to the family members’
requests for the death penalty. She instead
urged the jury: ‘‘Do not be guilted into
making your decision because TTT the Taylors are going to be upset, frankly. Make
your decision because it is right, it is just,
it is what is appropriate.’’ 2005 Tr., v. 6, at
935. Similarly, the second prosecutor did
not explicitly mention the family members’
requests for the death penalty. But this
prosecutor did quote extensively from the
family members’ testimony, urging the
jury not to reward Mr. Harris by sparing
his life. Right after asking the jury one
more time not to ‘‘reward [Harris],’’ the
second prosecutor continued, ‘‘Toby Taylor
[the son] and Carolyn Taylor [the widow]
said this.’’ Id. at 979. The prosecutor then
summarized the family members’ testimony on how they were affected by the murder.
C.

Structural or Harmless Error

[53] The threshold issue is whether a
habeas court can review for harmlessness
when the trial court improperly allows victim-impact testimony. Mr. Harris opposes
review for harmlessness and urges us to
treat the requests for the death penalty as
structural error, contending that
1

Oklahoma prosecutors regularly elicit family requests for the death penalty and

1

the OCCA has improperly tolerated

Resp. App. 46

1008

941 FEDERAL REPORTER, 3d SERIES

this pattern of improper conduct.35
But we have rejected the same arguments
in Underwood v. Royal, holding that erroneous introduction of victim-impact testimony is reviewable for harmlessness. 894
F.3d 1154, 1177 (10th Cir. 2018). We are
bound by this precedent. Leatherwood v.
Allbaugh, 861 F.3d 1034, 1042 n.6 (10th
Cir. 2017). Given this precedent, we consider whether the error was harmless.36
D.

Harmlessness

[54] We regard the erroneous introduction of victim-impact testimony as
harmless.
[55] For harmlessness, we consider
whether the constitutional error ‘‘had substantial and injurious effect or influence in
determining the jury’s verdict.’’ Brecht v.
Abrahamson, 507 U.S. 619, 623, 113 S.Ct.
1710, 123 L.Ed.2d 353 (1993) (quoting Kot35. Until 2017, the Oklahoma Court of Appeals
had interpreted Payne to overrule Booth in its
entirety. Bosse v. State, 360 P.3d 1203, 1226
(Okla. Crim. App. 2015). The Supreme Court
expressly rejected the OCCA’s view in Bosse v.
State, reiterating that Payne had left intact
Booth’s prohibition against a family member’s
request for a particular sentence. Bosse v.
Oklahoma, 580 U.S. ––––, 137 S. Ct. 1, 2, 196
L.Ed.2d 1 (2016) (per curiam). On remand,
the OCCA overruled its prior cases and held
that the Constitution forbids victim-impact
testimony recommending a particular sentence. Bosse v. State, 400 P.3d 834, 855 (Okla.
Crim. App. 2017).
36. The Supreme Court has noted that an unusual case might involve a pattern of prosecutorial misconduct so egregious that habeas
relief might be appropriate even without prejudice. Brecht v. Abrahamson, 507 U.S. 619,
638 n.9, 113 S.Ct. 1710, 123 L.Ed.2d 353
(1993). But when the 2005 retrial took place
in an Oklahoma courtroom, Oklahoma’s highest criminal court had held that the Constitution did not forbid victim testimony requesting a particular sentence. E.g., Murphy v.
State, 47 P.3d 876, 885 (Okla. Crim. App.
2002), overruled in part on other grounds by
Blonner v. State, 127 P.3d 1135, 1139 (Okla.
Crim. App. 2006). We had said the opposite.

teakos v. United States, 328 U.S. 750, 776,
66 S.Ct. 1239, 90 L.Ed. 1557 (1946)). On
one occasion, we concluded that improper
victim-impact testimony had a substantial
and injurious effect or influence. Dodd v.
Trammell, 753 F.3d 971, 997 (10th Cir.
2013). There we relied on three factors:
1.

The prosecution had elicited a
‘‘drumbeat’’ consisting of six to seven witnesses requesting the death
penalty.
2. The jury had rejected the State’s
arguments for aggravating circumstances involving a ‘‘heinous, atrocious, or cruel’’ murder or the existence of a ‘‘continuing threat.’’
3. The case for the defendant’s guilt
had not been clear-cut.
Id. at 997–98. None of these factors are
present here. Only two testifying witnesses
requested death, far from a ‘‘drumbeat.’’37
Hooper v. Mullin, 314 F.3d 1162, 1174 (10th
Cir. 2002). But Oklahoma prosecutors were
simply following what Oklahoma’s highest
criminal court had said on the issue.
Even if we were to regard the prosecutor’s
conduct as egregious, however, a habeas
court could avoid the issue of harmlessness
only if the victim-impact testimony had rendered the trial fundamentally unfair. Underwood v. Royal, 894 F.3d 1154, 1178 (10th Cir.
2018). As discussed elsewhere, the improper
testimony consisted of two sentences in a fiveday trial. Though the two sentences were
emotional and powerful, they did not render
the entire trial fundamentally unfair.
37. Even when the prosecution presents a
‘‘drumbeat’’ of improper victim testimony, the
constitutional violation may be harmless. In
Bush v. Carpenter, for example, ‘‘sentence recommendations were lengthy [and] egregious.’’
926 F.3d 644, 668 (10th Cir. 2019); see also
id. at 680 (‘‘[T]he victim impact statements
were numerous, emotional, and in at least
one instance, egregious TTTT’’). Still, we held
that the constitutional violation was harmless
‘‘given the circumstances of the murder, the
presence of the aggravating factors, and the
substantial evidence presented in support of
those aggravating factors.’’ Id. at 681.

Resp. App. 47

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

The jury also found the aggravator of a
continuing threat, and Mr. Harris has not
challenged his guilt.
Other factors also point to harmlessness,
including the ameliorating influence of the
jury instructions, the brevity of the improper testimony, and the absence of any
mention in the prosecutors’ closing arguments. For example, the trial court instructed the jury that it could consider the
evidence ‘‘in determining an appropriate
punishment,’’ but only as ‘‘a moral inquiry
into the culpability of the defendant’’ and
not based on an ‘‘emotional response to the
evidence.’’ R. at 1616. The jury was also
told that it could consider ‘‘sympathy or
sentiment for the defendant.’’ Id. at 1618
(emphasis in original). These instructions
mitigated the prejudicial impact of the improper victim-impact testimony. DeRosa v.
Workman, 679 F.3d 1196, 1240 (10th Cir.
2012). We consider not only the ameliorating instructions but also the brevity of the
improper testimony, which consisted of
only two sentences. See Lockett v. Trammell, 711 F.3d 1218, 1239 (10th Cir. 2013)
(considering the error to be harmless when
the family’s requests for death consisted of
‘‘a single, concise sentence’’).38 And in their
closing arguments, the prosecutors did not
explicitly refer to the family members’ requests for the death penalty.
Mr. Harris argues that the State presented a weak case on aggravation.39 We
disagree. The jury found two aggravators:
38. Mr. Harris argues that the son’s request
was expansive, consisting of seventeen pages
of argument on why the death penalty was the
only appropriate punishment. But the son’s
testimony mainly concerned the effect of the
crime, which was permissible. See Payne v.
Tennessee, 501 U.S. 808, 827, 111 S.Ct. 2597,
115 L.Ed.2d 720 (1991) (‘‘A State may legitimately conclude that evidence about the victim and about the impact of the murder on
the victim’s family is relevant to the jury’s
decision as to whether or not the death penalty should be imposed.’’).

1009

1.

great risk of death to more than one
person and

2.

continuing threat.

Mr. Harris does not challenge the sufficiency of the evidence on either aggravator, and the State presented powerful evidence on both.
First, to show a great risk of death to
more than one person, the State presented
evidence that Mr. Harris had not only
killed Mr. Taylor but also fired multiple
times at Pam Harris and Jennifer Taylor.
Pam Harris testified that she had suffered
a gunshot to her hip and had seen the gun
aimed at her head. She struggled as Mr.
Harris tried to reload the gun, which he
then used to smash her on the head and
face.
Second, the State presented considerable evidence of the aggravator involving a
continuing threat. This evidence included
1

bar fights,

1

physical abuse of Pam Harris,

1

intimidating tactics, and

1

threats against Pam Harris’s family.

Given this evidence, the OCCA reasonably
found ‘‘a lifelong pattern of using violence
to solve problems and react to situations
which is likely to continue.’’ Harris v.
State, 164 P.3d 1103, 1111 (Okla. Crim.
App. 2007).
Mr. Harris, of course, would have been
imprisoned for life if he had avoided the
39. For this argument, Mr. Harris relies on
Dodd v. Trammell, 753 F.3d 971, 998 (10th
Cir. 2013), where we discounted the aggravating factors because they had added little beyond the findings of guilt. Dodd, 753 F.3d at
998. There the jury’s finding of an aggravator
involving a prior conviction had been based
on a decades-old conviction, and the aggravator for great risk of death to more than one
person had been based on the fact that the
defendant had murdered two people. Id.

Resp. App. 48

1010

941 FEDERAL REPORTER, 3d SERIES

death penalty. But even while he was in
jail, Mr. Harris had assaulted a guard. In
this incident, Mr. Harris covered his cell
window and surprised the guard, repeatedly pummeling him.
Mr. Harris attributes this assault to his
need for medication. But Dr. Smith acknowledged that Mr. Harris had probably
been medicated at the time of the assault.40
***
We conclude that the constitutional error did not substantially affect the jury’s
sentencing recommendation, so the district
court acted correctly in rejecting this habeas claim.
IV.

Cumulative Error

Mr. Harris also urges cumulative error.
In our view, the district court should revisit this issue on remand.
[56, 57] A cumulative-error analysis
aggregates all errors that are individually
harmless, analyzing whether the cumulative effect undermines confidence in the
fairness of the retrial and reliability of the
verdict. Workman v. Mullin, 342 F.3d
1100, 1116 (10th Cir. 2003). We consider
cumulative errors to be separate constitutional violations. Hanson v. Sherrod, 797
F.3d 810, 852 n.16 (10th Cir. 2015).
[58] When we reject a claim of ineffective assistance based on a lack of prejudice, we can aggregate the prejudice from
the deficient performance. Cargle v. Mullin, 317 F.3d 1196, 1207 (10th Cir. 2003).
As a result, the claim of cumulative error
would ordinarily include the prejudice
from two claims:
40. Mr. Harris suggests that county officers
might have ‘‘messed up’’ his medications,
stating that the Oklahoma Department of Corrections is much more reliable in administering medication. Appellant’s Reply Br. at 23.
For this suggestion, however, Mr. Harris re-

1.

any prejudice from counsel’s failure
to seek a pretrial hearing on an
intellectual disability and

2.

an error in admitting the victimimpact testimony.

On the claim of cumulative error, the
OCCA also included any incremental prejudice from the first prosecutor’s closing
argument about the jury’s consideration of
mitigation evidence. Harris v. State, 164
P.3d 1103, 1119 (Okla. Crim. App. 2007).
We have held that Mr. Harris failed to
show an unreasonable legal or factual determination on the constitutionality of the
closing arguments. See pp. 1000–07, above.
Though we have not recognized a constitutional violation involving the closing arguments, the constitutional test bears a close
resemblance to the test for harmlessness.
See Boyde v. California, 494 U.S. 370, 393,
110 S.Ct. 1190, 108 L.Ed.2d 316 (1990)
(Marshall, J., dissenting) (‘‘[T]he ‘reasonable likelihood’ standard should be understood to be an equivalent of the ‘harmless
error’ standard adopted in Chapman v.
California, [386 U.S. 18, 87 S.Ct. 824, 17
L.Ed.2d 705 (1967) ].’’). Arguably, then,
any incremental prejudice from this claim
may need to be combined with the prejudice from defense counsel’s failure to seek
a pretrial hearing on an intellectual disability and a constitutional error in allowing the victim-impact testimony.
But the parties have not briefed whether
this claim should be considered in the mix
on the claim of cumulative error. We thus
leave consideration of this threshold issue
to the district court on remand. See Greystone Const., Inc. v. Nat’l Fire & Marine
Ins. Co., 661 F.3d 1272, 1290 (10th Cir.
lies on evidence from the 2001 trial, not the
2005 retrial involved in this appeal. In the
2005 retrial, no one presented evidence of an
error in medicating Mr. Harris before this
assault.

Resp. App. 49

HARRIS v. SHARP
Cite as 941 F.3d 962 (10th Cir. 2019)

2011) (‘‘[T]he better practice on issues
raised [below] but not ruled on by the
district court is to leave the matter to the
district court in the first instance.’’ (quoting Apartment Inv. & Mgmt. Co. v. Nutmeg Ins. Co., 593 F.3d 1188, 1198 (10th
Cir. 2010))).
The State also contends that in analyzing the claim of cumulative error, the court
should not include any prejudice from the
failure to request a pretrial hearing on an
intellectual disability, asserting that the
prejudice would have arisen before the
trial and could not ‘‘accumulate with trial
errors.’’ Appellee’s Resp. Br. at 96. But all
we have are two sentences without any
explanation, authority, or response. So we
also leave this second threshold issue for
the district court to decide in the first
instance. See Greystone Const., Inc., 661
F.3d at 1290.
Motion to Expand the Certificate
of Appealability
Mr. Harris moves to expand the certificate of appealability to include whether
‘‘trial counsel breached his duty to Mr.
Harris by his failure to present as mitigation a psychological risk assessment to diminish the evidence presented by the State
that Mr. Harris posed a continuing threat
to society.’’ Appellant’s Mot. for Modification of Certificate of Appealability at 2
(text case changed).
At the 2005 retrial, the State urged an
aggravating circumstance involving Mr.
Harris’s continued threat. The defense
countered with Dr. Draper, who testified
that

1011

1

the availability of proper medication
would remove any possible danger,
and
1 murderers are generally less likely
than others to act violently while in
prison.
Mr. Harris argues that defense counsel
should have presented expert testimony of
a risk assessment. In state court, for example, Mr. Harris presented a risk assessment by J. Randall Price, Ph.D. The
OCCA rejected this argument, concluding
that defense counsel had acted reasonably
at the 2005 retrial. Harris v. State, 164
P.3d 1103, 1118–19 (Okla. Crim. App.
2007).
[59] We could grant a certificate of
appealability on this issue only if the district court’s ruling were debatable among
reasonable jurists. Miller-El v. Cockrell,
537 U.S. 322, 338, 123 S.Ct. 1029, 154
L.Ed.2d 931 (2003). Because the OCCA
adjudicated the merits of the deficiency
prong, the federal district court would
need to apply § 2254(d) on this prong. See
pp. 995–96, above. Mr. Harris could thus
obtain a certificate of appealability on this
claim only by showing that reasonable jurists could debate his ability to clear the
hurdle of § 2254(d). See Dunn v. Madison,
583 U.S. ––––, 138 S. Ct. 9, 11, 199
L.Ed.2d 243 (2017) (per curiam).
[60] No reasonable jurist would regard
this issue as debatable. As the OCCA noted, defense counsel
1

1

Mr. Harris had been incarcerated for
over 1800 days with only one incident,

had countered the prosecution with
Dr. Draper, who testified that Mr.
Harris would not pose a significant
risk of future violence in a structured
environment, and
1 had strategic reasons to limit the
evidence of future dangerousness.

1

Mr. Harris would not be dangerous
in the structured environment of a
prison,

Mr. Harris contends that Dr. Price could
have provided more persuasive evidence.
But Dr. Price’s opinion created two risks:

Resp. App. 50

1012
1.
2.

941 FEDERAL REPORTER, 3d SERIES

His opinion could have backfired.
Dr. Price had diagnosed Mr. Harris
as bipolar with psychotic features,
which could have led to further evidence of dangerousness.

Dr. Price opined that even in a maximum-security prison, Mr. Harris had ‘‘an
18.8% probability of violent conduct.’’ Appl.
for Evid. Hearing, Exh. B-2 at 7. In stating this opinion, Dr. Price defined ‘‘violent’’
conduct as an ‘‘assaultive or dangerous’’
act creating an imminent threat of serious
bodily injury. Id. at 6. The OCCA could
reasonably infer that defense counsel
might have regarded an 18.8% risk of future violence as high. Indeed, Dr. Price
acknowledged that this percentage exceeded the base rate for capital murderers
(16.4%). Id. at 7.
Second, Dr. Price noted that Mr. Harris
had ‘‘been diagnosed as bipolar with psychotic features.’’ Id. at 8. An acknowledgment of psychotic features could have led
the State to present additional evidence of
future dangerousness. In the 2001 trial, for
example, Dr. Smith acknowledged that bipolar disorder and psychopathy share
many of the same characteristics. 2001 Tr.,
v. 18, at 179–80. This sort of testimony in
the 2005 retrial could have been ‘‘devastating.’’ See United States v. Barrett, 797
F.3d 1207, 1232 (10th Cir. 2015).
Given the possibility that a risk assessment might backfire, defense counsel could
reasonably focus instead on Mr. Harris’s
difficult upbringing and on his generally
positive conduct while in prison. See Lott v.
Trammell, 705 F.3d 1167, 1209 (10th Cir.
2013) (stating that defense counsel was not
ineffective for failing to present a risk
assessment because cross-examination
could have yielded negative information
increasing the chances for a death sentence). ‘‘In fact, counsel would have been
ineffective if the door to the damaging
Risk Assessment Report and evidence con-

tained therein had been opened and the
State had been able to exploit it to their
advantage.’’ Id. We thus deny Mr. Harris’s
motion to expand the certificate of appealability.
Conclusion
We reverse on Mr. Harris’s claim of
ineffective assistance in defense counsel’s
failure to seek a pretrial hearing on an
intellectual disability. On remand, the district court should revisit the issue of prejudice after conducting an evidentiary hearing.
We also vacate the district court’s judgment on the claim of cumulative error. On
this claim, the district court should first
consider the threshold issues of whether it
can consider the prejudice arising from
1

the lack of a request for a pretrial
hearing on intellectual disability and

1

the first prosecutor’s exploitation of
the jury instruction on Mr. Harris’s
mitigation evidence.

On the claim of cumulative error, the
court should also consider the prejudice
resulting from the constitutional error in
allowing victim-impact testimony recommending the death penalty.
We affirm the district court’s ruling in
all other respects and deny Mr. Harris’s
motion to expand the certificate of appealability.

,

Resp. App. 51

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 1 of 66

IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF OKLAHOMA
JIMMY DEAN HARRIS,
Petitioner,
v.
TERRY ROYAL1, Warden,
Oklahoma State Penitentiary,
Respondent.

)
)
)
)
)
)
)
)
)
)

Case No. CIV-08-375-F

MEMORANDUM OPINION
Petitioner, a state prisoner currently facing execution of a sentence of death,
appears with counsel and petitions for a writ of habeas corpus pursuant to 28 U.S.C.
§ 2254, challenging his convictions in the District Court of Oklahoma County, Case
No. CF-1999-5071, of one count of first-degree murder, one count of shooting with
intent to kill, and one count of assault and battery with a dangerous weapon.
Respondent has responded to Petitioner’s Petition for a Writ of Habeas Corpus
(hereinafter “Petition”), 2 and Petitioner has replied. The State court record has
been supplied.3
1

During previous proceedings, Anita Trammell was the warden of the Oklahoma State
Penitentiary. However, Terry Royal has since assumed that office. According to Fed. R. Civ.
P. 25(d)(1), Mr. Royal is automatically substituted as a party.
2

References to the parties’ pleadings shall be as follows: Petitioner’s Petition for a Writ
of Habeas Corpus shall be cited as (Pet. at __.); Respondent’s Response in Opposition to Petition
for Writ of Habeas Corpus shall be cited as (Resp. at __.); and, Petitioner’s Reply To Respondent’s
Response to Petition for Writ of Habeas Corpus shall be cited as (Reply at __.).
3

The trial court’s original record shall be cited as (O.R. at __.). The trial transcript shall
be cited as (Tr., Vol. ___, p. __.).

Resp. App. 52

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 2 of 66

PROCEDURAL HISTORY
Petitioner was convicted by a jury in the District Court of Oklahoma County
of one count of first-degree murder, one count of shooting with intent to kill, and
one count of assault and battery with a dangerous weapon. For the crime of firstdegree murder, the jury recommended the imposition of a sentence of death, finding
the existence of the aggravating circumstance that Petitioner knowingly created a
great risk of death to more than one person. He was also sentenced to life in prison
for shooting with intent to kill and ten years in prison for assault and battery with a
dangerous weapon.
Petitioner appealed his convictions and sentences to the Oklahoma Court of
Criminal Appeals (hereinafter “OCCA”).

The OCCA affirmed Petitioner’s

convictions and the non-capital sentences, but reversed the death sentence and
remanded for a new sentencing trial for the first-degree murder conviction. Harris v.
State, 84 P.3d 731 (Okla. Crim. App. 2004). At the resentencing trial the jury found
the existence of two aggravating circumstances: (1) Petitioner knowingly created a
great risk of death to more than one person; and (2) the existence of a probability
Petitioner would commit criminal acts of violence that would constitute a continuing
threat to society.

The trial court sentenced Petitioner to death on the jury’s

recommendation. Petitioner’s direct appeal from the resentencing trial was denied
by the OCCA. Harris v. State, 164 P.3d 1103 (Okla. Crim. App. 2007). Certiorari
was denied on March 24, 2008. Harris v. Oklahoma, 552 U.S. 1286 (2008).
Petitioner filed an Application for Post-Conviction Relief which was denied by the
OCCA in a published opinion. Harris v. State, 167 P.3d 438 (Okla. Crim. App.
2007).

2

Resp. App. 53

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 3 of 66

FACTUAL BACKGROUND
Under 28 U.S.C. § 2254(e), when a federal district court addresses “an
application for a writ of habeas corpus by a person in custody pursuant to the
judgment of a State court, a determination of a factual issue made by a State court
shall be presumed to be correct.” 28 U.S.C. § 2254(e)(1). For the purposes of
consideration of the present Petition, the Court provides and relies upon the
following synopsis from the OCCA’s opinion summarizing the evidence presented
at Petitioner’s trial.

Following review of the record, trial transcripts, and the

admitted exhibits, the Court finds this summary by the OCCA to be adequate and
accurate. The Court therefore adopts the following summary of the facts as its own:
Harris, who was a skilled transmission mechanic, and his wife,
Pam, worked in front office positions in transmission shops.
Throughout their relationship the two often worked together. Despite
being business partners as well as husband and wife, they had a stormy
relationship. This worsened significantly when Pam was hired, but
Harris was not, to work in Merle Taylor’s AAMCO transmission shop
in Oklahoma City. Harris commuted to work in Texas for several
months, during which time the marriage suffered. After Harris had a
work-related accident, he returned to Oklahoma. By the summer of
1999, Pam told him the marriage was over. While Harris agreed to a
divorce, he was angry and upset, and continued to hope Pam would
return to him. In mid-August of 1999, Harris called Pam, threatening
to kill her, her parents, their daughter, her co-workers, and Merle
Taylor. Pam got a protective order against Harris and filed for divorce.
The divorce was granted on August 25, 1999, and Harris was ordered
to leave the home without removing any property. Harris and Pam had
previously taped an agreement dividing the house property. On the
evening of the 25th, Harris moved out of the home, taking furniture and
many of Pam’s personal possessions. He also vandalized the house.
Pam discovered the damage the next day, found out where Harris had
stored her furniture and his tools, and had a lock put on that shed. In
the succeeding days Harris called Pam often demanding that she
remove the lock. Each time, she explained she could neither talk to
him nor remove the lock, and told him to call her attorney. He refused,
3

Resp. App. 54

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 4 of 66

explicitly stating he would talk to her. He continued to threaten her
and others. On August 31, 1999, he threatened to kill Pam and was
seen driving by the AAMCO shop.
On the morning of September 1, 1999, Harris called the AAMCO
shop several times, demanding that she remove the lock on the storage
shed and threatening Pam and Merle Taylor. At approximately 9:00
a.m. Harris arrived at the shop and asked for Pam, who was standing
with Merle Taylor and his daughter-in-law Jessica. He shot Taylor
twice at close range, and shot at Jessica. Harris shot Pam, chased her
when she ran, and pistol-whipped her when he ran out of bullets and
could not quickly reload his gun. When Pam escaped, Harris fled,
discarded the gun and his van, and hid in a friend’s garage. Harris
claimed he was angry and upset, and could not make good decisions
because he was of low intelligence, was under the influence of alcohol
and drugs, and was mentally ill (although not legally insane).
To support the aggravating circumstances, the State presented
the evidence of the circumstances of the crimes. There was also
evidence that, during the ongoing difficulties in mid-August, Pam had
called police and Harris had resisted arrest. The State presented
evidence that Harris assaulted a jailer while awaiting trial, and had
physically, verbally and emotionally abused Pam throughout their
relationship. The State also presented victim impact evidence. In
mitigation, Harris presented evidence from his family and former
co-workers, as well as expert evidence, regarding his traumatic and
abusive childhood, history of substance abuse, low intelligence,
emotional instability, and possible mental illness.
Harris, 164 P.3d at 1106-07.
PETITIONER’S CLAIMS FOR RELIEF
STANDARD OF REVIEW
Under the Antiterrorism and Effective Death Penalty Act of 1996 (hereinafter
“AEDPA”),

in order to obtain federal habeas relief once a State court has

4

Resp. App. 55

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 5 of 66

adjudicated a particular claim on the merits, Petitioner must demonstrate that the
adjudication:
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State
court proceeding.
28 U.S.C. § 2254(d)(1-2).
The Supreme Court has defined “contrary to” as a State court decision that is
“substantially different from the relevant precedent of this Court.” Williams v.
Taylor, 529 U.S. 362, 405 (2000) (O’Connor, J., concurring and delivering the
opinion of the Court). A decision can be “contrary to” Supreme Court precedent
“if the state court applies a rule that contradicts the governing law set forth in
[Supreme Court] cases” or “if the state court confronts a set of facts that are
materially indistinguishable from a decision of this Court and nevertheless arrives at
a result different from [Supreme Court] precedent.”

Id. at 405-06.

The

“unreasonable application” prong comes into play when “the state court identifies
the correct governing legal rule from [Supreme Court] cases but unreasonably
applies it to the facts of the particular state prisoner’s case” or “unreasonably extends
a legal principle from [Supreme Court] precedent to a new context where it should
not apply or unreasonably refuses to extend that principle to a new context where it
should apply.” Id. at 407. In ascertaining clearly established federal law, this
Court must look to “the holdings, as opposed to the dicta, of [the Supreme] Court’s
decisions as of the time of the relevant state-court decisions.” Yarborough v.
Alvarado, 541 U.S. 652, 660-61 (2004) (quoting Williams, 529 at 412.
The “AEDPA’s purpose [is] to further the principles of comity, finality, and
federalism.

There is no doubt Congress intended AEDPA to advance these
5

Resp. App. 56

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 6 of 66

doctrines.” Williams v. Taylor, 529 U.S. 420, 436 (2000). “The question under
AEDPA is not whether a federal court believes the state court’s determination was
incorrect but whether that determination was unreasonable – a substantially higher
threshold.” Schriro v. Landrigan, 550 U.S. 465, 473 (2007).

The deference

embodied in Section 2254(d) “reflects the view that habeas corpus is a ‘guard against
extreme malfunctions in the state criminal justice systems,’ not a substitute for
ordinary error correction through appeal.” Harrington v. Richter, 562 U.S. 86, 10203 (2011)(citation omitted).
GROUNDS FOR RELIEF
Ground 1:

Mental Health Rebuttal Evidence.

During the first stage of trial, and after Petitioner had testified, the defense
presented expert psychological and psychiatric testimony regarding Petitioner’s
intelligence and state of mind to support his diminished capacity defense of mental
illness. Subsequent to the defense’s notice that Petitioner intended to present such
a defense, the State obtained permission to have Dr. John Call, a psychologist,
interview Petitioner to determine if he was malingering. Dr. Call testified that
Petitioner appeared to be feigning or exaggerating cognitive, memory, and emotional
disorders. He also testified that Petitioner exhibited many traits of a psychopath.
Petitioner claims that the testimony of Dr. Call deprived him of a
fundamentally fair trial as his testimony was a surprise and that the defense was not
presented with a report prior to the testimony, that a prior determination was not
made regarding scientific reliability and acceptability of the substance of Dr. Call’s
testimony, that “psycopath” is not a mental illness or disease, and as such, was only
proper for indications of future behavior and improper evidence in the first stage of
trial, that the testimony should have been excluded as being more prejudicial than
probative, that evidence of bad character is barred under State law and admission of

6

Resp. App. 57

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 7 of 66

such was a violation of Petitioner’s liberty interest, and that the OCCA’s
determination was an unreasonable determination of the facts in light of the evidence
presented. In short, Petitioner’s claim is that the OCCA’s determination that Dr.
Call’s testimony was properly admitted is unreasonable.
After noting that the State presented Dr. Call as a rebuttal witness subsequent
to Petitioner’s testimony and the defense presentation of expert testimony of mental
illness, the OCCA rejected Petitioner’s claim of surprise and failure to excluded Dr.
Call’s testimony as a discovery sanction:
First, we reject Appellant’s contention that Dr. Call’s testimony should
have been excluded as a discovery sanction. Generally, the State need
not give advance notice of rebuttal evidence, because it cannot know
before trial what evidence will be relevant in rebuttal. Goforth v. State,
1996 OK CR 30, ¶ 3, 921 P.2d 1291, 1292. Dr. Call only interviewed
Appellant after the defense gave notice that it intended to present a
defense based on Appellant’s mental health. Defense counsel was
present when Dr. Call interviewed Appellant. Appellant had access to
his own mental-health experts to review Dr. Call’s notes and testimony.
After Dr. Call testified on direct examination, the trial court granted
Appellant’s request for additional time to prepare for
cross-examination. Appellant was not unfairly surprised by Dr. Call’s
testimony.
Harris, 84 P.3d at 745.
Dr. Call was called by the State in rebuttal to a defense based on a claim of
diminished mental health.

Defense counsel was present during Dr. Call’s

examination and testing of Petitioner and during the trial court’s in camera hearing
on Dr. Call’s techniques and the information utilized in reaching his conclusions.
Counsel was given the opportunity during the in camera hearing to question Dr. Call
and was permitted to re-call him for cross-examination after the defense expert
reviewed his work. Further, as noted by the OCCA, after Dr. Call’s testimony the
trial court granted defense counsel’s request for additional time to prepare for cross-

7

Resp. App. 58

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 8 of 66

examination. Considering the above, Petitioner has not demonstrated the OCCA’s
determination to be unreasonable.
Petitioner further claims it was error for the trial court to not hold a prior
hearing on the scientific reliability and acceptability of the substance of Dr. Call’s
methods and testimony consistent with Daubert v. Merrel Dow Pharmaceuticals, 509
U.S. 579 (1993). Although lengthy, the OCCA’s determination denying the claim
is set forth here in its entirety to set forth the facts and procedure regarding Dr. Call’s
testimony and to demonstrate the state court’s thorough and well considered review:
We next consider whether the trial court erred by not holding a hearing
on the reliability of Dr. Call’s methods consistent with Daubert v.
Merrell Dow Pharmaceuticals, 509 U.S. 579, 113 S.Ct. 2786, 125
L.Ed.2d 469 (1993). In Daubert, the Supreme Court recognized a trial
court’s important responsibility, as well as its broad discretion, in
assessing the admissibility of novel scientific evidence. The Court
identified several factors which may aid trial judges in determining
whether expert evidence is scientifically valid, and thus reliable
enough, to be admissible under the permissive guidelines of the Federal
Rules of Evidence. The Court stressed that its list of relevant factors
was not exhaustive, and that whether any of the factors mentioned were
applicable could only be determined on a case-by-case basis. In
essence, the Court held that while not all evidence deemed “scientific”
had to earn general acceptance in the scientific community before being
admissible, all such evidence should bear some indicia of traditional
scientific method. The focus should be “solely on principles and
methodology, not on the conclusions that they generate.” Daubert, 509
U.S. at 595, 113 S.Ct. at 2797. The Court subsequently extended
Daubert's principles to non-scientific but otherwise technical and
specialized expert testimony in Kumho Tire Co. v. Carmichael, 526
U.S. 137, 150–51, 119 S.Ct. 1167, 1175, 143 L.Ed.2d 238 (1999). We
adopted the Daubert analysis in Taylor v. State, 1995 OK CR 10, ¶ 15,
889 P.2d 319, 328–29, and have likewise extended it (per Kumho ) to
other types of expert testimony. Harris v. State, 2000 OK CR 20, ¶ 9,
13 P.3d 489, 493.

8

Resp. App. 59

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 9 of 66

Before Dr. Call testified, the trial court held an in camera hearing on
the techniques he used and the reasonableness of his reliance on certain
information to reach his conclusions. The hearing was consistent with
our holding in Lewis v. State, 1998 OK CR 24, ¶ 21, 970 P.2d 1158,
1167, that the trial court should determine the admissibility of expert
testimony before it is presented to the jury. At that hearing, Dr. Call
stated that the Hare Psychopathy Checklist was “the most widely
respected technique to assess psychopathy.” He testified as to his
experience in administering the technique, and explained that the
Checklist necessarily required him to obtain information from
immediate family which, in this case, included the surviving victim,
Mrs. Harris. Dr. Call testified that he did not tell Mrs. Harris the
purpose of his inquiry, and that he took her potential for bias into
account. He also stated that not all of Mrs. Harris’s observations about
Appellant were negative, and that many of her observations were
corroborated by others, including Appellant himself. The defense
cross-examined Dr. Call about his methods, but did not present any
evidence of its own. The trial court found Dr. Call’s methods reliable
and his testimony admissible. Defense counsel did not claim this
hearing was insufficient under Daubert until after Dr. Call had testified
on direct examination. Based on the information developed at the
original “Lewis” hearing, the trial court concluded that no further
Daubert inquiry was necessary.
Appellant complains that the Lewis hearing was not tantamount to a
Daubert hearing, because it did not address either “relevancy or
reliability of psychopathy opinion testimony in the guilt/innocence
phase of a criminal trial,” and claims that the Hare technique is “clearly
irrelevant and unreliable in this context” (emphasis added). We view
these concerns as a matter of general relevance, not affecting the
soundness of Dr. Call’s methods themselves. There was no evidence
that Dr. Call modified the Hare technique in any way, or that he used it
to assess anything but Appellant’s psychopathic tendencies.
Appellant’s complaint is not that the Hare Psychopathy Checklist is
unreliable per se, but that the Checklist did not assist the trier of fact,
see 12 O.S.2001, § 2702, because it was not a reliable indicator of
anything relevant to Appellant’s guilt. We conclude that it was.

9

Resp. App. 60

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 10 of 66

Appellant correctly notes that the Hare Psychopathy Checklist is
routinely used to determine whether a person poses a threat to others
generally; thus, the Checklist is often employed in capital-sentencing
proceedings (e.g. to show the defendant is a continuing threat to
society) and civil commitment proceedings (e.g. to justify involuntarily
commitment of a sexual predator). However, merely because
psychopathy evidence is relevant for these purposes does not render it
irrelevant for any other purpose. Any ability of the Checklist to predict
future behavior must necessarily be based on its ability to indicate
tendencies presently existing in the subject’s personality – which in turn
is based, in part, on an examination of the subject’s past behavior.
Appellant’s own experts – also relying in part on Appellant’s past
behavior – testified to support the defense theory that Appellant’s
mental functioning was impaired, and ultimately, that Appellant was (at
least at the time of the crime) unable to form a specific intent to kill.
In turn, the State was entitled to offer alternative explanations of
Appellant’s behavior. Appellant points out that psychopathy is not a
recognized mental disorder. This, of course, is exactly why the State
introduced the evidence in question: to show that Appellant’s behavior
was not the result of a diminished mental capacity, but rather the
product of a generally violent personality for which he should be held
accountable. We have repeatedly held that the State may present
rebuttal evidence on mental-health issues raised by the defense. See
Lockett v. State, 2002 OK CR 30, ¶ ¶ 22–25, 53 P.3d 418, 425; Van
White v. State, 1999 OK CR 10, ¶ 52, 990 P.2d 253, 268–69; Maghe v.
State, 1980 OK CR 100, ¶ 7, 620 P.2d 433, 435; see also 12 O.S.2001,
§ 2404(A)(1) (where accused presents evidence of a pertinent character
trait, the prosecution may present evidence to rebut the same). Dr.
Call’s opinions, and prosecutor commentary on this evidence as bearing
on Appellant’s ability to form an intent to kill, were not improper.
Finally, we note that the jury was well aware of the limitations on Dr.
Call’s testimony. Dr. Call made it clear that while Appellant exhibited
many behaviors associated with psychopathy, he also exhibited many
behaviors inconsistent with psychopathy. Dr. Call admitted he could
not conclusively state that Appellant was a psychopath, and conceded
that even a psychopath may suffer from some other recognized mental
illness. The trial court’s limiting instruction, which Appellant did not

10

Resp. App. 61

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 11 of 66

object to, was patterned after the one used by the trial court in Lewis v.
State, and we find it appropriate here as well. Proposition 2 is denied.
Harris, 84 P.3d at 744-47 (footnotes omitted).
Rather than apply Daubert to the facts in the record, this Court must determine
whether the OCCA’s decision was an unreasonable determination that Petitioner
received a fair trial. In Wilson v. Simons, 536 F.3d 1064 (10th Cir. 2008), the Tenth
Circuit considered a claim that admission of certain DNA results without a Daubert
hearing violated the petitioner’s Eighth and Fourteenth Amendment rights.
Denying the claim, the Tenth Circuit held:
“As a general matter, federal habeas corpus relief does not lie to review
state law questions about the admissibility of evidence....” Moore v.
Marr, 254 F.3d 1235, 1246 (10th Cir.2001) (internal citations omitted).
Absent a showing that the admission of the evidence violated a specific
constitutional guarantee, a federal court on habeas review will not
disturb the state court’s evidentiary ruling unless it was “so grossly
prejudicial that it fatally infected the trial and denied the fundamental
fairness that is the essence of due process.” Fox v. Ward, 200 F.3d
1286, 1296 (10th Cir.2000) (quoting Williamson v. Ward, 110 F.3d
1508, 1522 (10th Cir.1997)); Milone v. Camp, 22 F.3d 693, 702 (7th
Cir.1994). Because Daubert does not set any specific constitutional
floor on the admissibility of scientific evidence, the only relevant
question is whether the PCR test rendered the trial fundamentally
unfair. Milone, 22 F.3d at 702; see also Norris v. Schotten, 146 F.3d
314, 335 (6th Cir.1998).
Id. at 1101-02.
As stated above, Dr. Call testified in camera before his rebuttal testimony and
was subjected to defense counsel’s questioning. The trial court granted defense
counsel’s request for additional time to review Dr. Call’s testimony and was
permitted to re-call Dr. Call for cross-examination after the defense expert reviewed
his work. The Hare checklist utilized by Dr. Call was not novel. It was utilized to
not only predict future dangerousness but also as a diagnostic tool for treatment and
11

Resp. App. 62

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 12 of 66

management.

Dr. Call’s opinion was based on the results of this recognized

diagnostic tool and offered to rebut the claim that Petitioner was not capable of
intending to kill Mr. Taylor. In fact, his opinion was corroborated by Petitioner’s
own second stage expert who agreed Petitioner had many of the traits of an
individual with psychopathy or antisocial personality disorder. (Tr., Vol. XVIII, pp.
181-82, 192-93).
Petitioner has not demonstrated the determination of the OCCA’s was
contrary to, or an unreasonable application of, clearly established Supreme Court
law. Nor has Petitioner demonstrated that the admission of Dr. Call’s testimony
rendered the trial fundamentally unfair. Petitioner’s first ground for relief is denied.
Ground 2:

Mental Capacity Jury Instruction.

Petitioner next claims that the trial court erred when it instructed the jury, over
defense objection, that mental retardation was a defense to the charged offenses only
if it rendered him incapable of knowing the wrongfulness of the offenses because of
his mental retardation. Petitioner claims this instruction denied him the right to
present a defense to the intent element of malice aforethought murder in violation of
his Sixth and Fourteenth Amendment rights.4
On appeal, the OCCA determined no prejudice existed and no violation of
Petitioner’s rights:
In Proposition 5, Appellant contends that the trial court’s
instructions to the jury relating to his defense were confusing, improper,
and denied him a fair trial. Appellant offered evidence that “low
intelligence, mental illness, and drug and alcohol induced intoxication”
combined to give him “limited control” over his actions at the time of
the crimes. The goal of Appellant’s defense was to show that at the
time of the shootings, he could not have formed a specific intent to kill.
4

Petitioner adds the absence of an instruction on second degree depraved mind murder
compounded the denial of his rights. See Ground 3, infra.

12

Resp. App. 63

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 13 of 66

He requested and received a jury instruction on a lesser form of
homicide, First–Degree Manslaughter, arguably compatible with his
defense. However, because Appellant had attempted to show that he
was at least “borderline” mentally retarded, the trial court also
instructed the jury, over defense objection but consistent with
Oklahoma law, that mental retardation was a complete defense to
culpability if it rendered the accused incapable of knowing the
wrongfulness of his acts. See 21 O.S.2001, § 152(3).
Appellant claims the trial court’s instruction on mental
retardation as a complete exculpatory defense was not supported by the
evidence. We agree. The accused is entitled to instructions on any
defense theory, whether it be mitigating or exculpatory, if the law and
evidence reasonably support that theory. Cipriano v. State, 2001 OK
CR 25, ¶ 30, 32 P.3d 869, 876. Because, as Appellant concedes, the
evidence failed to suggest he was mentally retarded to the extent he
could not appreciate the wrongfulness of his actions, the trial court’s
instruction on mental retardation as an exculpatory defense was
unwarranted.
We fail to see how this instruction prejudiced Appellant. The
instruction actually saddled the State with the additional preliminary
burden of proving that Appellant was not mentally retarded before he
could be convicted of any crime. Even though the outcome might have
been unlikely, the instruction gave the jurors the option of finding
Appellant not guilty of any crime, if they believed his intellectual
capacity was so diminished that he could not distinguish right from
wrong. Finally, the instruction in no way discouraged the jury from
fully considering Appellant’s intellectual abilities, along with his
alleged mental illness and substance abuse, on the issue of whether he
lacked the ability to form a specific intent to kill. Because the
instruction could only have worked to Appellant’s benefit, we find no
violation of his substantial rights. McGregor v. State, 1994 OK CR 71,
¶ 23, 885 P.2d 1366, 1380; Allen v. State, 1994 OK CR 13, ¶ 33, 871
P.2d 79, 93. Proposition 5 is denied.
Harris, 84 P.3d at 749-50.

13

Resp. App. 64

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 14 of 66

A petitioner seeking collaterally to attack a state court conviction based on an
erroneous set of jury instructions “bears a heavy burden of proof.” Shafer v. Stratton,
906 F.2d 506, 508 (10th Cir.1990). “Habeas proceedings may not be used to set
aside a state conviction on the basis of erroneous jury instructions unless the errors
had the effect of rendering the trial so fundamentally unfair as to cause a denial of a
fair trial in the constitutional sense,” Shafer, 906 F.2d at 508 (quotation omitted), or
“so infected the entire trial that the resulting conviction violates due process,” Estelle
v. McGuire, 502 U.S. 62, 72 (1991) (quoting Cupp v. Naughten, 414 U.S. 141, 147
(1973)).
Petitioner has not demonstrated the trial court’s instruction had a substantial
and injurious effect or influence on the jury’s verdict, Brecht v. Abrahamson, 507
U.S. 619, 631 (1993), or that the OCCA’s determination was contrary to, or an
unreasonable application of, clearly established federal law as determined by the
Supreme Court. Accordingly, Petitioner’s ground for relief is denied in its entirety.
Ground 3:

Failure to Instruct on Lesser Offense.

In Beck v. Alabama, 447 U.S. 625 (1980), the Supreme Court held that the
Due Process Clause of the Fourteenth Amendment sometimes requires a state
charging a defendant with a capital offense to permit the jury to consider alternative,
lesser included offenses that do not carry with them the prospect of a death sentence.
Id. at 627; see also Schad v. Arizona, 501 U.S. 624, 647 (1991). At the first stage
of trial the State charged Petitioner with first-degree malice aforethought murder.
The trial court denied defense counsel’s request to instruct the jury on second-degree
depraved mind murder, but did instruct on a lesser offense of first-degree
manslaughter. Petitioner claims here that the denial of his requested instruction on
the lesser offense of second-degree depraved mind murder violated his Sixth, Eighth,
and Fourteenth Amendment rights.

14

Resp. App. 65

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 15 of 66

In Beck, the Supreme Court held that “a sentence of death [may not]
constitutionally be imposed after a jury verdict of guilt of a capital offense, when the
jury was not permitted to consider a verdict of guilt of a lesser included non-capital
offense, and when the evidence would have supported such a verdict.” Id. at 627
(emphasis added). On appeal, the OCCA determined the evidence did not warrant
an instruction on second degree murder:
In Proposition 10, Appellant claims error in the trial court’s
rejection of his proposed instructions on the lesser offense of Second
Degree (Depraved Mind) Murder, as well as his proposed instruction
attempting to define “reasonable doubt.” As to the first claim, the trial
court was required to instruct on every degree of homicide reasonably
supported by the evidence. Shrum v. State, 1999 OK CR 41, ¶ 10, 991
P.2d 1032, 1036. To warrant an instruction on Second Degree
(Depraved Mind) Murder, the evidence must reasonably support the
conclusion that the defendant committed an act so imminently
dangerous to another person as to evince a depraved mind in disregard
for human life. Williams v. State, 2001 OK CR 9, ¶ 23, 22 P.3d 702,
712.
Appellant shot Taylor twice at close range, immediately after
pushing him down to the ground. Appellant testified that he shot
Taylor “accidentally,” “without thinking or knowing” what he was
doing. Instructions on depraved-mind murder are unwarranted when
the defense claims the fatal gunshots were fired accidentally. Crumley
v. State, 1991 OK CR 72, ¶ 13, 815 P.2d 676, 678–79. Furthermore,
in determining the sufficiency of the evidence to support a lesser
offense, we look to whether the evidence might allow a jury to acquit
the defendant of the greater offense and convict him of the lesser.
Cipriano, 2001 OK CR 25 at ¶ 14, 32 P.3d at 873. Given the
substantial evidence that Appellant drove to the transmission shop to
do violence (see discussion of Proposition 6), we do not believe any
rational trier of fact could have found Appellant evinced a depraved
mind but lacked an intent to kill. Cf. Young v. State, 2000 OK CR 17,
¶¶ 61–62, 12 P.3d 20, 39–40 (instructions on depraved-mind murder
correctly refused where defendant entered restaurant with intent to rob
its occupants with firearm, stood directly in front of victim, raised gun,

15

Resp. App. 66

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 16 of 66

demanded money, and fatally shot victim in the back of the chest when
victim tried to defend himself), cert. denied, 532 U.S. 1055, 121 S.Ct.
2200, 149 L.Ed.2d 1030 (2001); Boyd v. State, 1992 OK CR 40, ¶ 11,
839 P.2d 1363, 1367–68, cert. denied, 509 U.S. 908, 113 S.Ct. 3005,
125 L.Ed.2d 697 (1993) (instructions on depraved-mind murder
correctly refused where defendant shot victim a second time in the chest
at close range).
Harris, 84 P.3d at 750.
In Shad v. Arizona, 501 U.S. 624, 645-48 (1991), the Supreme Court held that
Beck’s requirement is satisfied so long as the jury is instructed on at least one lesser
included offense that is supported by the evidence. Here, the trial court instructed
on the lesser included offense of first-degree manslaughter.
The OCCA’s determination that the evidence did not warrant an instruction
on second degree murder was neither contrary to, nor an unreasonable application
of, clearly established federal law.

As detailed by the OCCA, Petitioner’s

testimony that he “accidently” and “without thinking or knowing” what he was doing
does not warrant an instruction on second degree depraved mind murder under
Oklahoma law. The OCCA further determined that substantial evidence existed
that Petitioner intentionally went to the transmission shop to do violence such that
no rational trier of fact could have found Petitioner evinced a depraved mind but
lacked the intent to kill – i.e., that the evidence did not support the lesser instruction
of second degree depraved mind murder.
As Beck’s requirements were met, and the OCCA’s determination was not
contrary to, or a unreasonable application of, federal law, Petitioner has not
demonstrated that failure to instruct on second degree depraved mind murder
rendered his trial fundamentally unfair. See James v. Gibson, 211 F.3d 543, 555 (10th
Cir. 2000). Accordingly, Petitioner’s third ground for relief is denied.

16

Resp. App. 67

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 17 of 66

Ground 4:

Impartial Jury Claim.

Petitioner claims the prosecution utilized four of its nine peremptory
challenges to remove venire persons without sufficient race neutral reasons and that
the trial court’s acceptance of the reasons and dismissal of those prospective jurors
was a violation of his Fifth, Sixth, and Fourteenth Amendment rights as provided in
Batson v. Kentucky, 476 U.S. 79 (1986).
In Batson, the Supreme Court held that although a prosecutor ordinarily is
entitled to exercise permitted peremptory challenges “‘for any reason at all, as long
as that reason is related to his view concerning the outcome’ of the case to be tried,
. . . the Equal Protection Clause forbids the prosecutor to challenge potential jurors
solely on account of their race or on the assumption that black jurors as a group will
be unable impartially to consider the State’s case against a black defendant.” Id. at
89 (internal citations omitted).

Subsequently, the Supreme Court articulated

Batson’s three-step process for evaluating claims that a prosecutor used peremptory
challenges in violation of the Equal Protection Clause:
First, a defendant must make a prima facie showing that a peremptory
challenge has been exercised on the basis of race. 476 U.S., at 96-97,
106 S.Ct. 1712. Second, if that showing has been made, the
prosecution must offer a race-neutral basis for striking the juror in
question. Id., at 97-98, 106 S.Ct. 1712. Third, in light of the parties’
submissions, the trial court must determine whether the defendant has
shown purposeful discrimination. Id., at 98, 106 S.Ct. 1712.
Miller-El v. Cockrell, 537 U.S. 322, 328-29 (2003).
On appeal, Petitioner raised his claim as to four minority veniremen excused
by the prosecution’s use of its peremptory challenges. Petitioner asserts his claim
here, however, only as to one venire person, stating “[d]ue to the limitations of the
AEDPA only the peremptory strike as to juror Carol Gray is being pursued in this
Petition.” (Pet. at 39) The OCCA identified Batson as controlling authority and set

17

Resp. App. 68

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 18 of 66

forth its three part inquiry, analyzed all four of Petitioner’s claims, and denied relief.
Harris, 84 P.3d at 743. As to the claim raised here, the OCCA stated:
The prosecutor moved to strike Ms. Gray because
her answers to questions were unclear, and because she
made several comments suggesting she would be
sympathetic to Appellant’s defense. Appellant’s claim
that the prosecutor deliberately asked Ms. Gray confusing
questions is not supported by the record. Ms. Gray stated
that in her opinion, people who acted under the influence
of alcohol were less responsible for their actions. The
prosecutor’s concern about Ms. Gray’s ability to
assimilate the facts and follow the law was a plausible,
race-neutral reason for removing her. In conclusion, we
find no evidence that the prosecutor’s stated reasons for
striking these panelists were so fantastic or incredible as
to warrant relief. Proposition 8 is denied.5
Harris, 84 P.3d at 743.
“The disposition of a Batson claim is a question of fact....” Saiz v. Ortiz, 392
F.3d 1166, 1175 (10th Cir. 2004). As long as the state court applied Batson,
Petitioner is entitled to relief only if the state court’s rejection of his claim “was ‘an
unreasonable determination of the facts in light of the evidence presented in the State
court proceeding.’ ” Black v. Workman, 682 F.3d 880, 896 (10th Cir. 2012)(quoting
28 U.S.C. § 2254(d)(2)).
Petitioner challenges the removal of Ms. Gray claiming that the prosecutor
utilized a peremptory challenge to excuse her because she was a black woman. The
prosecutor’s expressed reasons for excusing Ms. Gray included Ms. Gray’s inability

5

As an initial matter, we note that Appellant is Caucasian, his victims were Caucasian,
and that there were no identifiable race-related issues in the trial itself; that one of the panelists
complained of here (Ms. King) was not, according to the trial court, of a minority race; that several
members of the final jury panel were of a minority race; and that the prosecutor did not use every
peremptory challenge to remove a minority panelist. (Footnote 8 original)

18

Resp. App. 69

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 19 of 66

to understand many of the questions presented to her and her multiple nonresponsive answers.

The prosecutor’s reasons for exercising a peremptory

challenge, and the trial court’s acceptance of those stated reasons, are supported by
review of the record. Many of Ms. Gray’s responses to pointed questions were
often confusing. When asked what things in life caused her to think about the death
penalty, Ms. Gray’s response reflected thought about guilt and innocence as well as
statements regarding the media’s inaccurate reporting of facts. She did not respond
concerning the death penalty. (Tr., Vol. 3, pp. 150-51) When asked whether in her
opinion Timothy McVeigh deserved the death penalty, Ms. Gray responded: “I only
know by people that were there that told me. They would tell me something that
were actually there. They couldn’t have seen everything, just certain. They, you
know, were here at the same time. They just tell me about their situation.” (Id.)
Ms. Gray responded to almost every question presented to her about the whether she
could impose the death penalty as a sentence by referring to evidence and the fact
that she did not know all the details prevented her from knowing if any sentence of
death had ever been appropriate or justified. (Tr., Vol. 3, pp. 147-51) Ms. Gray
further stated that in her opinion people under the influence of alcohol were less
responsible for their actions because they were not aware of what they were doing.
(Tr., Vol. 3, pp. 161-62)
The prosecutor provided several race-neutral reasons to strike Ms. Gray from
serving on the jury. The OCCA determined from its review that the prosecutor’s
concern about Ms. Gray’s ability to assimilate the facts and follow the law was
plausible, and that there was no evidence to support granting Petitioner’s claim for
relief. Petitioner has not satisfied his burden of demonstrating that the OCCA’s
determination was either contrary to, or an unreasonable application of, clearly
established federal law, nor has he demonstrated that the OCCA’s determination was

19

Resp. App. 70

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 20 of 66

an unreasonable determination of the facts in light of the evidence presented in the
state court proceeding. Accordingly, Petitioner’s claim for relief is denied.
Ground 5:

Ineffective Assistance of Appellate Counsel in 2001 Direct Appeal.

Petitioner claims he was denied effective assistance of appellate counsel in his
2001 direct appeal when propositions of error were not presented regarding
prosecutorial misconduct in the first stage of trial, failure to claim ineffective
assistance of trial counsel for not obtaining micro-cassette tapes, failure by appellate
counsel to interview jurors and raise the issue of ineffective assistance of trial
counsel regarding Petitioner being seen by the jury wearing restraints, and failure to
raise the claim on appeal that the trial court did not instruct the jury the prosecution
must prove beyond a reasonable doubt the absence of heat of passion.
To prevail on a claim of ineffective assistance of counsel under the Sixth
Amendment, Petitioner must first show that his counsel “committed serious errors
in light of ‘prevailing professional norms’” in that the representation fell below an
objective standard of reasonableness. See Strickland v. Washington, 466 U.S. 668,
688 (1984). In so doing, Petitioner must overcome the “strong presumption” that
his counsel’s conduct fell within the “wide range of reasonable professional
assistance” that “‘might be considered sound trial strategy,’” Strickland, 466 U.S. at
689, quoting Michel v. Louisiana, 350 U.S. 91, 101 (1955). He must, in other
words, overcome the presumption that his counsel’s conduct was constitutionally
effective. United States v. Haddock, 12 F.3d 950, 955 (10th Cir. 1993). A claim
of ineffective assistance “must be reviewed from the perspective of counsel at the
time,” Porter v. Singletary, 14 F.3d 554, 558 (11th Cir.), cert. denied, 513 U.S. 1009
(1994), and, therefore, may not be predicated on “‘the distorting effects of
hindsight.’”

Parks v. Brown, 840 F.2d 1496, 1510 (10th Cir. 1987), quoting

Strickland, 466 U.S. at 689.

20

Resp. App. 71

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 21 of 66

If constitutionally deficient performance is shown, Petitioner must then
demonstrate that “there is a ‘reasonable probability’ the outcome would have been
different had those errors not occurred.”

Haddock, 12 F.3d at 955; citing

Strickland, 466 U.S. at 688, 694; Lockhart v. Fretwell, 506 U.S. 364, 369-70 (1993).
In the specific context of a challenge to a death sentence, the prejudice component
of Strickland focuses on whether “the sentencer . . . would have concluded that the
balance of aggravating and mitigating circumstances did not warrant death.”
Strickland, 466 U.S. at 695; quoted in Stevens v. Zant, 968 F.2d 1076, 1081 (11th
Cir. 1992), cert. denied, 507 U.S. 929 (1993). Petitioner carries the burden of
establishing both that the alleged deficiencies unreasonably fell beneath prevailing
norms of professional conduct and that such deficient performance prejudiced his
defense. Strickland, 466 U.S. at 686; Yarrington v. Davies, 992 F.2d 1077, 1079
(10th Cir. 1993).

In essence, “[t]he benchmark for judging any claim of

ineffectiveness must be whether counsel’s conduct so undermined the proper
functioning of the adversarial process that the trial cannot be relied on as having
produced a just result.” Strickland, 466 U.S. at 686. “Counsel’s performance must
be ‘completely unreasonable’ to be constitutionally ineffective, ‘not merely
wrong.’” Welch v. Workman, 639 F.3d 980, 1011 (10th Cir. June 7, 2010)(quoting
Hoxsie v. Kerby, 108 F.3d 1239, 1246 (10th Cir. 1997)).

“Surmounting

Strickland’s high bar is never an easy task.” Padilla v. Kentucky, 559 U.S. 356, 371,
130 S.Ct. 1473, 1485 (2010).
Establishing that a state court’s application of Strickland was
unreasonable under § 2254(d) is all the more difficult. The standards
created by Strickland and § 2254(d) are both “highly deferential,”
[Strickland] at 689, 104 S.Ct. 2052; Lindh v. Murphy, 521 U.S. 320,
333, n. 7, 117 S.Ct. 2059, 138 L.Ed.2d 481 (1997), and when the two
apply in tandem, review is “doubly” so, Knowles, 556 U.S., at 123, 129
S.Ct. at 1420. The Strickland standard is a general one, so the range
of reasonable applications is substantial. 556 U.S., at 123, 129 S.Ct. at
21

Resp. App. 72

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 22 of 66

1420 . Federal habeas courts must guard against the danger of
equating unreasonableness under Strickland with unreasonableness
under § 2254(d). When § 2254(d) applies, the question is not whether
counsel’s actions were reasonable. The question is whether there is
any reasonable argument that counsel satisfied Strickland’s deferential
standard.
Harrington v. Richter, 562 U.S. 86, 105 (2011).
Demonstrating deficient performance of appellate counsel can often be more
difficult:
In Jones v. Barnes, 463 U.S. 745, 103 S.Ct. 3308, 77 L.Ed.2d 987
(1983), we held that appellate counsel who files a merits brief need not
(and should not) raise every nonfrivolous claim, but rather may select
from among them in order to maximize the likelihood of success on
appeal. Notwithstanding Barnes, it is still possible to bring a Strickland
claim based on counsel’s failure to raise a particular claim, but it is
difficult to demonstrate that counsel was incompetent. See, e.g., Gray
v. Greer, 800 F.2d 644, 646 (C.A.7 1986) (“Generally, only when
ignored issues are clearly stronger than those presented, will the
presumption of effective assistance of counsel be overcome”).
Smith v. Robbins, 528 U.S. 259, 288 (2000).
In analyzing an appellate ineffectiveness claim based upon the failure to raise
an issue on appeal, “we look to the merits of the omitted issue,” Neill v. Gibson, 278
F.3d 1044, 1057 (10th Cir.2001).
If the omitted issue is so plainly meritorious that it would have been
unreasonable to winnow it out even from an otherwise strong appeal,
its omission may directly establish deficient performance; if the omitted
issue has merit but is not so compelling, the case for deficient
performance is more complicated, requiring an assessment of the issue
relative to the rest of the appeal, and deferential consideration must be
given to any professional judgment involved in its omission; of course,
if the issue is meritless, its omission will not constitute deficient
performance. See, e.g., Smith [v. Robbins], 528 U.S. [259], 288, 120
S.Ct. 746; Banks v. Reynolds, 54 F.3d 1508, 1515-16 (10th Cir. 1995);
Mayo v. Henderson, 13 F.3d 528, 533 (2d Cir. 1994).
22

Resp. App. 73

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 23 of 66

Cargle v. Mullin, 317 F.3d 1196, 1202-03 (10th Cir. 2003).
1. Failure to present a prosecutorial misconduct claim.
Petitioner claims appellate counsel was ineffective for failing to raise a claim
of prosecutorial misconduct. He claims the prosecutor improperly denigrated the
defense, defense counsel, defense witnesses, and made improper comments during
cross-examination.

Petitioner raised this claim in his 2005 post-conviction

proceeding. After the OCCA noted that appellate counsel is not required to raise
every non-frivolous claim, the OCCA determined Petitioner’s claim did not form the
basis of a finding of ineffective assistance of appellate counsel:
Harris first argues appellate counsel should have claimed that
prosecutorial misconduct occurred in the first stage of Harris’s trial. A
thorough review of the record does not support Harris’s claims. He
first cites instances where, he claims, the prosecutor denigrated the
defense, defense counsel and witnesses, and made improper comments
to the jury. Many of the prosecutor’s statements or questions were
proper: Harris’s objections to some improper questions were sustained;
and Harris fails to show how he was prejudiced by comments which
might have crossed the line. Harris also argues that the prosecutor
attempted to incite societal alarm by referring to the missing murder
weapon. Specific references to evidence relevant to this case, or
Harris’s own actions regarding potential evidence, do not constitute
societal alarm. Harris suggests that the alleged misconduct in first
stage closing argument amounts to structural error. Without engaging
in an analysis of structural error, the record does not support his
suggestion that this argument contained errors which prejudiced Harris;
thus, the argument certainly could not have constituted structural error.
Harris has not demonstrated prejudice from appellate counsel’s failure
to raise first stage prosecutorial misconduct, and this claim cannot form
the basis for a finding of ineffective assistance of appellate counsel.
Harris, 167 P.3d at 442.
The deferential standard of review under 28 U.S.C. § 2254(d) is required since
the OCCA adjudicated Petitioner’s prosecutorial misconduct claim on the merits.
23

Resp. App. 74

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 24 of 66

See Walker v. Gibson, 228 F.3d 1217, 1241 (10th Cir. 2000), abrogated on other
grounds by Neill v. Gibson, 278 F.3d 1044, 1057 (10th Cir. 2001). Petitioner does
not demonstrate that the asserted prosecutorial misconduct denied him a specific
constitutional right.

The appropriate standard for a prosecutorial misconduct

habeas claim, therefore, is “‘the narrow one of due process, and not the broad
exercise of supervisory power.’” Darden v. Wainwright, 477 U.S. 168, 181 (1986)
(quoting Donnelly v. DeChristoforo, 416 U.S. 637, 642 (1974)). Accordingly, “it
is not enough that the prosecutor’s remarks were undesirable or even universally
condemned.” Darden, 477 U.S. at 181 (citation omitted). A prosecutor’s improper
remarks require reversal of a conviction or sentence only if the remarks “so infected
the trial with unfairness as to make the resulting conviction a denial of due process.”
Donnelly, 416 U.S. at 643, 645 (1974). The fundamental fairness inquiry requires
an examination of the entire proceedings and the strength of the evidence against the
petitioner, both as to the guilt stage and the sentencing phase. Id. at 643.
As stated by the OCCA, a majority of the complained of questions by the
prosecutor were proper and addressed discrepancies in the testimony of witnesses
and the Petitioner.

Further, as to any comments directed toward Petitioner’s

defense, experts testified Petitioner had borderline mental functioning that would
have diminished his capacity to reason and solve problems. The jury was aware of
this testimony, and any claimed “denigration” of Petitioner’s defense by the
prosecution would cause little to no prejudice compared to the information and
opinions provided by both sides’ experts and additional facts and testimony
presented at trial.

Most importantly, Petitioner has not demonstrated the

complained of comments by the prosecutor so infected the trial with unfairness as to
rise to a denial of due process.

24

Resp. App. 75

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 25 of 66

Appellate counsel is not required to raise every non-frivolous claim, and the
fact appellate counsel did raise a second stage prosecutorial claim is suggestive of a
thorough review of the record and reasoned determination in support of a strategic
decision to not include a first stage prosecutorial claim. Petitioner has failed to
demonstrate the OCCA’s determination was contrary to, or an unreasonable
application of, clearly established Supreme Court law.
2. Trial counsel’s failure to obtain micro-cassette tapes.
Petitioner next claims ineffective assistance of appellate counsel for failing to
raise the claim of trial counsel ineffectiveness. Petitioner claims trial counsel was
ineffective for failing to conduct pre-trial discovery to obtain micro-cassette tapes
belonging to Petitioner. The tapes were seized out of Petitioner’s van pursuant to a
search warrant and reportedly contained recorded conversations between Petitioner
and his wife regarding what property she agreed he could take from their house upon
their separation. Petitioner argues the tapes were relevant to show he was acting in
conformity with their agreement and that Ms. Harris’s failure to live up to that
agreement and the withholding of his tools was the provocation that led to Petitioner
going to Ms. Harris’s place of business on the day of the homicide. Petitioner
claims trial counsel knew the tapes were material and was ineffective for failing to
formally request the tapes and for failing to issue a subpoena duces tecum to Ms.
Harris.
Harris next argues that appellate counsel failed to claim trial
counsel was ineffective. He fails to show that he was prejudiced by
appellate counsel’s omission. None of these separate claims of
ineffective assistance of trial counsel, which were not raised on Harris’s
direct appeal, form a basis for a finding of ineffective assistance of
appellate counsel.
Harris first argues that counsel failed to find or produce
microcassette tapes which he alleges were seized by the State in

25

Resp. App. 76

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 26 of 66

Harris’s van. Harris raises the issue of these tapes in his motion for
discovery as well. He argues the tapes, allegedly a record of his
conversations with his wife Pam concerning what he could take from
their home, would show he was acting in accordance with her wishes
when he moved certain things from the house. Harris suggests this
would have explained why he was so angry when Pam locked up his
tools after he moved. Even if this were true, it completely fails to
account for the evidence showing Harris took other things which Pam
testified were not part of that agreement, and that Harris also defaced
the home as he left. In addition, this evidence goes to Harris’s
relationship with Pam and his reason for being at the AAMCO
transmission shop. However, Harris killed a third party, with whom
he had no quarrel. Harris fails to show how introduction of the
microcassette tapes would have resulted in a different outcome.
Harris, 167 P.3d at 442.
Petitioner testified he had taped several conversations between himself and
Ms. Harris about the division of their marital property. Two other witnesses,
Petitioner’s daughter and Petitioner’s brother, testified they had listened to the tapes.
Petitioner’s brother testified Ms. Harris stated on the tapes that Petitioner could take
everything in the house except a couple of large items of furniture and her family
photographs.
Subsequent to the recording of these conversations, Ms. Harris obtained a
court order giving her the house and all of its contents. The court also verbally
ordered Petitioner not to remove anything from the house. Petitioner took items
from the house and put them in a storage unit. Ms. Harris, thereafter, obtained a
court order to lock the storage unit. The day before, and the day of, the murder
Petitioner demanded Ms. Harris remove the lock. Petitioner blamed the shootings
on her failure release the property in the storage unit he believed to belong to him.
Petitioner has not demonstrated how trial counsel was deficient for failing to
obtain the tapes or how he was prejudiced by their absence. Extensive testimony

26

Resp. App. 77

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 27 of 66

was received explaining the contents of the recorded conversations, as well as the
subsequent legal proceedings regarding the marital property. Petitioner learned of
the court-ordered lock on the storage unit five days before the murder. Although
Petitioner testified he blamed the shootings on Ms. Harris’s failure to give him his
property from the storage unit, he has not demonstrated, especially in light of the
court orders concerning the property, what additional information not presented at
trial was contained on the tapes or how they would have supported legal provocation
regarding the murder of a third person.
As the claim of ineffective assistance of trial counsel in insufficient to warrant
relief, appellate counsel cannot be determined ineffective for failing to raise the
claim on appeal. Petitioner has not demonstrated the OCCA’s determination to be
contrary to, or an unreasonable application of, clearly established federal law as
determined by the Supreme Court.
3. Failure to interview jurors.
Petitioner claims appellate counsel was ineffective for failing to interview and
investigate jurors from his first trial. He contends had counsel conducted interviews
it would have been discovered that the jurors saw Petitioner in handcuffs, and that
failure to do so was deficient performance. He asserts that one juror stated the
jurors who came to court early would see Petitioner being escorted in handcuffs from
the elevator to the courtroom, and that upon the pronouncement of the guilty verdict
a deputy sheriff “popped out his handcuffs and they made such a loud noise that
everyone on the jury and in the courtroom jumped.” (Pet. at 64)
Harris argues that appellate counsel should have claimed trial counsel
was ineffective because jurors at his first trial saw Harris in restraints
as he was escorted to and from the courtroom and after the guilty verdict
was pronounced. While Harris likens this to cases in which a person
is tried while shackled, the record shows that Harris was not tried while

27

Resp. App. 78

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 28 of 66

in restraints. He fails to show any prejudice from any inadvertent view
of him handcuffed before trial.
Harris claims appellate counsel was ineffective for failing to interview
Harris’s jurors from the first trial. He suggests appellate counsel
would have discovered that some jurors saw Harris in handcuffs.
Harris completely fails to show how he was prejudiced by this
omission; nor does he show that, as a matter of prevailing professional
norms, appellate counsel must interview every trial juror.
Harris, 167 P.3d at 442-43 (footnote omitted).
Petitioner’s reliance on Deck v. Missouri, 544 U.S. 622 (2005), is misplaced.6
Deck held that the use of visible shackles during the guilt and penalty phase of trial
was forbidden unless it was “‘justified by an essential state interest’ – such as the
interest in courtroom security – specific to the defendant on trial.” Id. at 629. The
juror’s affidavit provided by Petitioner states Petitioner was seen coming off of the
elevator in handcuffs and that the handcuffs were never seen being used during trial.
(Petitioner’s Exhibit 9)

Secondly, securing a criminal defendant while being

transported to the courtroom serves a reasonable state security interest.
Petitioner has not demonstrated that a juror’s brief glimpse of a defendant in
handcuffs outside of the courtroom is fundamentally prejudicial. Nor has Petitioner
demonstrated the OCCA’s determination of the absence of both deficient
performance and of prejudice was unreasonable.
4. Failure to instruct that State must prove absence of heat of passion.
Petitioner next claims appellate counsel was ineffective for failing to assert on
direct appeal that a defense to first-degree murder is an affirmative defense of heat

6

The Supreme Court decided Deck in 2005 — after Petitioner’s trial and direct appeal –
and cannot, therefore, be considered in support of prevailing professional norms of appellate
counsel.

28

Resp. App. 79

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 29 of 66

of passion, and that the jury should have been instructed that the State had the burden
of proving the absence of heat of passion beyond a reasonable doubt.
Petitioner raised his ineffective assistance of appellate counsel claim on postconviction:
Harris next claims that appellate counsel was ineffective for failing to
raise as error several rulings of the trial court. He first claims the trial
court should have instructed jurors that the affirmative defense of heat
of passion is a defense to murder in the first degree. This jury
instruction was not adopted until 2006, several years after Harris’s trial.
Beyond claiming that he “is not guilty of malice murder”, [Application
at 35] Harris fails to show any prejudice from the lack of this
instruction.
Harris, 167 P.3d at 443.
In Mullaney v. Wilbur, 421 U.S. 684 (1975), the Supreme Court, construing
a Maine murder statute allowing any intentional or criminally reckless killing to be
punished as murder unless the defendant proves that it was committed in the heat of
passion on sudden provocation, in which case it is punished as manslaughter, stated
that “the Due Process Clause requires the prosecution to prove beyond a reasonable
doubt the absence of the heat of passion on sudden provocation when the issue is
properly presented in a homicide case.” Id. at 704.
Two years after issuing the decision in Mullaney, however, the
Supreme Court clarified that its holding should be narrowly construed.
In Patterson v. New York, 432 U.S. 197, 214, 97 S.Ct. 2319, 53 L.Ed.2d
281 (1977), the defendant argued that Mullaney prohibited a state from
permitting guilt or punishment “to depend on the presence or absence
of an identified fact without assuming the burden of proving the
presence or absence of that fact, as the case may be, beyond a
reasonable doubt.” The Court rejected that interpretation. Although
it acknowledged that Mullaney requires a state to prove “every
ingredient of an offense beyond a reasonable doubt” and prohibits a
state from “shift[ing] the burden of proof to the defendant by presuming
that ingredient upon proof of the other elements of the offense,” the

29

Resp. App. 80

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 30 of 66

Court declared it “unnecessary” to have gone further in Mullaney. Id.
at 215, 97 S.Ct. 2319. Patterson thereby limited Mullaney to situations
where a fact is presumed or implied against a defendant. See id. at 216,
97 S.Ct. 2319; United States v. Molina-Uribe, 853 F.2d 1193, 1203-04
(5th Cir. 1988), overruled in part on other grounds by United States v.
Bachynsky, 934 F.2d 1349 (5th Cir. 1991) (en banc). Because the
written instructions did not permit the jury to presume malice
aforethought, required the State to prove malice aforethought beyond a
reasonable doubt, and defined malice and heat of passion as mutually
exclusive, the instructions provided to the jury in Mr. Bland’s case did
not violate Patterson. See Davis v. Maynard, 869 F.2d 1401, 1406-07
(10th Cir. 1989) (rejecting a Mullaney challenge to substantially similar
jury instructions), vacated sub nom., Saffle v. Parks, 494 U.S. 484, 110
S.Ct. 1257, 108 L.Ed.2d 415 (1990), opinion reinstated in part, 911 F.2d
415 (10th Cir. 1990) (per curiam).
Bland v. Sirmons, 459 F.3d 999, 1013 (10th Cir. 2006).
Petitioner relies on U.S. v. Lofton, 776 F.2d 918 (10th Cir. 1985), to support
his claim that in state court, as in federal criminal trials, a defendant is entitled to an
instruction on heat of passion as a defense. This claim was also raised in Bland,
supra, and rejected by the Tenth Circuit, stating:
If this Court’s decision in Lofton were controlling, Mr. Bland might
well be entitled to relief. Under the AEDPA standard of review,
however, a habeas petition shall not be granted unless the state-court
decision “was contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme Court of
the United States.” 28 U.S.C. § 2254(d)(1) (emphasis added). The
decisions of lower federal courts applying Supreme Court precedent are
not determinative, see Williams, 529 U.S. at 406, 120 S.Ct. 1495, and
in this case the lower federal courts have in fact divided as to the proper
scope of Mullaney after Patterson. Compare Lofton, 776 F.2d at
920-21, with Molina-Uribe, 853 F.2d at 1203-04. Because the
OCCA’s decision reasonably applies the correct legal rule from
Mullaney, as the Supreme Court construed that rule in Patterson, the
OCCA decision is neither contrary to, nor an unreasonable application
of, clearly established Supreme Court precedent, notwithstanding the
interpretation of that rule in this Circuit.
30

Resp. App. 81

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 31 of 66

Bland, 459 F.3d at 1014.
Petitioner had failed to demonstrate the OCCA’s determination to be contrary
to, or an unreasonable application of, clearly established federal law as determined
by the Supreme Court. Petitioner’s fifth ground for relief is denied in its entirety.
Ground 6:

Cumulative Error.

Petitioner next claims that more than one constitutional error occurred in the
first stage of his trial and this Court should consider those errors cumulatively and
grant habeas relief.
It is true as a general principle of law that “[t]he cumulative effect of two or
more individually harmless errors has the potential to prejudice a defendant to the
same extent as a single reversible error.” United States v. Oberle, 136 F.3d 1414,
1423 (10th Cir. 1998)(quoting United States v. Rivera, 900 F.2d 1462, 1469 (10th
Cir. 1990)). However, “‘[a] cumulative-error analysis merely aggregates all the
errors that individually have been found to be harmless, and therefore not reversible,
and it analyzes whether their cumulative effect on the outcome of the trial is such
that collectively they can no longer be determined to be harmless.’ The analysis,
however, ‘should evaluate only the effect of matters determined to be error, not the
cumulative effect of non-errors.’” Id. (quoting Rivera, 900 F.2d at 1470-71). See
also Newsted v. Gibson, 158 F.3d 1085, 1097 (10th Cir. 1998); Castro v. Ward, 138
F.3d 810, 832-33 (10th Cir. 1998); United States v. Trujillo, 136 F.3d 1388, 1398
(10th Cir. 1998).
“In death penalty cases, we review whether the errors so infected the trial with
unfairness as to make the resulting conviction a denial of due process, or rendered
the sentencing fundamentally unfair in light of the heightened degree of reliability
demanded in a capital case.” Wilson v. Sirmons, 536 F.3d 1064, 1122 (10th Cir.
2008).
31

Resp. App. 82

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 32 of 66

Upon review of the entire trial transcript and the evidence and testimony
presented, the Court does not find the cumulation of those errors determined to be
harmless had a “substantial and injurious effect or influence in determining the jury’s
verdict.” Brecht v. Abrahamson, 507 U.S. 619, 637 (1993). Because this Court has
concluded that no error occurred during the first stage of trial, the only matters
considered here are the errors found by the OCCA. The error regarding the trial
court’s instruction on the defense of mental retardation found by the OCCA does not
constitute constitutional error, but rather an error of state law. Cumulative error
analysis applies only to constitutional errors. Young v. Sirmons, 551 F.3d 942, 972
(10th Cir. 2008). The other errors regarding comments made by the prosecutors
were of minor. See Alvarez v. Boyd, 225 F.3d 820, 825 (7th Cir. 2000)(“courts must
be careful not to magnify the significance of errors which had little importance”).
The errors were not so egregious or numerous as to prejudice Petitioner to the same
extent as a single reversible error. The cumulative effect of the errors, when
compared with the evidence and testimony presented at trial, did not significantly
strengthen the state’s case or diminish Petitioner’s case. No reasonable probability
exists that the jury would have acquitted Petitioner absent the errors. Accordingly,
Petitioner’s sixth ground for relief is denied.
Ground 7:

Ineffective Assistance of Trial and Appellate Counsel in 2005 Penalty
Re-Trial and First Direct Appeal.

Petitioner claims trial counsel was ineffective for failing to investigate and
then to seek a pre-trial determination that Petitioner was mentally retarded and thus
ineligible for the death penalty.7 As set forth in Ground 5, to prevail on a claim of
7

The Court acknowledges that “[i]n 2006, the American Association on Mental
Retardation [ ] changed its name to the American Association on Intellectual and Developmental
Disabilities [ ]. ‘Intellectual disability,’ rather than ‘mental retardation,’ is now the preferred
terminology. [Citation omitted.] Also, previously enacted federal legislation known as Rosa’s

32

Resp. App. 83

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 33 of 66

ineffective assistance of counsel, Petitioner must overcome the strong presumption
of reasonable professional assistance and demonstrate both deficient performance
and resulting prejudice viewed in light of prevailing professional norms.

See

Strickland, 466 U.S. at 689. In the instant case, Petitioner must also demonstrate
the determination of the OCCA to be contrary to, or an unreasonable application of,
clearly established federal law as determined by the Supreme Court. 28 U.S.C.
§ 2254(d).
Petitioner raised this issue on appeal from his resentencing trial. After setting
forth the requirements of Strickland and its progeny for evaluating an ineffectiveness
claim, the OCCA determined that no prejudice resulted from counsel’s failure to
request a pre-trial determination of mental retardation:
A capital defendant who wishes to claim mental retardation must
raise that claim with the trial court before the trial begins. A threshold
requirement for such a claim is one IQ test of 70 or below; such a test
will not itself guarantee a finding of mental retardation but may begin
the process by which the court determines whether a defendant is
mentally retarded. Harris had two IQ test scores, obtained during the
pretrial process, of 66 and 68. He complains that counsel did not use
these scores to initiate this process and attempt to determine whether he
was mentally retarded before trial began. Harris argues that, given his
test scores, if counsel had asked for a hearing to determine mental
retardation the trial court would have been required to hold that hearing.
At that hearing Harris might or might not have been found mentally
retarded, but if he were found to be retarded, he would avoid the death
penalty. Thus, Harris claims, he had nothing to lose and everything to
gain by raising the issue, and counsel was ineffective for failing to do
so.
Law, Pub.L. No. 111–256, 124 Stat. 2643 (2010), mandates the use of the term ‘intellectual
disability’ in place of ‘mental retardation’ in all federal enactments and regulations. Nonetheless,
throughout this opinion, the Court will use the old terminology because the legal sources relevant
to its analysis, including Oklahoma law, prior opinions, and the opinions of the Supreme Court,
use the terms ‘mental retardation’ and ‘mentally retarded.’ ” Howell v. Trammell, 728 F.3d 1202,
1206 n.1 (10th Cir. 2013), quoting Hooks v. Workman, 689 F.3d 1148, 1159 n. 1 (10th Cir. 2012).

33

Resp. App. 84

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 34 of 66

Harris cannot show he was prejudiced by counsel’s failure. To
prevail on a pretrial claim of mental retardation, Harris would have to
show (1) significantly subaverage intellectual functioning; (2)
manifested before the age of 18; (3) accompanied by significant
limitations in adaptive functioning in at least two of nine enumerated
skill areas. All the evidence in the record, including the evidence from
the first trial and competency hearing, indicates that Harris could not
meet this test. Despite these two IQ scores, all Harris’s other IQ scores
were over 70. All Harris’s experts, including the ones who testified at
his first trial and competency hearing, considered these scores along
with Harris’s other characteristics and concluded he was not mentally
retarded.8 Harris’s expert, Dr. Draper, testified at his trial that he was
not mentally retarded. She and other experts stated in this and other
proceedings that Harris was “slow” or of low intelligence, but all agreed
that his employment history, aptitude as a transmission mechanic, and
other characteristics were not those of a mentally retarded person.
Harris argues that this Court cannot dispose of this claim using
the prejudice analysis above. He admits the test for ineffective
assistance of counsel is whether there is a reasonable probability that,
but for counsel’s unprofessional errors, the results of the trial would
have been different. Regarding this claim, the different result would
have been a finding of mental retardation and ineligibility for the death
penalty. Thus, the Court is required to review the record to see
whether, had counsel requested a hearing, Harris would have prevailed
on his claim of mental retardation. There is no support in the record
for such a conclusion. However, Harris argues that only a jury, not
this Court, may make a determination of a defendant’s possible
mentally retarded status under any circumstances. Harris has
misunderstood this Court’s jurisprudence on this issue. In a series of
cases involving retroactive capital post-conviction procedures, this
Court has declined to make an initial finding of fact regarding mental
retardation, remanding for jury determination the question of whether
a capital defendant, convicted and currently on Death Row, is mentally
8

“One expert did testify at the competency hearing that, based on the two low scores, he
believed he had to say Harris was mildly mentally retarded, but that was not his conclusion after
examining Harris and he found the scores surprising.” (n. 55 in original).

34

Resp. App. 85

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 35 of 66

retarded. That is not the issue here. The issue is whether, on this
record, Harris’s counsel was ineffective for failing to ask for a pretrial
determination of mental retardation. Nothing in this record shows
that, had counsel made that request, evidence would have shown by a
preponderance of the evidence that Harris was mentally retarded.
There is a great deal of evidence in the record to show otherwise,
including the opinion of several experts who testified that Harris was
not mentally retarded. We cannot conclude there was a reasonable
probability that, but for counsel’s omission, the results of this
resentencing proceeding would have been different.
Harris, 164 P.3d at 1115-16 (footnotes omitted - except n. 55 in original).9
This Court’s review is not to determine whether the OCCA’s determination
was incorrect or wrong. Rather, it is to determine if it was unreasonable to find trial
counsel was not ineffective. Petitioner argues trial counsel failed to conduct a
reasonable investigation and failed to request a trial to present evidence establishing
mental retardation. He claims trial counsel should have retained a psychologist to
test and assess retardation, that the psychologist would have provided an intelligence
quotient (IQ) test result similar to the one submitted on direct appeal – an IQ of 6775 – and would have also explained standard errors of measurement and the “Flynn
Effect” and their impact on IQ scores. He further argues that the second and third
prong of the standard for determination of mental retardation, manifestation before
the age of 18 and significant limitations in adaptive functioning, have been met
through expert testimony presented in his 2001 trial.10
9

“We found in Propositions I and II that counsel was not ineffective for failing to claim
Harris was mentally retarded, or for failing to present the evidence of mental status and mental
illness raised in his first trial and competency proceedings. Relying on the issues raised in
Propositions I and II, Harris claims that counsel failed to independently investigate the case as
previously developed in order to satisfactorily conclude that the extant evidence was viable and
reliable. This appears to be speculation, as the record does not support this allegation.” Id. at
1118.
10

In Atkins v. Virginia, 536 U.S. 304 (2002), the Supreme Court declared the execution
of mentally retarded individuals unconstitutional. Although the Court set out some guidelines for

35

Resp. App. 86

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 36 of 66

The issue, however, is whether the OCCA was unreasonable in concluding
counsel’s performance did not result in prejudice. Review of the record shows
Petitioner’s first IQ test at age seven resulted in a score of 87. Although he
subsequently was retested in 2000 and 2001 with scores below 70, testimony was
presented questioning those test results as having been influenced by decades of drug
and alcohol abuse along with the stress of incarceration and mental illness with
accompanying hallucinations and delusions. One additional test administered at
Eastern State Hospital in 2001 resulted in a test score of 75.

This test was

administered in a more therapeutic environment and at a time when Petitioner was
not abusing alcohol and his psychoses were controlled.
Petitioner testified at his first trial. The record reflects that he was coherent,
responsive, and demonstrated a strong vocabulary with a good memory for details.
The OCCA found Petitioner’s testimony showed his ability to process and
understand information, communicate well, and to engage in logical reasoning.
Howell v. State, 138 P.3d 549, 564 (Okla. Crim. App. 2006).

Considerable

evidence was also presented at his first trial contrary to allegations of significant
limitations in adaptive functioning. Testimony from both lay and expert witness
was presented regarding Petitioner’s ability to be self-directed, of his ability to
diagnose and re-build transmissions, his lengthy work history, and his ability to care
for himself and for others.
such determination, it left to the states to decide what criteria to use to determine who is mentally
retarded. In Murphy v. State, 54 P.3d 556 (Okla. Crim. App. 2002), the OCCA followed the
Atkins’ guidelines and held that person is mentally retarded if (1) he or she functions at a
significantly sub-average intellectual level, (2) that such mental retardation manifested itself
before the age of eighteen, and (3) the mental retardation is accompanied by significant limitations
in adaptive functioning in at least two of nine enumerated skill areas. The OCCA further held
that no person shall be eligible to be considered mentally retarded unless he or she has an IQ of
seventy or below as reflected by at least one scientifically recognized and approved contemporary
intelligent quotient test. Id. at 567-68.

36

Resp. App. 87

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 37 of 66

Based on the record available to the state court, the OCCA’s determination
that Petitioner was not prejudiced – and thus counsel was not ineffective – by trial
counsel’s failure to request a pre-trial determination of mental retardation was
neither contrary to or an unreasonable application of clearly established federal law,
nor an unreasonable determination of facts in light of the evidence presented.
Accordingly, Petitioner’s seventh claim for relief is denied.
Ground 8:

Ineffective Assistance of Trial Counsel Regarding Mental Illness and
Impairment Evidence in 2005 Penalty Retrial.

Petitioner next claims trial counsel was ineffective for failing to present
mitigating evidence that he suffers from mental illness and for failing to present
expert testimony to rebut the continuing threat aggravating circumstance.

On

appeal from Petitioner’s re-sentencing trial, the OCCA held:
In Proposition II Harris claims that trial counsel was ineffective
for failing to present evidence of diminished mental capacity and
probable mental illness. This evidence was available to counsel or
easily discoverable, and much of it was presented at Harris’s first trial.
Trial counsel has a duty to investigate and present relevant mitigating
evidence. However, where counsel makes an informed decision to
pursue a particular strategy to the exclusion of other strategies, this
informed strategic choice is “virtually unchallengeable”. We have
noted that among counsel’s basic duties is “to make informed choices
among an array of alternatives, in order to achieve the best possible
outcome for the client.” The United States Supreme Court has found
counsel ineffective where the failure to thoroughly investigate and
present mitigating evidence “resulted from inattention, not reasoned
strategic judgment.”
At Harris’s resentencing trial, defense counsel presented
mitigating evidence through Harris’s sister, brother, former co-worker
and employer, son-in-law, and two daughters. His most extensive
mitigating evidence was presented through Dr. Draper, an expert
witness in developmental analysis. Dr. Draper testified extensively
regarding the developmental processes that led Harris to commit these
37

Resp. App. 88

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 38 of 66

crimes. She began by discussing his tumultuous and abusive
childhood. She described his medical problems throughout childhood
as well as his learning disabilities, low intelligence, and academic and
social problems in school, including schoolyard fights. Dr. Draper
described how, during Harris’s teenage years, his father taught him to
be a transmission mechanic but also taught him to use drugs and alcohol
regularly. Dr. Draper discussed the very negative effect on Harris of
his mother’s lingering death from cancer, the death of his grandparents,
and the family’s separation. She testified regarding Harris’s brief first
marriage. Dr. Draper noted that Harris’s first wife had alleged he was
abusive and filed for a victim’s protective order and divorce, but said
Harris’s first wife told her that Harris did not abuse her and she had said
otherwise because she wanted to leave him. Dr. Draper told jurors of
Harris’s attempt at suicide when his first wife left him. She explained
that for several years Harris and Pam had custody of his daughters, and
described his love for his daughters as well as his inability to engage
emotionally as a parent. She described his relationship with Pam,
including a mutual pattern of verbal and emotional abuse. Dr. Draper
showed jurors how Harris depended on Pam emotionally and
professionally.
Throughout her testimony Dr. Draper emphasized that Harris’s
chaotic and troubled background resulted in extreme emotional
instability. She discussed how his low intelligence and chronic
substance abuse contributed to his inability to handle stress or resolve
problems. She described Harris’s reliance on Pam, and his feelings of
despair and devastation when Pam left him. Dr. Draper also
emphasized Harris’s anger at his situation, and at the loss of his tools,
and his inability to control or appropriately express his anger. She
testified that this inability was caused by Harris’s immaturity,
emotional instability, poor judgment, and confusion. She noted his
expressions of remorse for Merle Taylor’s death, while agreeing that
Harris still blamed Pam for leaving him and causing him to commit the
crimes. She discussed psychological methods of predicting future
violence, and testified that in a controlled environment, medicated,
without access to controlled substances and without a romantic partner,
she did not believe Harris would be dangerous. Dr. Draper testified
that Harris had been diagnosed as mentally ill and was on psychotropic
medications in jail. She stated that she did not further explore the area

38

Resp. App. 89

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 39 of 66

of mental illness because those diagnoses had been made after the
crimes occurred, and her focus was on explaining Harris’s actions and
symptoms of underlying difficulties which led to the crimes.
However, her observations of Harris’s behavior were consistent with
the diagnoses.
After Dr. Draper testified, counsel attempted to have a
representative from the jail testify regarding the medications Harris
took for his mental conditions. Counsel failed to give notice of this
testimony to the State. The trial court noted that mere evidence Harris
was on medication would encourage jury speculation regarding
Harris’s mental condition. Harris argues that this attempt shows
counsel realized he had erred in failing to present evidence of mental
illness.
Harris complains that counsel failed to present extensive
evidence regarding his mental state and diagnoses of mental illness.
Most of this evidence was presented at Harris’s first trial or his
competency proceedings, and was readily available to counsel. A
significant portion of this evidence was presented at the first stage of
Harris’s original trial, to argue his mental state could not support a
finding of malice, rather than as evidence in mitigation. After the
crimes, questions were raised regarding Harris’s competency. At one
point he was sent to Eastern State Hospital, received treatment and
medication, and was declared competent. Doctors representing the
court, the State, and the defense examined Harris throughout the pretrial
proceedings. He received several diagnoses of mental illness: bipolar
disorder with psychotic features, schizo-affective disorder, depressive
with psychotic features. Experts agreed at the very least Harris was
clinically depressed. They all also noted his low intelligence. One
expert for the State, and the doctors at Eastern State Hospital, suspected
Harris was either malingering or exaggerating his mental condition.
One defense expert testified that, based on his contact with Harris
shortly after the crimes, Harris was probably suffering from mental
illness at the time of the crimes. Nobody believed that Harris’s mental
illness, even if present when the crimes were committed, rendered him
legally insane; the experts agreed that Harris knew right from wrong
and understood the consequences of his actions. Harris’s experts
described the connection his mental illness and chronic substance abuse

39

Resp. App. 90

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 40 of 66

may have had with the crimes. They testified that as a consequence of
his mental state, Harris was low functioning and emotionally unstable,
unable to solve problems or take action towards goals, highly agitated
and angry. At the first trial, Harris’s expert on future dangerousness
testified that he could not say Harris would not be a danger to society;
he did say that, in a controlled environment and with medication, Harris
would present less danger than otherwise.
After thoroughly considering the evidence which was presented
at Harris’s resentencing trial, and the evidence which was presented
earlier and could have been presented, this Court concludes that counsel
was not ineffective. Counsel was aware of the evidence of mental
condition and status. Rather than rely on it to persuade jurors that
Harris’s mental state and after-diagnosed mental condition were
mitigating circumstances, counsel chose a different path. He called
Dr. Draper to testify regarding Harris’s development over his life.
This evidence was comprehensive. It included Harris’s troubled and
abusive childhood, his low IQ and trouble in school, his difficulty with
marital relationships, his relationships with his family and daughters,
his dependency on Pam, the mutually abusive nature of that
relationship. Dr. Draper also discussed Harris’s chronic substance
abuse which began when he was a teenager with his father, his poor
judgment, anger and inability to solve problems, and his extreme
emotional instability. She also discussed the likelihood that, based on
his past behavior and mental state, Harris would be a danger in the
future. While Harris’s specific diagnoses of mental illness were not
presented to the jury, jurors were told he had been diagnosed as
mentally ill. Those diagnoses were made after the crimes, and Dr.
Draper did describe the highly emotional mental state Harris was in at
the time of the crimes. Dr. Draper used all this evidence to explain
why Harris could not accept his circumstances and resorted to murder.
Harris claims that the prejudice from this decision is evident. At
the first trial, jurors heard much of this evidence.
During
deliberations, they asked a question about the type of prison in which
Harris might serve a sentence of imprisonment. The trial court’s
answer to this question, which was inaccurate as a matter of law,
resulted in the case’s reversal and this resentencing trial. Harris
contends this indicates that his first jury seriously considered imposing

40

Resp. App. 91

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 41 of 66

a sentence of less than death, and claims that, had the evidence been
presented again, his resentencing jury would have done the same. This
Court cannot speculate as to why Harris’s first jury asked their question,
or what its sentencing intent might have been. Counsel chose to
provide Harris’s resentencing jury with a thorough picture of his life,
intelligence, and emotional state, including his anger, grief and despair
immediately preceding the crimes. Through Dr. Draper, jurors heard
evidence which encompassed or incorporated some of the evidence
presented at the first trial. We will not second-guess counsel’s
reasoned strategic judgment. Counsel’s choice of mitigating evidence
did not amount to ineffective assistance.
Harris, 164 P.3d at 1116-18 (footnotes omitted).
As set forth previously, Petitioner must demonstrate deficient performance
and resulting prejudice to prevail on a claim of ineffective assistance of counsel, and
demonstrate the determination of the state court was contrary to, or an unreasonable
application of, clearly established federal law as determined by the Supreme Court.
Petitioner claims that evidence of his mental deficiencies presented in his 2001 trial
and his competency trial, along with evidence of his mental retardation, should have
been presented to his re-sentencing jury as mitigating evidence to explain his violent
behavior the day of the murder. Petitioner admits trial counsel’s use of Dr. Draper
to introduce evidence of his developmental and life paths was a sound strategic
decision. He claims, however, that trial counsel recognized that mental illness was
a valuable mitigating tool but his plan to use Dr. Draper to the exclusion of other
mental health experts was unreasonable.
Petitioner’s claim is myopic and ignores the totality of the evidence and
testimony presented in his first trial. Expert testimony was presented that none of
the possible mental health issues developed until after the crimes. The evidence
presented was conflicting and did not with any certainty provide a reason for any

41

Resp. App. 92

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 42 of 66

possible mental illness to be a contributor to the crimes.11 As the OCCA identified,
counsel presented mitigating evidence through Petitioner’s sister, brother, former
co-worker and employer, son-in-law, and two daughters. Most extensively, he
presented testimony and evidence through Dr. Draper – an expert in developmental
analysis – that not only described and explained Petitioner’s development process
but also incorporated opinions of other experts that had previously testified in other
proceedings. By avoiding the conflicting diagnoses offered in his first trial of
possible mental illness – discovered after the crimes – and preventing the
introduction of Petitioner’s violent tendencies, trial counsel’s presentation of a more
sympathetic explanation of his life history was reasonable, as was the OCCA’s
conclusion on this point.
As set forth previously regarding claims of ineffective assistance of counsel,
counsel’s performance must be not merely wrong, but constitutionally unreasonable.
“The question is whether there is any reasonable argument that counsel satisfied
Strickland’s deferential standard.” Harrington v. Richter, 562 U.S 86, 105 (2011).
Here, Petitioner has failed to meet his burden of demonstrating the requirements of
Strickland, and failed to demonstrate the determination of the OCCA was contrary
to, or an unreasonable application of, clearly established Supreme Court law.
Review of the underlying issue of the performance of trial counsel demonstrates a
lack of merit in Petitioner’s claim. As such, appellate counsel’s decision to not
include the claim in the appeal, given the necessary deferential consideration, does
not constitute deficient performance.
As to his claim of ineffective assistance of counsel for failure to present expert
testimony to rebut the continuing threat aggravating circumstance, the OCCA held:
11

Additionally, by not claiming mental illness as a mitigating factor, the jury was not
informed that two experts had previously considered Petitioner to be a psycopath.

42

Resp. App. 93

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 43 of 66

Harris also claims that counsel failed to present evidence directly
bearing on the continuing threat aggravating circumstance. In fact, Dr.
Draper did discuss methods for predicting future dangerousness, and
gave her opinion that Harris would not be a future danger to society.
Harris argues that counsel should have presented an expert on risk
assessment, who could have provided an accurate and scientifically
sound analysis of the exact likelihood that Harris would be a future
danger. The experts who testified at Harris’s first trial, and Dr. Draper,
all testified that he was in fact likely to pose a risk of future danger.
Harris’s experts testified that, under particular circumstances likely to
be found in prison, that risk was significantly lessened, but they all
agreed that Harris posed more risk to the general population than the
average person. Given this evidence, we will not say counsel was
unreasonable for choosing not to stress the issue of Harris’s potential
for danger to society by using risk assessment evidence.
This proposition is accompanied by an Application for
Evidentiary Hearing. To support his claim that counsel did not
conduct a thorough independent investigation, Harris provides an
affidavit with a psychological evaluation conducted after the trial
ended. As he notes in his brief, this evaluation is consistent with other
psychological evaluations which were available to counsel. To
support his claim that counsel failed to present evidence bearing on the
continuing threat aggravating circumstance, Harris offers an affidavit
containing a risk assessment profile. This profile reaches a similar
conclusion to that of Dr. Draper and other experts-in a controlled,
structured environment, medicated, without access to controlled
substances, and without a romantic relationship such as that with Pam,
Harris poses little threat to society. The application for evidentiary
hearing and supplemental materials do not contain sufficient
information to show this Court by clear and convincing evidence there
is a strong possibility trial counsel was ineffective for failing to use or
identify the evidence. Harris’s Application for Evidentiary Hearing is
denied.
Id. at 1118-19 (footnotes omitted).
As identified by the OCCA, the risk assessment provided by Petitioner in
support of his Application for Evidentiary Hearing in state court contains an opinion

43

Resp. App. 94

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 44 of 66

regarding future dangerousness consistent with evidence and expert opinion
presented at trial. The consensus opinion was that although Petitioner did present
a risk of future dangerousness, the threat is lessened in a controlled and structured
environment, free from the influences of a relationship like that with his ex-wife and
free of controlled substances and alcohol. Considering the strength of the State’s
case and the overwhelming evidence supporting the continuing threat aggravating
circumstance – evidence of a history of fighting, destruction of family member’s
property, physical and mental abuse of his spouse, threats against other individuals,
resisting arrest, and an altercation with detention officer while in jail – the OCCA’s
determination was not unreasonable. Petitioner has failed to demonstrate counsel
was ineffective and failed to demonstrate the determination of his claims by the
OCCA was contrary to, or an unreasonable application of, clearly established
Supreme Court law. Accordingly, this claim and Petitioner’s entire ground for
relief is denied.
Ground 9:

Oklahoma’s Uniform Jury Instruction on Mitigating Circumstances.

In his ninth ground for relief, Petitioner claims the definition of mitigating
circumstances contained in the Oklahoma Uniform Jury Instructions (OUJI)
impermissibly limits consideration of mitigating evidence and fails to make
consideration of mitigating evidence mandatory in violation of the Eighth and
Fourteenth Amendments. He argues that the first sentence of the instruction on
mitigating circumstances – “Mitigating circumstances are those which, in fairness,
sympathy, and mercy, may extenuate or reduce the degree of moral culpability or
blame” – is grammatically flawed in that it only applies to the extent the mitigating
circumstances extenuate or reduce the defendant’s moral culpability.
The OCCA determined the instruction did not unconstitutionally limit the
jury’s ability to consider mitigating evidence:

44

Resp. App. 95

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 45 of 66

Harris argues that the plain language of the uniform instruction’s first
sentence itself limits the jury’s consideration of mitigating evidence.
That sentence reads: “Mitigating circumstances are those which, in
fairness, sympathy, and mercy, may extenuate or reduce the degree of
moral culpability or blame.” Harris admits this Court has rejected this
line of argument. However, he suggests that the language is
ambiguous at best, and, combined with prosecutorial argument,
foreclosed the jury’s consideration of mitigating evidence. He failed
to object to either the instruction or argument at trial. Reviewing for
plain error, we find none. We do not find that the current uniform jury
instruction prohibits jurors from considering mitigating evidence. One
prosecutor did consistently argue in closing that jurors should not
consider Harris’s second stage evidence as mitigating, since it did not
extenuate or reduce his guilt or moral culpability. This argument
improperly told jurors not to consider Harris’s mitigating evidence.
However, in final closing a second prosecutor invited jurors to consider
all Harris’s mitigating evidence, weigh it against the aggravating
circumstances, and find that the death penalty was appropriate. The
jury was properly instructed on the definition of mitigating evidence,
the evidence Harris presented, and its duties. For that reason, the
initial prosecutorial argument was harmless.
This Court is troubled, however, by the consistent misuse of the
language in this instruction in the State’s closing arguments. This
Court noted in Frederick v. State that the prosecutor could argue
mitigating evidence did not reduce a defendant’s moral culpability or
blame. However, we did not intend to suggest that prosecutors could
further argue that evidence of a defendant’s history, characteristics or
propensities should not be considered as mitigating simply because it
does not go to his moral culpability or extenuate his guilt. This would
be an egregious misstatement of the law on mitigating evidence. After
careful consideration, this Court has determined that an amendment to
the language of the instruction will clarify this point, and discourage
improper argument. We emphasize that the language of the current
instruction itself is not legally inaccurate, inadequate, or
unconstitutional. Cases in which the current OUJI-CR (2d) 4-78 has
been used and applied are not subject to reversal on this basis.

45

Resp. App. 96

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 46 of 66

In conjunction with this case, the Court will refer this issue to the
Oklahoma Uniform Jury Instruction Committee (Criminal) for
promulgation of a modified jury instruction defining mitigating
circumstances in capital cases. To delineate the various purposes of
mitigating evidence, this Court suggests including both (a) that
mitigating circumstances may extenuate or reduce the degree of moral
conduct or blame, and separately, (b) that mitigating circumstances are
those which in fairness, sympathy or mercy would lead jurors
individually or collectively to decide against imposing the death
penalty.
The uniform jury instruction given in this case did not
unconstitutionally limit the jury’s ability to consider mitigating
evidence. The prosecutor’s improper argument on this issue was cured
by further argument and instruction. Harris’s claim for relief is denied.
However, this Court finds that the current uniform jury instruction
defining mitigating circumstances, OUJI-CR (2d) 4-78, should be
modified to clarify the constitutional scope of mitigating evidence and
discourage improper argument.
Harris, 164 P.3d at 1113-1114 (footnotes omitted).
The burden of demonstrating that an erroneous instruction was so
prejudicial that it will support a collateral attack on the constitutional
validity of a state court’s judgment is even greater than the showing
required to establish plain error on direct appeal. The question in such
a collateral proceeding is “whether the ailing instruction by itself so
infected the entire trial that the resulting conviction violates due
process”, Cupp v. Naughten, 414 U.S., at 147, 94 S.Ct., at 400, 38
L.Ed.2d 368, not merely whether “the instruction is undesirable,
erroneous, or even ‘universally condemned, . . . .’”
Henderson v. Kibbe, 431 U.S. 145, 154 (1977)(citations omitted); see also Cummins
v. Sirmons, 506 F3d 1211, 1240 (10th Cir. 2007).
In Boyde v. California, 494 U.S. 370 (1990), the Supreme Court considered a
claim that the wording of an instruction prevented the jury from considering the
evidence of the defendant’s character and background as such evidence did not

46

Resp. App. 97

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 47 of 66

extenuate the gravity of the crime. The Supreme Court reiterated that the jury must
be able to consider all relevant mitigating evidence. It held that the proper test is
“whether there is a reasonable likelihood that the jury has applied the challenged
instruction in a way that prevents the consideration of constitutionally relevant
evidence.” Id. at 380. The Court found it unlikely that the instruction prevented the
jury from considering the mitigating evidence:
All of the defense evidence presented at the penalty phase—four days
of testimony consuming over 400 pages of trial transcript—related to
petitioner’s background and character, and we think it unlikely that
reasonable jurors would believe the court’s instructions transformed all
of this “favorable testimony into a virtual charade.” California v.
Brown, 479 U.S., at 542, 107 S.Ct., at 840. The jury was instructed
that it “shall consider all of the evidence which has been received
during any part of the trial of this case,” App. 33 (emphasis added), and
in our view reasonable jurors surely would not have felt constrained by
the factor (k) instruction to ignore all of the evidence presented by
petitioner during the sentencing phase. Presentation of mitigating
evidence alone, of course, does not guarantee that a jury will feel
entitled to consider that evidence. But the introduction without
objection of volumes of mitigating evidence certainly is relevant to
deciding how a jury would understand an instruction which is at worst
ambiguous. This case is unlike those instances where we have found
broad descriptions of the evidence to be considered insufficient to cure
statutes or instructions which clearly directed the sentencer to disregard
evidence. See, e.g., Hitchcock v. Dugger, 481 U.S. 393, 398–399, 107
S.Ct. 1821, 1824–1825, 95 L.Ed.2d 347 (1987) (“[I]t could not be
clearer that the advisory jury was instructed not to consider, and the
sentencing judge refused to consider, evidence of nonstatutory
mitigating circumstances ...”).
Id. at 383-84.
As in Boyde, the instruction complained of by Petitioner did not limit the
jury’s consideration of the evidence presented in support of the mitigating
circumstances. The jurors were instructed they should consider any evidence they

47

Resp. App. 98

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 48 of 66

found mitigating and that they were not required to impose a sentence of death, even
if the aggravating circumstances outweighed the mitigating circumstances. In fact,
the jurors were instructed that they could not impose a sentence of death unless they
determined the aggravating circumstances outweighed the mitigating circumstances.
The jury was given an instruction listing thirteen mitigating circumstances. In
addition to trial counsel’s opening statements and closing argument, Petitioner
presented six witnesses in support of the mitigating circumstances. Petitioner has
not demonstrated the jury was prevented from considering his mitigating evidence
because of the instruction. Even if the instruction was improper, Petitioner has not
shown that the error so infected the entire sentencing trial that it violated due process.
Additionally, Petitioner has not demonstrated the OCCA’s determination to be
contrary to, or an unreasonable application of, clearly established Supreme Court
law. Accordingly, Petitioner’s ground for relief is denied.
Ground 10: Prosecutor’s Closing Argument Regarding Mitigating Evidence.
Petitioner next claims that prosecutorial misconduct during closing argument
prevented the jury from considering mitigation evidence when one of the prosecutors
argued that the jury should not consider mitigating evidence because it didn’t reduce
Petitioner’s culpability or responsibility.12 During initial closing, the prosecutor
argued several times that the mitigating circumstances listed by the Petitioner did
not reduce his culpability or responsibility for the crimes. The OCCA determined
the prosecutor’s comments were improper, but that the comments were harmless in
light of later comments made in final closing arguments inviting the jury to consider

12

This claim is closely related to Petitioner’s claim raised in Ground 9 regarding the
language of the jury instruction regarding mitigating circumstances.

48

Resp. App. 99

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 49 of 66

all the evidence and in light of the proper instructions submitted to the jury. Harris,
164 P.3d at 1113.13
The deferential standard of review under 28 U.S.C. § 2254(d) is required since
the OCCA adjudicated Petitioner’s prosecutorial misconduct claim on the merits.
See Walker v. Gibson, 228 F.3d 1217, 1241 (10th Cir. 2000), abrogated on other
grounds by Neill v. Gibson, 278 F.3d 1044, 1057 (10th Cir. 2001). Petitioner does
not demonstrate that the prosecutor’s misconduct denied him a specific
constitutional right.

The appropriate standard for a prosecutorial misconduct

habeas claim, therefore, is “‘the narrow one of due process, and not the broad
exercise of supervisory power.’” Darden v. Wainwright, 477 U.S. 168, 181
(1986)(quoting Donnelly v. DeChristoforo, 416 U.S. 637, 642 (1974)).
Accordingly, “it is not enough that the prosecutor’s remarks were undesirable or
even universally condemned.” Darden, 477 U.S. at 181 (citation omitted).

A

prosecutor’s improper remarks require reversal of a conviction or sentence only if
the remarks “so infected the trial with unfairness as to make the resulting conviction
a denial of due process.” Donnelly, 416 U.S. at 643, 645 (1974). The fundamental
fairness inquiry requires an examination of the entire proceedings and the strength
of the evidence against the petitioner, both as to the guilt stage and the sentencing
phase. Id. at 643. “Any cautionary steps – such as instructions to the jury – offered
by the court to counteract improper remarks may also be considered. Counsel’s
failure to object to the comments, while not dispositive, is also relevant to a
fundamental fairness assessment.” Le v. Mullin, 311 F.3d 1002, 1013 (10th Cir.
2002) (citations omitted).

13

The entire portion of the OCCA’s opinion addressing this issue is set forth in Ground

9, supra.

49

Resp. App. 100

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 50 of 66

Petitioner has not demonstrated that his due process rights were violated by
any or all of the prosecutor’s statements. See Thornburg v. Mullin, 422 F.3d 1113,
1124-25 (10th Cir. 2005) (holding that the OCCA had adjudicated the merits of a
due process claim because the OCCA’s analysis of plain error involved the same test
used to determine whether there was a denial of due process).
Unlike in Boyde the prosecutor here argued to jurors during his closing
that they should not consider Payton’s mitigation evidence, evidence
which concerned postcrime as opposed
to precrime conduct.
Because Boyde sets forth a general framework for determining whether
a challenged instruction precluded jurors from considering a
defendant’s mitigation evidence, however, the California Supreme
Court was correct to structure its own analysis on the premises that
controlled Boyde. The Boyde analysis applies here, and, even if it did
not dictate a particular outcome in Payton’s case, it refutes the
conclusion of the Court of Appeals that the California Supreme Court
was unreasonable.
***
Boyde, however, mandates that the whole context of the trial be
considered. And considering the whole context of the trial, it was not
unreasonable for the state court to have concluded that this line of
prosecutorial argument did not put Payton’s mitigating evidence
beyond the jury’s reach.
The prosecutor’s argument came after the defense presented eight
witnesses, spanning two days of testimony without a single objection
from the prosecution as to its relevance. As the California Supreme
Court recognized, like in Boyde, for the jury to have believed it could
not consider Payton’s mitigating evidence, it would have had to believe
that the penalty phase served virtually no purpose at all.
Brown v. Payton, 544 U.S. 133, 143-44 (2005).
Upon review of the entire proceedings, the Court determines that, considered
alone or together, the prosecutor’s remarks did not so infect the trial with unfairness
as to make the resulting conviction a denial of due process. For the reasons set forth
in the previous claim for relief, and for the rationale as articulated by the Supreme
50

Resp. App. 101

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 51 of 66

Court in Boyde and Payton, the jury was not prevented from considering the
evidence presented in support of Petitioner’s mitigating circumstances. Petitioner
has not demonstrated that the OCCA’s determination was contrary to, or an
unreasonable application of, clearly established federal law. Accordingly, this
claim is denied.
Ground 11: Victim Impact Witnesses.
Petitioner claims that the decedent’s son and wife both expressed their opinion
that death was the appropriate sentence in violation of his Due Process rights to a
fair and reliable re-sentencing trial and the clearly established Supreme Court
precedent of Booth v. Maryland, 482 U.S. 496 (1987) and Payne v. Tennessee, 501
U.S. 808 (1991).

Respondent responds recognizing previous court opinions

binding this court’s review, but asserts the recommendations of punishment were
harmless in light of the evidence presented.
In Petitioner’s resentencing trial, the decedent’s son, Toby Taylor, and the
decedent’s wife, Carolyn Taylor, both expressed their opinions that death was the
appropriate sentence. On appeal, the OCCA refused to reconsider its position that
witnesses giving a short, straight-forward recommendation for the imposition of the
death penalty was statutorily permitted.
Merle Taylor’s son and wife each gave victim impact evidence, and
asked jurors to impose the death penalty. Harris argues in Proposition
VII that this recommendation was unconstitutional and denied him his
right to a fair trial. Harris admits that this Court has held that family
members of the victim may recommend a sentence in a capital
sentencing trial, but urges us to reconsider. We decline this invitation.
Harris, 164 P.3d at 1110 (by footnote basing its determination on DeRosa v. State,
2004 OK CR 19, 89 P.3d 1124, 1151-52; Conover v. State, 1997 OK CR 6, 933 P.2d
904, 920; Ledbetter v. State, 1997 OK CR 5, 933 P.2d 880, 890-91, and stating

51

Resp. App. 102

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 52 of 66

“Harris does not claim that the victim impact evidence itself was improper, other
than the recommendation of punishment.”).
In Hooper v. Mullins, 314 F.3d 1162 (10th Cir. 2002), the Tenth Circuit
considered an identical claim where the trial court permitted three members of the
victim’s family to testify they believed the defendant deserved to die. The OCCA,
as it has here, concluded the trial court properly admitted the testimony. Despite
that determination, the Tenth Circuit agreed with the petitioner that the OCCA’s
determination was contrary to clearly established Supreme Court precedent:
The Supreme Court has held that “if the State chooses to permit
the admission of victim impact evidence and prosecutorial argument on
that subject, the Eighth Amendment erects no per se bar.” Payne v.
Tennessee, 501 U.S. 808, 827, 111 S.Ct. 2597, 115 L.Ed.2d 720 (1991).
In so holding, the Court overruled its earlier decisions in Booth v.
Maryland, 482 U.S. 496, 107 S.Ct. 2529, 96 L.Ed.2d 440 (1987), and
South Carolina v. Gathers, 490 U.S. 805, 109 S.Ct. 2207, 104 L.Ed.2d
876 (1989). See Payne, 501 U.S. at 811, 817, 830, 111 S.Ct. 2597.
Nonetheless, we have recognized that “ Payne left one significant
portion of Booth untouched. . . . [T]he portion of Booth prohibiting
family members of a victim from stating ‘characterizations and
opinions about the crime, the defendant, and the appropriate sentence’
during the penalty phase of a capital trial survived the holding in Payne
and remains valid.' ” Hain, 287 F.3d at 1238-39 (quoting Payne, 501
U.S. at 830 n. 2, 111 S.Ct. 2597). Therefore, the trial court erred by
admitting this victim-impact testimony during Petitioner’s capital
sentencing proceeding. See id. at 1239.
Nonetheless, this
constitutional error was harmless because it did not have a “substantial
and injurious effect or influence in determining the jury's verdict.”
Brecht, 507 U.S. at 637, 113 S.Ct. 1710 (further quotation omitted); see
also Willingham, 296 F.3d at 931 (applying Brecht's harmless-error
analysis to similar claim).
Payne also provides that victim-impact evidence that is “so
unduly prejudicial that it renders the trial fundamentally unfair”
deprives a capital defendant of due process. 501 U.S. at 825, 111 S.Ct.
2597. Because the victim-impact evidence did not have that effect

52

Resp. App. 103

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 53 of 66

here, however, the OCCA reasonably denied Petitioner relief on this
due-process claim. See Willingham, 296 F.3d at 931; United States v.
Chanthadara, 230 F.3d 1237, 1273-74 (10th Cir. 2000).
Hooper v. Mullins, 314 F.3d 1162, 1174 (10th Cir. 2002).
It was error, in respect to Booth and Payne, for the witnesses to give their
opinion of an appropriate sentence. This error alone will not provide a basis for
habeas relief unless it can be determined the error was not harmless. Before a
harmless error analysis can be undertaken, it must first be determined what type of
error occurred - “trial error” or “structural” error. Here, the error complained of by
Petitioner is “trial error” and a harmless error analysis is proper:
Trial error “occur[s] during the presentation of the case to the jury,” and
is amenable to harmless-error analysis because it “may . . . be
quantitatively assessed in the context of other evidence presented in
order to determine [the effect it had on the trial]”. . . . At the other end
of the spectrum of constitutional errors lie “structural defects in the
constitution of the trial mechanism, which defy analysis by ‘harmlesserror’ standards”. . . . The existence of such defects - - deprivation of
the right to counsel, for example - - requires automatic reversal of the
conviction because they infect the entire trial process.
Brecht v. Abrahamson, 507 U.S. 619, 629-30 (1993)(citations and footnote
omitted).14
Admission of the witnesses’ sentence recommendation of death was error and
this Court must, therefore, assess the prejudicial impact of the error under the

14

The Court’s decision that this error is “trial error,” not requiring automatic reversal, is
supported by the list of sixteen cases set forth as example by the Supreme Court in Arizona v.
Fulimante, 499 U.S. 279, 306-308 (1991)(Rehnquist, J.) detailing a wide range of errors to which
harmless error analysis has been applied. Cases in which constitutional rights were so basic as to
preclude harmless error include: Payne v. Arkansas, 356 U.S. 560 (1958)(coerced confession);
Gideon v. Wainwright, 372 U.S. 335 (1963)(right to counsel); and Tumey v. Ohio, 273 U.S. 510
(1927)(impartial judge).

53

Resp. App. 104

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 54 of 66

“substantial and injurious effect” standard set forth in Brecht. See Fry v. Pliler, 551
U.S. 112, 121-22 (2007).
In Brecht, the Supreme Court held that an error is harmless unless it “‘had
substantial and injurious effect or influence in determining the jury's verdict.’”
Brecht, 507 U.S. at 631(quoting Kotteakos v. United States, 328 U.S. 750, 776
(1946)). Although improper, it is doubtful the witnesses’ concisely stated opinions
had much inflammatory impact compared to the nature of the murder, the strength
of the state’s case, and the extensive evidence supporting the aggravating
circumstances. Petitioner shot and killed a man who had placed himself between
Petitioner and Ms. Harris and attempted to convince Petitioner he should not be at
the transmission shop. Petitioner also shot Ms. Harris and shot at an innocent
bystander. When he ran out of bullets and experienced difficulties reloading his
gun, Petitioner used the weapon to beat Ms. Harris. These facts, together with
evidence of Petitioner’s long history of violence, strongly support the jury’s finding
of the two aggravating circumstances.
Here, the witnesses’ opinions regarding sentencing did not have a substantial
and injurious effect on the jury’s determination to recommend death as the
appropriate sentence. Accordingly, Petitioner’s claim is denied.
Ground 12: Re-allegation of the Continuing Threat Aggravating Circumstance.
At his re-sentencing trial, the State re-alleged the continuing threat to society
aggravating circumstance.

The jury in Petitioner’s first trial did not choose

continuing threat as one of the aggravating circumstances. Petitioner claims this reallegation is a violation of his double jeopardy and due process rights.
In Proposition VIII Harris argues that the State improperly re-alleged
the continuing threat aggravating circumstance. In Harris’s original
trial and again at resentencing, the State alleged that Harris would
constitute a continuing threat to society. At Harris’s first trial, jurors
did not find this aggravating circumstance. Harris claims that this
54

Resp. App. 105

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 55 of 66

failure is equivalent to an acquittal, and that the State was barred from
re-alleging that he would be a continuing threat in the resentencing
proceedings. This Court recently considered and rejected this claim in
Hogan v. State [, 139 P.3d 907, 929-30 (Okla. Crim. App. 2006)]. We
will not reconsider it in this case.
Harris, 164 P.3d at 1110 (footnote omitted).
Petitioner first claims that the OCCA’s determination is based solely on state
law and its refusal to apply Supreme Court law is, therefore, contrary to clearly
established federal law as determined by the Supreme Court. Petitioner’s assertion
is mistaken for two reasons. First, the OCCA relied on its previous decision in
Hogan v. State, as case in which it did discuss and rely on federal law. Second, a
state court need not even be aware of Supreme Court precedent so long as neither
the reasoning nor the result contradicts it. Early v. Packer, 537 U.S. 3, 8 (2002).
Petitioner asserts that the first jury “acquitted” him of the great risk of death
aggravating circumstance by not checking that box on the form in his first trial, and
that when the state subsequently sought that aggravating circumstance in his resentencing trial it violated the Eighth Amendment Double Jeopardy clause and
Petitioner’s Due Process rights.
In Poland v. Arizona, 476 U.S. 147 (1986), the Supreme Court rejected a claim
identical to the one Petitioner presents here:
We reject the fundamental premise of petitioners’ argument, namely,
that a capital sentencer’s failure to find a particular aggravating
circumstance alleged by the prosecution always constitutes an
“acquittal” of that circumstance for double jeopardy purposes.
Bullington indicates that the proper inquiry is whether the sentencer or
reviewing court has “decided that the prosecution has not proved its
case” that the death penalty is appropriate. We are not prepared to
extend Bullington further and view the capital sentencing hearing as a
set of minitrials on the existence of each aggravating circumstance.
Such an approach would push the analogy on which Bullington is based
past the breaking point.
55

Resp. App. 106

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 56 of 66

Poland v. Arizona, 476 U.S. at 155-56 (footnote omitted)(emphasis in original).
Petitioner acknowledges Poland is contrary to his claim, but argues
nonetheless that the subsequent Supreme Court decisions in Ring v. Arizona, 536
U.S. 584 (2002), Apprendi v. New Jersey, 530 U.S. 466 (2000), and especially
Sattazahn v. Pennsylvania, 537 U.S. 101 (2003), entitle him to relief.15 Petitioner
relies on the following passage to argue that he was acquitted of “‘murder plus two
aggravating circumstances’ and convicted of the lesser offense of ‘murder plus one
aggravating circumstance’ because the jury found the state had not met their burden
of proof beyond the reasonable doubt and ‘double jeopardy protections attach to that
‘acquittal’ on the offense of murder plus [two] aggravating circumstance(s).’” (Pet.
at 189):
In the post-Ring world, the Double Jeopardy Clause can, and must,
apply to some capital-sentencing proceedings consistent with the text
of the Fifth Amendment. If a jury unanimously concludes that a State
has failed to meet its burden of proving the existence of one or more
aggravating circumstances, double-jeopardy protections attach to that
“acquittal” on the offense of “murder plus aggravating
circumstance(s).” Thus, Rumsey was correct to focus on whether a
factfinder had made findings that constituted an “acquittal” of the
aggravating circumstances; but the reason that issue was central is not
that a capital-sentencing proceeding is “comparable to a trial,” 467
U.S., at 209, 104 S.Ct. 2305 (citing Bullington, supra, at 438, 101 S.Ct.
1852), but rather that “murder plus one or more aggravating
circumstances” is a separate offense from “murder” simpliciter.
Sattazahn, 537 U.S. at 111-12. The Supreme Court continued, however, in the next
paragraph:
For purposes of the Double Jeopardy Clause, then, “first-degree
murder” under Pennsylvania law-the offense of which petitioner was
15

Petitioner recognizes, however, that the procedural facts in Sattazahn are different than
those involved here. (Pet. at 188)

56

Resp. App. 107

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 57 of 66

convicted during the guilt phase of his proceedings-is properly
understood to be a lesser included offense of “first-degree murder plus
aggravating circumstance(s).” See Ring, supra, at 609, 122 S.Ct. 2428.
Thus, if petitioner’s first sentencing jury had unanimously concluded
that Pennsylvania failed to prove any aggravating circumstances, that
conclusion would operate as an “acquittal” of the greater offense-which
would bar Pennsylvania from retrying petitioner on that greater offense
(and thus, from seeking the death penalty) on retrial. Cf. Rumsey, supra,
at 211, 104 S.Ct. 2305.
Id. (emphasis added).
Here, Petitioner was not acquitted of the death penalty.

The jury in

Petitioner’s first case found one aggravating circumstance and sentenced him to
death. Thus, the first jury found the prosecution had proven its case that the death
penalty was appropriate. Petitioner has failed to demonstrate that the determination
of the OCCA was contrary to, or an unreasonable application of, clearly established
Federal law as determined by the Supreme Court. This ground for relief is denied.
Ground 13: Ineffective Assistance of Counsel in the 2005 Resentencing Trial and
Appeal.
The authority for establishing and determining an ineffective assistance claim
is set forth in detail in Ground 5, supra, and need not be repeated here except to
reiterate that it is difficult to establish ineffective assistance of appellate counsel,
because counsel should not raise every non-frivolous claim, but select among them
to maximize the likelihood of success. Miller v. Mullin, 354 F.3d 1288, 1298 (10th
Cir. 2004); see also Smith v. Robbins, 528 U.S. 259, 288 (2000)(only when ignored
claims are clearly stronger than those raised will the presumption of effective
performance be overcome).

57

Resp. App. 108

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 58 of 66

1. Appellate counsel effectiveness regarding Atkins’ claim.
Petitioner claims appellate counsel was ineffective for failing to claim that
Petitioner’s Equal Protection and Due Process rights were violated when he was
“arbitrarily” denied a jury determination regarding his mental retardation.
Finally, Harris argues in Proposition I that resentencing appellate
counsel was ineffective for failing to claim that his denial of a jury
determination of mental retardation denied him equal protection and
due process. Harris’s appeal after resentencing contained a claim that
resentencing counsel was ineffective for failing to seek a determination
that he was mentally retarded. We found that this decision did not
support a finding of ineffective assistance because, as nothing in the
record suggested Harris is retarded and much suggests he is not, Harris
failed to show he was prejudiced by counsel’s omission. Harris argues
on post-conviction that resentencing appellate counsel should have
separately raised the constitutional claims. He argues that he is
similarly situated to other defendants who have been granted jury
determination of this issue. As in his direct resentencing appeal,
Harris again misunderstands the Court’s jurisprudence on this issue.
He cites cases in which post-conviction defendants already on Death
Row, with no other recourse, filed post-conviction claims of mental
retardation. These defendants had already been sentenced to death and
sought an after-the-fact determination that they were ineligible for that
sentence. As this Court does not engage in initial fact-finding, those
cases were remanded for jury determination. Harris, by contrast, had
not yet received the death penalty or any other sentence. He had the
opportunity to raise his claim of mental retardation in the trial court,
according to the procedures in effect at that time. Harris is not
similarly situated to the capital post-conviction defendants and was not
entitled to the procedures used in those cases. Neither his equal
protection nor due process rights were denied by the procedures
appropriate to his case. Harris was not prejudiced by resentencing
appellate counsel’s failure to raise this constitutional claim.
Harris, 167 P.3d at 444-45 (footnotes omitted).
There is debate between the parties regarding whether this claim has been
exhausted. This court need not make that determination as the claim can be denied

58

Resp. App. 109

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 59 of 66

on the merits. This claim is closely related to Petitioner’s claim in Ground 7.
Here, however, Petitioner claims that when the Supreme Court decided Atkins, it
created a “class” of people – criminal defendants charged with a capital crime who
are mentally retarded and may not be subject to execution. Petitioner makes this
claim based on Cleyburne v. Cleyburne Living Center, Inc., 473 U.S. 432 (1985),
where the Supreme Court determined that the Equal Protection Clause “is essentially
a direction that all persons similarly situated should be treated alike.” Id. at 439.
The OCCA’s determination that Petitioner was not similarly situated to other
inmates allowed to return to state court to raise their Atkins’ claims is not
unreasonable. As the OCCA identified, those inmates had already been sentenced
to death and sought an “after-the -fact” determination they were ineligible to receive
a sentence of death because of their mental retardation. Petitioner’s resentencing
occurred after the Supreme Court’s decision in Atkins, providing him the
opportunity to raise his claim that the other death row inmates did not have.
Petitioner also was not denied due process as he had the opportunity to present his
claim in the trial court. The fact it was not presented is discussed in the disposition
of Petitioner’s Ground 7.
For the reasons set forth above, and those in Ground 7, supra, Petitioner has
failed to demonstrate either deficient performance or prejudice by appellate counsel.
Additionally, he has failed to demonstrate the decision of the OCCA was contrary
to, or an unreasonable application of, clearly established Supreme Court law.
2. Failure to present additional mitigation evidence.
Petitioner claims that appellate counsel was ineffective for failing to raise on
direct appeal that trial counsel was ineffective for failing to present mitigating
evidence from Petitioner’s daughters that would have humanized him and shown
that his life was worth saving. Although his daughters did testify at the resentencing

59

Resp. App. 110

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 60 of 66

trial, Petitioner complains that the testimony was presented in a leading fashion and
without the substance and specifics with which his daughters testified in his first
trial.
Harris suggests resentencing trial counsel failed to conduct reasonable
investigation when he did not allow Harris's daughters to testify as fully
as they had in the first trial. This claim is contradictory on its face;
resentencing trial counsel was familiar with the record of the first trial,
and made a strategic choice not to use all the testimony used in
mitigation the first time. This is not a failure to investigate.
Harris, 167 P.3d at 443, n. 19.
The OCCA’s determination is not unreasonable.

Petitioner’s daughters

testified at the resentencing trial that they loved their father, were never abused by
him, that he was a good father to them and provided for them, that they would visit
him in prison and stay in touch with him, and that they had provided information to
Dr. Draper who correctly described their home life with their father. They also
asked the jury to spare his life. Trial counsel presented the jury with a humanizing
description of Petitioner’s life and of his relationship with his daughters. Petitioner
has not demonstrated that trial counsel was either deficient or that his performance
was prejudicial.16 As such, appellate counsel was not ineffective for failing to raise
this issue.
3. Failure to raise additional instances of prosecutorial misconduct.
Petitioner next claims appellate counsel was ineffective for failing to raise
additional claims – other than that raised on direct appeal – of prosecutorial
misconduct. Petitioner claims the prosecutor made several statements in closing

16

It is noteworthy that including the extra testimony of Petitioner’s daughters in the first
trial still resulted in the jury sentencing Petitioner to death.

60

Resp. App. 111

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 61 of 66

argument improperly raising societal alarm, stated facts not in evidence, and
improperly argued victim impact testimony.
Harris also claims that resentencing appellate counsel failed to raise the
issue of prosecutorial misconduct. Harris’s resentencing appellate
brief has no separate proposition claiming prosecutorial misconduct,
but misconduct issues are raised in Propositions VI. Harris offers other
examples of misconduct which he claims resentencing appellate
counsel should have raised, emphasizing the prosecutor’s use of the
victim impact statements in argument. Harris has not claimed in this
Application or on appeal that the victim impact evidence itself was
improper, and the record does not suggest otherwise. He has failed to
show with this example or other references that prosecutorial argument
deprived him of a fair trial with reliable results, or that an objection to
the argument would have resulted in a different outcome.
Harris, 167 P.3d at 443-44.
As set forth in Petitioner’s tenth ground for relief, supra, a prosecutor’s
improper remarks require reversal of a conviction or sentence only if the remarks
“so infected the trial with unfairness as to make the resulting conviction a denial of
due process.” Donnelly, 416 U.S. at 643, 645 (1974).
Petitioner first claims the prosecutor incited societal alarm and argued facts
not in evidence when in his first closing argument he argued the similarities between
Petitioner’s actions and a terrorist, and stated it was fortunate Petitioner didn’t have
an automatic weapon. Petitioner does not identify any facts improperly argued
other than that there was no evidence presented that he was a terrorist or that he had
or wanted an automatic rifle. He only describes the prosecutor’s closing argument
at satirical and causing societal alarm. The prosecutor’s argument was in response
to defense counsel’s question to the jury in his closing asking if they saw differences
between Petitioner and a terrorist. See Thornburg v Mullin, 422 F.3d 1113,1131
(10th Cir. 2005)(argument invited or in response to defense counsel easily falls
within the wide latitude of argument allowed to prosecutors).
61

Evidence was
Resp. App. 112

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 62 of 66

presented that Petitioner emptied his pistol and then attempted to reload it. In
addition to shooting Mr. Taylor and Ms. Harris, he also shot at a third person that
happened to be in the building. When he couldn’t reload his pistol, he physically
beat Ms. Harris. The prosecutor argued when considering the events that it was
fortunate Petitioner didn’t have an automatic weapon. A prosecutor may comment
on and draw reasonable inferences from evidence presented at trial. Hooper v.
Mullin, 314 F.3d 1162, 1172 (10th Cir. 2002).
Regarding the victim impact testimony, Petitioner claims the prosecutor’s
reading almost verbatim the victim impact statements served to inflame the passions
of the jury and improperly invoke sympathy. Victim impact is evidence properly
admitted in the trial and the prosecutor is permitted to discuss the evidence during
closing argument.

Petitioner has not demonstrated, other than summarily

concluding that the comments were improper and inflamed the jury, the prosecutor’s
arguments so infected the trial with unfairness as to make the resulting conviction a
denial of due process.

He has also failed the demonstrate the OCCA’s

determination to be unreasonable.
4. Claim regarding handcuffs and restraints worn in courtroom.
Petitioner claims appellate counsel was ineffective for failing to interview
jurors from his resentencing trial and failing to present a claim that he was observed
wearing handcuffs and restraints in the presence of jurors in violation of his due
process rights.
Harris argues that resentencing appellate counsel should have raised the
issue that resentencing jurors saw him in handcuffs as he was escorted
into the courtroom before trial. He fails to demonstrate any prejudice,
and this will not support a claim of ineffective assistance of
resentencing appellate counsel.
Harris, 167 P.3d at 444 (footnote omitted).

62

Resp. App. 113

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 63 of 66

This claim is virtually identical to Petitioner’s previous claim raised in subpart three of his fifth ground for relief.17 The differences are minor. This claim
involves his resentencing jury and his argument involves juror statements claiming
they would arrive early to court and would see the deputy escorting Petitioner into
the courtroom with handcuffs or restraints.

This issue has been addressed in

Petitioner’s fifth ground for relief and will not be repeated here. The argument and
authority set out previously is incorporated here. Petitioner has not demonstrated
that appellate counsel was ineffective.
5. Claim regarding continuing threat aggravating circumstance.
Finally, Petitioner claims appellate counsel was ineffective for failing to raise
the issue that the jury’s finding of the continuing threat aggravating circumstance
was not unanimous as required by Oklahoma law.

Petitioner relies on two

affidavits to claim that the jury did not reach a unanimous verdict on the aggravating
circumstance.
Harris claims resentencing appellate counsel was ineffective for failing
to raise the issue of the validity of the continuing threat finding. The
record reflects that the jury found Harris was a continuing threat to
society and that, when polled, each juror affirmed that finding and the
sentence of death. Harris relies on juror affidavits to suggest that not
all jurors were unanimous regarding the continuing threat aggravating
circumstance. A juror may not testify to any matter or statement made
during deliberations which influenced his mental processes or verdict,
other than extraneous prejudicial information or outside influences.
We cannot consider these juror affidavits, and this claim cannot support
a finding of ineffective assistance of resentencing appellate counsel.
Harris, 167 P.3d at 444 (footnote omitted).

17

Comparison between the two reveals a majority of the argument and authority
presented is an exact reproduction.

63

Resp. App. 114

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 64 of 66

Petitioner claims the OCCA’s determination of each juror’s affirmation of the
verdict was an unreasonable determination in light of the record. The record
reveals, however, that the trial court asked the foreperson if the verdict was
unanimous as to both aggravating circumstances and as to the sentence of death.
The trial court then asked each individual juror if that was their verdict. Petitioner
has not demonstrated that the OCCA’s factual determination that the jurors were
polled regarding the aggravating circumstances was unreasonable.
Petitioner has also not demonstrated the OCCA’s inability under state law to
consider the affidavits to be unreasonable.

Tit. 12 O.S. 2001, sec. 2606(B)

precludes offering evidence regarding a juror’s mental processes during
deliberations. Petitioner asserts that the corresponding federal rule, Fed. R. Evid.
606(b), permits testimony about an error in entering the verdict onto the verdict form.
Reliance on the federal evidence rule is misplaced, however, because that rule relates
only to the determination of the admissibility of evidence in federal cases.
Petitioner has provided no Supreme Court authority requiring the consideration of
juror affidavits to impeach a verdict, nor has he demonstrated the OCCA’s
determination to be contrary to, or an unreasonable application of, clearly
established law.
For the foregoing reasons, Petitioner’s thirteenth ground for relief is denied in
its entirety.
Ground 14: Cumulative Error.
Petitioner claims that the accumulation of errors in his resentencing trial
violated his rights under the Fifth, Sixth, Eighth and Fourteenth Amendments.
Petitioner raised this issue in his 2005 direct appeal from his resentencing trial. The
OCCA determined the accumulation of errors did not warrant relief:
In Proposition XII Harris claims that the accumulation of errors in the
preceding propositions requires relief. In Proposition III, we found the
64

Resp. App. 115

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 65 of 66

trial court erred in failing to bring the jury into open court when a
question was presented in deliberations, but that error was harmless.
In Proposition VI we found that error in argument was cured by
instructions. Even taken together, these errors do not require relief.
Harris, 164 P.3d at 1119 (footnote omitted).
Petitioner also requested cumulative review in his 2005 post-conviction
proceedings:
Harris claims in Proposition III that the accumulation of error on appeal
and in post-conviction require relief. No authority allows this Court to
consider, on post-conviction, errors raised on direct appeal which were
not also raised as error in the post-conviction claim. We have
determined that trial, resentencing, and appellate counsel were not
ineffective. There is no cumulative error to consider.
Harris, 167 P.3d at 445 (footnotes omitted).
Authority regarding cumulative review was set forth in consideration of
Petitioner’s sixth ground for relief and need not be repeated here. Upon review of
the entire trial transcript and the evidence and testimony presented, the Court does
not find the cumulation of those errors determined to be harmless had a “substantial
and injurious effect or influence in determining the jury’s verdict.” Brecht v.
Abrahamson, 507 U.S. 619, 637 (1993). In addition to the errors found by the
OCCA, the only error found by this court was the victim impact statements making
sentence recommendations. That error was determined to be harmless. The errors
were not so egregious or numerous as to prejudice Petitioner to the same extent as a
single reversible error. The cumulative effect of the errors, when compared with
the evidence and testimony presented at trial, did not significantly strengthen the
state’s case or diminish Petitioner’s case. No reasonable probability exists that the
jury would have sentenced Petitioner differently absent the errors. Accordingly,
Petitioner’s fourteenth ground for relief is denied.

65

Resp. App. 116

Case 5:08-cv-00375-F Document 77 Filed 04/19/17 Page 66 of 66

CONCLUSION
After a complete review of the transcripts, trial records, appellate record,
record on post-conviction proceedings, briefs filed by Petitioner and Respondent,
and the applicable law, the Court finds Petitioner’s request for relief in his Petition
For Writ of Habeas Corpus (Dkt. No. 32) should be denied. ACCORDINGLY,
habeas relief is DENIED on all grounds. An appropriate judgment will be entered.
IT IS SO ORDERED this 19th day of April, 2017.

08-0375p017.docx

66

Resp. App. 117

HARRIS v. STATE
Cite as 164 P.3d 1103 (Okla.Crim.App. 2007)

2007 OK CR 28

Jimmy Dean HARRIS, Appellant
v.
STATE of Oklahoma, Appellee.
No. D–2005–117.
Court of Criminal Appeals of Oklahoma.
July 19, 2007.

Background: Defendant was convicted in
the District Court, Oklahoma County, Virgil C. Black, J., of first-degree murder,
shooting with intent to kill, and assault and
battery with a dangerous weapon, and was
sentenced to death. Defendant appealed.
The Court of Criminal Appeals, 84 P.3d
731, affirmed judgment, vacated death sentence, and remanded for resentencing. On
remand, the District Court, Oklahoma
County, Virgil C. Black, J., imposed the
death penalty, and defendant appealed.
Holdings: The Court of Criminal Appeals,
Chapel, J., held that:
(1) trial court’s failure to instruct jurors
on the taking and use of notes during
trial or deliberations was not plain error;
(2) trial court acted appropriately by refusing jury’s request to have a dictionary in the room during deliberations;
(3) sufficient evidence was presented to
show there existed a probability that
defendant would constitute a continuing threat to society so as to support
jury’s finding of continuing threat aggravating circumstance; and
(4) defendant’s counsel was not ineffective
for failing to ask for a pretrial determination of mental retardation.
Affirmed.
Lumpkin, P.J., concurred in results.

1. Criminal Law O1038.1(3.1), 1038.3
Since defendant neither requested instructions on the taking and use of notes
during trial or deliberations, nor objected to

Okl.

1103

the trial court’s failure to give them, defendant waived all but plain error.
2. Criminal Law O1038.2
Trial court’s failure to instruct jurors on
the taking and use of notes during trial or
deliberations was not plain error; trial court
told jurors that notes were for their personal
use only, jurors were otherwise properly instructed on their function, the definition of
evidence, and the trial and deliberations process, and taken together, these instructions
properly narrowed the jury’s discretion to
use notes taken during trial.
3. Criminal Law O805(1)
Trial courts should use both mandatory
and recommended uniform instructions which
accurately state the applicable law.
4. Criminal Law O805(1)
The failure to use recommended instructions does not require reversal where the
jury is accurately instructed on the law.
5. Criminal Law O1086.4, 1109(3)
In a capital case, the State has the burden to ensure a complete record of the trial
is provided, which will enable the Court to
conduct its mandatory sentence review; however, failure to provide a complete record is
not per se reversible error.
6. Criminal Law O1109(3)
Capital defendant must show that the
failure to transcribe a portion of the trial
resulted in error and affects appellate court’s
ability to conduct a mandatory sentence review.
7. Sentencing and Punishment O1789(4)
Although trial court allegedly failed to
provide a complete record of the proceedings
leading to defendant’s death sentence, the
record was complete enough for appellate
court to determine whether the jury’s verdict
was imposed under the influence of passion,
prejudice, or any other arbitrary factor, and
whether sufficient evidence supported the aggravating circumstances.
8. Sentencing and Punishment O1779(3)
Trial court acted appropriately in capital
case by refusing the jury’s request to have a
dictionary in the room during deliberations,

Resp. App. 118

1104

Okl.

164 PACIFIC REPORTER, 3d SERIES

but trial court was responsive to the jury’s
request, as trial courts are encouraged to do,
by providing the exact information jurors
requested; trial court asked what word the
jury wanted defined, jurors replied that they
wanted definitions for ‘‘probability’’ and ‘‘possibility,’’ and trial court sent typewritten dictionary definitions of those words to the jury
room.
9. Criminal Law O1038.1(1)
Since appellate court could not determine from the record whether defendant had
an opportunity to object to instructions, appellate court would not consider the claim
waived.
10. Sentencing and Punishment O1779(3),
1789(9)
Trial court’s failure to follow statutory
procedure, namely bringing jurors into court
and answering their question in the presence
of all parties, when jurors asked for a dictionary during deliberations in penalty phase of
capital trial was harmless; trial court asked
what word the jury wanted defined, jurors
replied that they wanted definitions for
‘‘probability’’ and ‘‘possibility,’’ and trial court
sent typewritten dictionary definitions of
those words to the jury room. 22 Okl.St.
Ann. § 894.
11. Sentencing and Punishment O1720
To support continuing threat aggravating circumstance, the State must show that
defendant’s past behavior, through convictions or unadjudicated crimes, showed a pattern of criminal conduct which will probably
continue to exist in the future.
12. Sentencing and Punishment O1789(6,
8)
Appellate court will uphold the jury’s
finding if, after reviewing the evidence in the
light most favorable to the State, any rational
trier of fact could find the charged aggravating circumstance beyond a reasonable doubt.
13. Sentencing and Punishment O1720
Common evidence used to prove that a
defendant is a continuing threat to society, so
as to show continuing threat aggravating circumstance, includes the defendant’s history
of violent conduct, the facts of the homicide

at issue, threats made by the defendant, lack
of remorse, attempts to prevent calls for
help, mistreatment of family members and
testimony of experts.
14. Criminal Law O1159.3(2)
Where the evidence conflicts, appellate
court will not substitute its judgment regarding the weight and credibility of the evidence
for that of the jury’s.
15. Sentencing and Punishment O1772
Sufficient evidence was presented to
show there existed a probability that defendant would constitute a continuing threat to
society so as to support jury’s finding of
continuing threat aggravating circumstance;
evidence that defendant constituted a continuing threat to society included ongoing
domestic violence, fighting since childhood,
resisting arrest, death threats, an attack on a
jailer, and the circumstances of the murder,
and any rational trier of fact could find,
beyond a reasonable doubt, a pattern of
criminal conduct which would probably continue to exist in the future.
16. Pardon and Parole O42.1
The 85% rule did not apply to defendant
since statute provided that any person committing an enumerated offense on or after
certain date must serve 85% of the latter
sentence before being eligible to be considered for parole and defendant’s crimes were
committed before this date. 21 O.S.2001,
§§ 12.1, 13.1.
17. Sentencing and Punishment O1757
A capital defendant must be allowed to
introduce any relevant mitigating evidence
regarding his character or record and any of
the circumstances of the offense.
18. Sentencing and Punishment O1757
Capital defendant may present in mitigation any aspect of his record or character,
and any circumstances of the crime that
could possibly convince a jury that he is
entitled to a sentence less than death, and
likewise, a defendant is also entitled to present any evidence that may assist in rebutting
an aggravating circumstance.

Resp. App. 119

HARRIS v. STATE
Cite as 164 P.3d 1103 (Okla.Crim.App. 2007)

19. Sentencing and Punishment O1665,
1700
When considering whether to recommend the death penalty, jurors must look at
both the circumstances of the crime and the
personal characteristics and propensities of
the defendant.
20. Sentencing and Punishment O1757
Any attempt to limit a jury’s consideration of mitigating evidence only to that evidence which may make a defendant less
guilty, or the crime less horrible, is unconstitutional, and this is true whether the attempted limitation occurs through instruction
or argument.
21. Sentencing and Punishment O1780(2),
1789(9)
Prosecutor’s closing argument stating
that jurors should not consider defendant’s
second stage evidence as mitigating since it
did not extenuate or reduce his guilt or moral
culpability improperly told jurors not to consider defendant’s mitigating evidence, but
this error was harmless, in light of a final
closing argument in which a second prosecutor invited jurors to consider all defendant’s
mitigating evidence, weigh it against the aggravating circumstances, and find that the
death penalty was appropriate.
22. Sentencing and Punishment O1780(3)
Language of current instruction defining
mitigating circumstances, itself, was not legally inaccurate, inadequate, or unconstitutional, and cases in which the current instruction was used were not subject to reversal on
this basis; however, this issue would be referred to Uniform Jury Instruction Committee for promulgation of a modified jury instruction defining mitigating circumstances
in capital cases, and to delineate the various
purposes of mitigating evidence, appellate
court would suggest including both that mitigating circumstances may extenuate or reduce degree of moral conduct or blame, and
separately that mitigating circumstances are
those which in fairness, sympathy or mercy
would lead jurors individually or collectively
to decide against imposing the death penalty.
OUJI–CR 4–78.

Okl.

1105

23. Sentencing and Punishment O1780(3)
Uniform jury instruction on mitigating
circumstances given by trial court did not
unconstitutionally limit the jury’s ability to
consider mitigating evidence; uniform instruction stated that mitigating circumstances were those which, in fairness, sympathy, and mercy, might extenuate or reduce
the degree of moral culpability or blame.
24. Criminal Law O641.13(1)
To prevail on ineffective assistance of
counsel claim, defendant must show that
counsel’s performance was so deficient that
he did not have counsel as guaranteed by the
Sixth Amendment, and that the deficient performance created errors so serious as to
deprive him of a fair trial with reliable results. U.S.C.A. Const.Amend. 6.
25. Criminal Law O641.13(1)
Appellate courts measure trial counsel’s
performance against an objective standard of
reasonableness under prevailing professional
norms. U.S.C.A. Const.Amend. 6.
26. Criminal Law O641.13(1)
Appellate courts give great deference to
trial counsel’s strategic decisions, considering
the choices made from counsel’s perspective
at the time. U.S.C.A. Const.Amend. 6.
27. Criminal Law O1144.10
Appellate court will presume counsel’s
conduct was professional and could be considered sound strategy. U.S.C.A. Const.
Amend. 6.
28. Criminal Law O641.13(1)
Appellate court will not find counsel ineffective if appellate court finds that defendant was not prejudiced by counsel’s actions
or omissions. U.S.C.A. Const.Amend. 6.
29. Criminal Law O641.13(5)
Defendant’s counsel was not ineffective
for failing to ask for a pretrial determination
of mental retardation since nothing in the
record showed that, had counsel made that
request, evidence would have shown that defendant was mentally retarded; despite two
IQ scores of 66 and 68, all of defendant’s
other IQ scores were over 70, and all of
defendant’s experts considered these scores

Resp. App. 120

1106

Okl.

164 PACIFIC REPORTER, 3d SERIES

along with defendant’s other characteristics
and concluded he was not mentally retarded.
U.S.C.A. Const.Amend. 6.
30. Sentencing and Punishment O1794
A capital defendant who wishes to claim
mental retardation must raise that claim with
the trial court before the trial begins, and a
threshold requirement for such a claim is one
IQ test of 70 or below; such a test will not
itself guarantee a finding of mental retardation but may begin the process by which the
court determines whether a defendant is
mentally retarded.

35. Sentencing and Punishment O1679,
1720
Sentences of death were not imposed
because the jury was influenced by passion,
prejudice, or any other arbitrary factor; jury
was instructed on and found the existence of
two aggravating circumstances, namely that
defendant knowingly created a great risk of
death to more than one person and there
existed a probability that defendant would
commit criminal acts of violence which would
constitute a continuing threat to society, jury
was specifically instructed on thirteen mitigating factors, and sentences of death were
factually substantiated and appropriate.

31. Criminal Law O641.13(7)
Trial counsel has a duty to investigate
and present relevant mitigating evidence.
32. Criminal Law O641.13(1)
Where counsel makes an informed decision to pursue a particular strategy to the
exclusion of other strategies, this informed
strategic choice is virtually unchallengeable.
33. Criminal Law O641.13(7)
Defense counsel was aware of the evidence of mental condition and status and was
not ineffective because, rather than rely on it
to persuade jurors that defendant’s mental
state and after-diagnosed mental condition
were mitigating circumstances, counsel chose
a different path, and counsel’s choice of mitigating evidence did not amount to ineffective
assistance; counsel chose to provide defendant’s sentencing jury with a thorough picture of his life, intelligence, and emotional
state, including his anger, grief and despair
immediately preceding the crimes. U.S.C.A.
Const.Amend. 6.
34. Criminal Law O641.13(7)
Defense counsel was not unreasonable
for choosing not to stress the issue of capital
defendant’s potential for danger to society by
using risk assessment evidence. U.S.C.A.
Const.Amend. 6.
1.

Harris v. State, 2004 OK CR 1, 84 P.3d 731.
Harris was also convicted of Shooting with Intent to Kill and Assault and Battery with a Dan-

An Appeal from the District Court of Oklahoma County; the Honorable Virgil C. Black,
District Judge.
James T. Rowan, Oklahoma City, OK, attorney for defendant at trial.
Michael D. Morehead, Kathleen Smith, Appellate Defense Counsel, Capital Direct Appeals Division, Oklahoma Indigent Defense
System, Norman, OK, attorneys for appellant
on appeal.
C. Wesley Lane II, District Attorney, Patricia L. High, Assistant District Attorney,
Oklahoma City, OK, attorneys for the state
at trial.
W.A. Drew Edmondson, Attorney General
of Oklahoma, Preston Saul Draper, Assistant
Attorney General, Oklahoma City, OK, attorneys for appellee on appeal.
OPINION
CHAPEL, Judge.
¶ 1 Jimmy Dean Harris was tried by jury
and convicted of Murder in the First Degree
in violation of 21 O.S.1991, § 701.7, in the
District Court of Oklahoma County, Case No.
CF–1999–5071. On appeal, this Court reversed the punishment of death recommended by the jury and imposed by the trial
court, and remanded the case for resentencing.1 The jury at Harris’s resentencing trial
gerous Weapon, and sentenced to life and ten
years imprisonment. These convictions and sentences were upheld on appeal.

Resp. App. 121

HARRIS v. STATE
Cite as 164 P.3d 1103 (Okla.Crim.App. 2007)

found that Harris knowingly created a great
risk of death to more than one person, and
constituted a continuing threat to society. In
accordance with the jury’s recommendation,
the Honorable Virgil C. Black imposed the
death penalty. Harris appeals from this sentence.
¶ 2 Harris, who was a skilled transmission
mechanic, and his wife, Pam, worked in front
office positions in transmission shops.
Throughout their relationship the two often
worked together. Despite being business
partners as well as husband and wife, they
had a stormy relationship. This worsened
significantly when Pam was hired, but Harris
was not, to work in Merle Taylor’s AAMCO
transmission shop in Oklahoma City. Harris
commuted to work in Texas for several
months, during which time the marriage suffered. After Harris had a work-related accident, he returned to Oklahoma. By the summer of 1999, Pam told him the marriage was
over. While Harris agreed to a divorce, he
was angry and upset, and continued to hope
Pam would return to him. In mid-August of
1999, Harris called Pam, threatening to kill
her, her parents, their daughter, her coworkers, and Merle Taylor. Pam got a protective order against Harris and filed for
divorce. The divorce was granted on August
25, 1999, and Harris was ordered to leave the
home without removing any property. Harris and Pam had previously taped an agreement dividing the house property. On the
evening of the 25th, Harris moved out of the
home, taking furniture and many of Pam’s
personal possessions. He also vandalized the
house. Pam discovered the damage the next
day, found out where Harris had stored her
furniture and his tools, and had a lock put on
that shed. In the succeeding days Harris
called Pam often demanding that she remove
the lock. Each time, she explained she could
neither talk to him nor remove the lock, and
told him to call her attorney. He refused,
explicitly stating he would talk to her. He
continued to threaten her and others. On
August 31, 1999, he threatened to kill Pam
and was seen driving by the AAMCO shop.
¶ 3 On the morning of September 1, 1999,
Harris called the AAMCO shop several
times, demanding that she remove the lock

Okl.

1107

on the storage shed and threatening Pam
and Merle Taylor. At approximately 9:00
a.m. Harris arrived at the shop and asked for
Pam, who was standing with Merle Taylor
and his daughter-in-law Jessica. He shot
Taylor twice at close range, and shot at
Jessica. Harris shot Pam, chased her when
she ran, and pistol-whipped her when he ran
out of bullets and could not quickly reload his
gun. When Pam escaped, Harris fled, discarded the gun and his van, and hid in a
friend’s garage. Harris claimed he was angry and upset, and could not make good
decisions because he was of low intelligence,
was under the influence of alcohol and drugs,
and was mentally ill (although not legally
insane).
¶ 4 To support the aggravating circumstances, the State presented the evidence of
the circumstances of the crimes. There was
also evidence that, during the ongoing difficulties in mid-August, Pam had called police
and Harris had resisted arrest. The State
presented evidence that Harris assaulted a
jailer while awaiting trial, and had physically,
verbally and emotionally abused Pam
throughout their relationship. The State
also presented victim impact evidence. In
mitigation, Harris presented evidence from
his family and former co-workers, as well as
expert evidence, regarding his traumatic and
abusive childhood, history of substance
abuse, low intelligence, emotional instability,
and possible mental illness.
Issues Regarding Jury Selection
[1, 2] ¶ 5 In Proposition V Harris claims
that the trial court’s failure to provide the
jury with cautionary instructions on the taking and use of notes during trial and deliberation deprived him of his rights to a fair trial
and due process. The trial court allowed
jurors to take notes during the course of the
trial and provided them with notebooks and
pencils. The court told jurors that any notes
they took were for their personal use, and
would not become part of the public record.
However, the trial court did not instruct
jurors on the taking and use of notes during
trial or deliberations. Harris claims this
omission deprived him of a right to a fair
trial and due process. He neither requested

Resp. App. 122

1108

Okl.

164 PACIFIC REPORTER, 3d SERIES

these instructions at trial, nor objected to the
trial court’s failure to give them, and has
waived all but plain error. There is none.
[3, 4] ¶ 6 In Cohee v. State we held that
a trial court may, in its discretion, allow
jurors to take notes.2 While Cohee explained why note-taking may be beneficial,
and set forth guidelines for the trial court’s
consideration, it did not promulgate or require any specific instructions on the process
of note-taking.3 The Uniform Jury Instructions include instructions on note-taking
which are based on the comments and guidelines in Cohee.4 The Notes on Use to the
Uniform Jury Instructions (revised) note
that, in keeping with Cohee, these instructions are recommended, not mandatory.
Trial courts should use both mandatory and
recommended uniform instructions which accurately state the applicable law.5 However,
the failure to use recommended instructions
does not require reversal where the jury is
accurately instructed on the law. In Hanson v. State,6 this Court previously considered the failure to use the recommended
instructions on jury note-taking. We determined that this omission was not plain error,
where the instructions to the jury, ‘‘taken as
a whole, fairly and accurately stated the applicable law, channeling juror’s discretion in
their use of notes.’’ 7 The trial court told
jurors that notes were for their personal use
only. Jurors were otherwise properly instructed on their function, the definition of
evidence, and the trial and deliberations pro2.

Cohee v. State, 1997 OK CR 30, 942 P.2d 211,
213.

3.

Cohee, 942 P.2d at 214–15.

4.

OUJI–CR (2d) 1–9, 10–8A.

5.

12 O.S.2001, § 577.2.

6.

2003 OK CR 12, 72 P.3d 40, 46.

7.

Hanson, 72 P.3d at 46.

8.

Van White v. State, 1988 OK CR 47, 752 P.2d
814, 820–21.

9.

Pickens v. State, 2001 OK CR 3, 19 P.3d 866,
881. In Pickens, private conversations with two
jurors during voir dire were not recorded. The
Court found that, as no errors were alleged during jury selection and the potential jurors were

cess. Taken together, these instructions
properly narrowed the jury’s discretion to
use notes taken during trial. The trial
court’s omission was not plain error.
Issues Relating to the Sentencing
Stage of Trial
[5–7] ¶ 7 Harris argues in Proposition III
that the trial court’s failure to provide a
complete record of the proceedings leading
to his death sentence violated his constitutional rights. In a capital case, the State has
the burden to ensure a complete record of
the trial is provided, which will enable the
Court to conduct its mandatory sentence review.8 However, failure to provide a complete record is not per se reversible error.9
In Pickens v. State, private conversations
with two jurors during voir dire were not
recorded. The Court found that, as no errors were alleged during jury selection and
the potential jurors were excused for cause,
no error was shown and our ability to conduct the mandatory sentence review was not
affected.10 By contrast, in Van White the
parties completely failed to transcribe voir
dire proceedings. This deprived the Court
of the ability to consider potential juror bias
or other questions of improper juror prejudice as part of our mandatory sentence review, and required reversal.11 The defendant must show that the failure to transcribe
a portion of the trial resulted in error and
affects this Court’s ability to conduct a mandatory sentence review.12 Harris fails to
excused for cause, no error was shown and our
ability to conduct the mandatory sentence review
was not affected.
10. Pickens, 19 P.3d at 881. See also Mooney v.
State, 1999 OK CR 34, 990 P.2d 875, 884 (failure
to transcribe competency hearing was cured
when an evidentiary hearing determined application for competency had been denied); Cannon
v. State, 1998 OK CR 28, 961 P.2d 838, 848
(failure to transcribe reading of instructions to
the jury not error where written instructions are
included in record on appeal); Parker v. State,
1994 OK CR 56, 887 P.2d 290, 294 (failure to
transcribe bench conferences did not require reversal);
11.

Van White, 752 P.2d at 821.

12.

Pickens, 19 P.3d at 881.

Resp. App. 123

HARRIS v. STATE
Cite as 164 P.3d 1103 (Okla.Crim.App. 2007)

meet this standard. As our discussion
shows, this record is complete enough for
this Court to determine whether the jury’s
verdict was imposed under the influence of
passion, prejudice, or any other arbitrary
factor, and whether sufficient evidence supports the aggravating circumstances.13
[8, 9] ¶ 8 During deliberations, Harris’s
jury asked for a dictionary. The trial court
responded in writing by asking what word
the jury wanted defined. Jurors replied that
they wanted definitions for ‘‘probability’’ and
‘‘possibility’’. The trial court sent typewritten dictionary definitions of those words to
the jury room. While this exchange of notes
is physically preserved, the trial record
makes no mention of them. There is no
indication whether the trial court discussed
these requests with the parties, or if so,
whether defense counsel agreed to the trial
court’s resolution of the question.14
¶ 9 Harris first claims that this Court cannot determine whether the trial court appropriately answered the jury by supplying the
requested dictionary definitions without
knowing the context for the jury’s request.
Harris suggests that a dictionary definition
would be inappropriate for ‘‘some words’’
which are legal terms of art, but fails to show
that either ‘‘probability’’ or ‘‘possibility’’ falls
within that category. The word ‘‘possibility’’
is found in every instruction which mentions
the punishment alternatives ‘‘imprisonment
for life without the possibility of parole, or
imprisonment for life with the possibility of
parole.’’ 15 ‘‘Probability’’ occurs in the context of the continuing threat aggravating circumstance, ‘‘a probability that the defendant
would commit criminal acts of violence that
would constitute a continuing threat to society.’’ 16 These are the only contexts in which
these words are mentioned in the jury in13.

21 O.S.2001, § 701.13.

14. The State argues that there is no record Harris objected to these instructions, so the issue is
waived. The lack of record is Harris’s point. As
the Court cannot determine from this record
whether Harris had an opportunity to object, we
will not consider the claim waived.
15. Instructions 1, 3, 6, 10, 16; O.R. IX, 1598,
1601, 1604, 1611, 1619.

Okl.

1109

structions. Harris would have this Court
speculate on other contexts within which the
jury might have wanted definitions of the
words, but does not show any context in
which a dictionary definition would be improper. Harris recognizes that we have recently warned trial courts against allowing
jurors any outside reference material in deliberations, including dictionaries.17 The trial
court here acted appropriately in refusing
the jury’s request to have a dictionary in the
room during deliberations. However, the trial court attempted to be responsive to the
jury’s request, as we encourage trial courts
to do,18 and provided the exact information
jurors requested. Neither the record before
us, nor Harris’s argument, suggests that this
decision was an abuse of discretion. As
counsel could not have been ineffective had
counsel failed to object to this decision, the
incomplete record on this issue does not impede our ability to conduct a review.
[10] ¶ 10 Harris also claims that the trial
court violated statutory procedures in handling the jury’s questions. If jurors express
disagreement regarding testimony or have a
question on a point of law, they should be
brought into court and the trial court should
answer their question only in the presence of
all parties, or after they have been called.19
Harris suggests this Court must presume
prejudice from the trial court’s failure to
follow this procedure, because the circumstances surrounding the trial court’s receipt
of and answer to the questions were not
transcribed. However, the record, in the
form of the written notes, shows that the
trial court did not abuse its discretion in
answering jurors by giving them what they
requested, without allowing a dictionary into
the jury room. On this record, the trial
16. Instructions 2, 4, 5, 7; O.R. IX, 1599, 1602,
1603, 1605.
17. Glossip v. State, 2001 OK CR 21, 29 P.3d 597,
605.
18. Cohee, 942 P.2d at 215 (trial court should
attempt to answer juror questions as fully as the
law permits).
19.

22 O.S.2001, § 894.

Resp. App. 124

1110

Okl.

164 PACIFIC REPORTER, 3d SERIES

court’s failure to follow the statutory procedure is harmless.20
¶ 11 Here, as the State notes, the appellate
record contains the written notes exchanged
between trial court and jury. The record
does not show whether defense counsel had
an opportunity to object to the trial court’s
instruction defining the words ‘‘probability’’
and ‘‘possibility’’. However, this Court is
able to review the exchange itself.21 We
have done so, and concluded that (a) the trial
court did not abuse its discretion in providing
dictionary definitions to jurors, and (b) the
trial court’s failure to bring the jury into
open court upon receiving the request did not
prejudice Harris. The record is sufficient to
allow this Court to conduct its mandatory
sentence review.
¶ 12 Merle Taylor’s son and wife each gave
victim impact evidence, and asked jurors to
impose the death penalty. Harris argues in
Proposition VII that this recommendation
was unconstitutional and denied him his right
to a fair trial. Harris admits that this Court
has held that family members of the victim
may recommend a sentence in a capital sentencing trial,22 but urges us to reconsider.
We decline this invitation.

and that the State was barred from re-alleging that he would be a continuing threat in
the resentencing proceedings. This Court
recently considered and rejected this claim in
Hogan v. State.23 We will not reconsider it
in this case.
[11, 12] ¶ 14 Harris claims in Proposition
IX that insufficient evidence supported the
jury’s finding of the continuing threat aggravating circumstance. The jury found that
there existed a probability that Harris would
commit criminal acts of violence which would
constitute a continuing threat to society.
Harris claims the State presented insufficient
evidence that he presented a continuing
threat to society. To support this aggravating circumstance, the State must show that
Harris’s past behavior, through convictions
or unadjudicated crimes, showed a pattern of
criminal conduct which will probably continue
to exist in the future.24 On appeal, we will
uphold the jury’s finding if, after reviewing
the evidence in the light most favorable to
the State, any rational trier of fact could find
the charged aggravating circumstance beyond a reasonable doubt.25

¶ 13 In Proposition VIII Harris argues
that the State improperly re-alleged the continuing threat aggravating circumstance. In
Harris’s original trial and again at resentencing, the State alleged that Harris would constitute a continuing threat to society. At
Harris’s first trial, jurors did not find this
aggravating circumstance. Harris claims
that this failure is equivalent to an acquittal,

[13] ¶ 15 Harris admits that the State
offered four separate types of evidence to
prove this aggravating circumstance. All
were admissible to show a pattern of violence
which was likely to continue. This Court has
upheld use of both the circumstances of the
crime and unadjudicated offenses to support
this aggravating circumstance.26 Common
evidence used to prove that a defendant is a
continuing threat to society includes ‘‘the de-

20. Welch v. State, 1998 OK CR 54, 968 P.2d
1231, 1245.

issue in Hogan, and yield my vote on the basis of
stare decisis.

21. Cannon, 961 P.2d at 848 (ability to review not
impeded where Court can determine from the
record what instructions were given to jury).

24. Malicoat v. State, 2000 OK CR 1, 992 P.2d
383, 397.

22. See, e.g., DeRosa v. State, 2004 OK CR 19, 89
P.3d 1124, 1151–52; Conover v. State, 1997 OK
CR 6, 933 P.2d 904, 920; Ledbetter v. State, 1997
OK CR 5, 933 P.2d 880, 890–91. Harris does
not claim that the victim impact evidence itself
was improper, other than the recommendation of
punishment.
23. Hogan v. State, 2006 OK CR 19, 139 P.3d 907,
929–30, cert. denied, ––– U.S. ––––, 127 S.Ct. 994,
166 L.Ed.2d 751 (2007). I dissented on this

25. Warner v. State, 2006 OK CR 40, 144 P.3d
838, 878; DeRosa, 89 P.3d at 1153; Malicoat,
992 P.2d at 397.
26. See, e.g., Hooper v. State, 2006 OK CR 35, 142
P.3d 463, and cases cited therein. I continue to
believe that evidence of unadjudicated offenses
should not be admitted to support the continuing
threat aggravating circumstance. I find that,
even without this evidence, sufficient evidence
supports the finding of this aggravating circumstance beyond a reasonable doubt.

Resp. App. 125

HARRIS v. STATE
Cite as 164 P.3d 1103 (Okla.Crim.App. 2007)

fendant’s history of violent conduct, the facts
of the homicide at issue, threats made by the
defendant, lack of remorse, attempts to prevent calls for help, mistreatment of family
members and testimony of experts.’’ 27
While Harris claims that, at best, the State’s
evidence shows he was a danger to Pam, in
fact the evidence taken as a whole shows
Harris has a lifelong pattern of using violence to solve problems and react to situations which is likely to continue.
[14] ¶ 16 Through Pam, family members,
and co-workers, the State offered evidence of
ongoing domestic violence, including Harris’s
physical, verbal and mental abuse of Pam,
which lasted throughout the course of their
relationship. Among other things, Harris
dislocated Pam’s jaw, kicked her in the face,
slammed her legs in a car door, and pushed
and shoved her. Due to arguments, his
drinking, and the threat of violence, Pam left
Harris between eighty and 100 times during
the course of their marriage, only to return
after each episode ended. Some witnesses
also testified that Pam instigated arguments
with Harris, got the better of him in verbal
arguments, and even pushed him. Harris
characterizes all this as evidence of a dysfunctional marriage. However, where the
evidence conflicts, this Court will not substitute its judgment regarding the weight and
credibility of the evidence for that of the
jury’s.28
¶ 17 The State also presented evidence of
other violent episodes in Harris’s life. His
own expert and a brother testified that he
had been in fights as a child and bar fights
throughout his life. Harris claims without
citation that this evidence was inadmissible
to support the continuing threat aggravating
circumstance as no details were given regarding the fights. He did not object to this
testimony at trial and we review for plain
error only. There is none. Harris himself
27.

Malicoat, 992 P.2d at 397.

28. Malicoat, 992 P.2d at 397. While the Court
must independently assess the record evidence
and determine that such evidence supports the
jury’s finding of an aggravating circumstance,
Battenfield v. State, 1991 OK CR 82, 816 P.2d
555, 565, this merely reflects the appropriate
standard of review. We will not substitute our

Okl.

1111

told Dr. Draper that he had fought in school,
had been expelled for fighting, and got in bar
fights. Dr. Draper relied on this information
in forming her opinion, and was required to
testify regarding it if asked on cross-examination.29 His brother testified about the beginnings of bar fights he had witnessed, and
about a particular bar fight in which Pam
was involved or present.30 Harris argues
that these episodes have no bearing on his
potential for future dangerousness. On the
contrary, Dr. Draper testified regarding
Harris’s emotional instability and difficulty
handling stress, solving problems, and making good choices when angry. Harris’s propensity for physical fights bears directly on
his probable future reactions in these circumstances.
¶ 18 The State offered several episodes
from August, 1999, as the difficulties between
Pam and Harris escalated. On August 15,
Pam called the police from her parents’
house. She reported Harris was at the family home, had threatened her, her family, and
her co-workers, and she believed he was
armed. When police came, Harris met them
in the yard. The officers asked him to lift up
his loose shirt and turn around, explaining
they needed to check for a weapon. He
initially appeared to comply, hesitated, then
ran into the house and locked the door. The
police kicked in the door and ordered Harris
to the floor. When he refused to comply,
they subdued and handcuffed him, and arrested him for resisting an officer. Subsequently, Harris telephoned Pam several
times threatening to kill her. When he left
the house on August 25, he violated the trial
court’s order by moving furniture and Pam’s
personal belongings and vandalizing the
house. The act of resisting arrest and death
threats are relevant to Harris’s future dangerousness. While vandalism, a nonviolent
crime, is not in itself indicative of future
danger, under the circumstances of this case
judgment for that of the jury’s where sufficient
evidence is present.
29.

12 O.S.2001, § 2705.

30. Mark Harris testified that he had not necessarily seen Harris commit acts of violence because ‘‘I usually leave if it gets that bad.’’

Resp. App. 126

1112

Okl.

164 PACIFIC REPORTER, 3d SERIES

it reflects the pattern of escalating violence
which resulted in the crimes.
¶ 19 Harris had no prior convictions, and
only one disciplinary write-up from his years
of incarceration in this case. On April 11
2001, while awaiting his preliminary hearing
in the Oklahoma County jail, Harris was put
on suicide watch. Officer Hill was required
to make visual contact with Harris through a
cell window every fifteen minutes. Harris
blocked the window with paper, and refused
to answer when Hill knocked on the door and
called his name. As soon as Hill opened the
door and stepped inside the cell, Harris attacked him. Harris did not try to escape the
cell, but instead punched and kicked Hill and
temporarily disabled his radio. He was
eventually subdued by several jailers. Harris asserts this action has no bearing on the
probability that he constitutes a continuing
threat to society. On the contrary, Harris’s
willingness to attack a jailer, while possibly
affected by his mental state, bears directly
on his propensity for future violence.
¶ 20 In addition to the evidence above, the
State offered the circumstances of the crimes
themselves.31 After explicitly threatening to
kill Pam and Merle Taylor, Harris drove to
the AAMCO shop. He was armed and carried extra ammunition. When Harris said he
needed to talk to Pam, Taylor reminded him
he was not supposed to be at the shop.
Harris knocked Taylor down and shot him
twice. He pointed the gun and shot at other
workers in the area. As they fled, Harris
shot Pam, hitting her once. As he continued
to shoot she ran. When she tripped, he
attempted to shoot her in the head, grazing
her scalp. He tried unsuccessfully to reload
the weapon, then pistol-whipped her. Pam
fought back, pinning Harris’s arms in his
shirt, and escaped. Harris then fled the
scene.
31. I have disagreed with the use of the circumstances of the crime to support this aggravating
circumstance, but yield to the majority. Hooper
v. State, 1997 OK CR 64, 947 P.2d 1090, 1108 n.
58; Cannon v. State, 1995 OK CR 45, 904 P.2d
89, 106 n. 60. In addition to the circumstances
of the crime and unadjudicated offenses, I find
there is sufficient other evidence of continuing
threat to support the jury’s finding of this aggravating circumstance.

[15] ¶ 21 Evidence that Harris constitutes a continuing threat to society included
ongoing domestic violence, fighting since
childhood, resisting arrest, death threats, an
attack on a jailer, and the circumstances of
the crime. Taking the evidence in the light
most favorable to the State, any rational trier
of fact could find, beyond a reasonable doubt,
a pattern of criminal conduct which will probably continue to exist in the future. Sufficient evidence was presented to show there
exists a probability that Harris will constitute
a continuing threat to society.
¶ 22 In Proposition X Harris claims that
the aggravating circumstance that he would
constitute a continuing threat to society is
unconstitutional on its face and as applied in
Oklahoma. He argues that (a) Oklahoma’s
statutory definition does not meet standards
set forth by the United States Supreme
Court; and (b) that, as applied in Oklahoma
courts, the aggravating circumstance is not
easily understood and fails to channel the
jury’s discretion. Harris admits that this
Court has previously considered and rejected
this claim.32 We do not reconsider it here.
Issues Relating to Jury Instructions
[16] ¶ 23 In Proposition IV Harris argues
the trial court erred in failing to instruct the
jury that, if convicted of murder and sentenced to life with the possibility of parole, he
would have to serve 85% of his sentence.
Harris faced three potential sentences:
death, life without the possibility of parole, or
life imprisonment. By statute, any person
committing an enumerated offense on or after March 1, 2000, must serve 85% of the
latter sentence before being eligible to be
considered for parole (the 85% Rule).33 This
Court held in Anderson v. State that jurors
should be instructed on the 85% Rule in
32. See, e.g., Warner, 144 P.3d at 879; Myers v.
State, 2006 OK CR 12, 133 P.3d 312, 333–34;
Wackerly v. State, 2000 OK CR 15, 12 P.3d 1, 16;
Malicoat, 992 P.2d at 400.
33.

21 O.S.2001, §§ 12.1, 13.1.

Resp. App. 127

HARRIS v. STATE
Cite as 164 P.3d 1103 (Okla.Crim.App. 2007)

every case to which it applies.34 The record
does not indicate that Harris asked for an
instruction on the 85% Rule, but he claims
that he is entitled to relief because his jury
was not so instructed. He is mistaken.
Harris’s crimes were committed on September 1, 1999. On its face, the 85% Rule does
not apply here. This proposition is denied.
[17–20] ¶ 24 In Proposition VI Harris argues that the uniform jury instruction on
mitigating circumstances, OUJI–CR (2d) 4–
78, which was given to his jury, unconstitutionally limited the jury’s ability to consider
his mitigating evidence. A capital defendant
‘‘must be allowed to introduce any relevant
mitigating evidence regarding his character
or record and any of the circumstances of the
offense.’’ 35 ‘‘It is settled that a defendant
may present in mitigation any aspect of his
record or character, and any circumstances
of the crime that could possibly convince a
jury that he is entitled to a sentence less
than death. Likewise, a defendant is also
entitled to present any evidence that may
assist in rebutting an aggravating circumstance.’’ 36 When considering whether to
recommend the death penalty, jurors must
look at both the circumstances of the crime
and the personal characteristics and propensities of the defendant.37 The reference to a
defendant’s characteristics will necessarily
include evidence which may be mitigating in
nature, but will not extenuate or reduce his
moral culpability for the crime. Given this
settled law, we must agree with the Tenth
Circuit’s conclusion that any attempt to limit
a jury’s consideration of mitigating evidence
only to that evidence which may make a
34. Anderson v. State, 2006 OK CR 6, 130 P.3d
273, 282.
35. California v. Brown, 479 U.S. 538, 541, 107
S.Ct. 837, 839, 93 L.Ed.2d 934 (1987) (citations
omitted); Eddings v. Oklahoma, 455 U.S. 104,
110, 102 S.Ct. 869, 874, 71 L.Ed.2d 1 (1982);
Lockett v. Ohio, 438 U.S. 586, 604, 98 S.Ct. 2954,
2964, 57 L.Ed.2d 973 (1978).
36. Fitzgerald v. State, 2002 OK CR 31, 61 P.3d
901, 903 (citation omitted). See also Coddington
v. State, 2006 OK CR 34, 142 P.3d 437, 460;
Fitzgerald v. State, 1998 OK CR 68, 972 P.2d
1157, 1168; Skipper v. South Carolina, 476 U.S.
1, 4, 106 S.Ct. 1669, 1670–71, 90 L.Ed.2d 1
(1986).

Okl.

1113

defendant less guilty, or the crime less horrible, is unconstitutional.38 This is true whether the attempted limitation occurs through
instruction or argument.
[21] ¶ 25 Harris argues that the plain
language of the uniform instruction’s first
sentence itself limits the jury’s consideration
of mitigating evidence. That sentence reads:
‘‘Mitigating circumstances are those which, in
fairness, sympathy, and mercy, may extenuate or reduce the degree of moral culpability
or blame.’’ 39 Harris admits this Court has
rejected this line of argument.40 However,
he suggests that the language is ambiguous
at best, and, combined with prosecutorial
argument, foreclosed the jury’s consideration
of mitigating evidence. He failed to object to
either the instruction or argument at trial.
Reviewing for plain error, we find none. We
do not find that the current uniform jury
instruction prohibits jurors from considering
mitigating evidence. One prosecutor did
consistently argue in closing that jurors
should not consider Harris’s second stage
evidence as mitigating, since it did not extenuate or reduce his guilt or moral culpability.
This argument improperly told jurors not to
consider Harris’s mitigating evidence. However, in final closing a second prosecutor
invited jurors to consider all Harris’s mitigating evidence, weigh it against the aggravating circumstances, and find that the death
penalty was appropriate. The jury was
properly instructed on the definition of mitigating evidence, the evidence Harris presented, and its duties. For that reason, the
initial prosecutorial argument was harm37. Woodson v. North Carolina, 428 U.S. 280, 304,
96 S.Ct. 2978, 2991, 49 L.Ed.2d 944 (1976)
(opinion of Stewart, Powell, and Stevens, JJ.);
Gregg v. Georgia, 428 U.S. 153, 197, 96 S.Ct.
2909, 2936, 49 L.Ed.2d 859 (1976) (opinion of
Stewart, Powell, and Stevens, JJ.).
38. Le v. Mullin, 311 F.3d 1002, 1017 (10th Cir.
2002).
39.

OUJI–CR (2d) 4–78, O.R. 1607.

40. Primeaux v. State, 2004 OK CR 16, 88 P.3d
893, 909–10; Williams v. State, 2001 OK CR 9,
22 P.3d 702, 727

Resp. App. 128

1114

Okl.

164 PACIFIC REPORTER, 3d SERIES

less.41
[22] ¶ 26 This Court is troubled, however,
by the consistent misuse of the language in
this instruction in the State’s closing arguments. This Court noted in Frederick v. State
that the prosecutor could argue mitigating
evidence did not reduce a defendant’s moral
culpability or blame.42 However, we did not
intend to suggest that prosecutors could further argue that evidence of a defendant’s
history, characteristics or propensities should
not be considered as mitigating simply because it does not go to his moral culpability
or extenuate his guilt. This would be an
egregious misstatement of the law on mitigating evidence. After careful consideration,
this Court has determined that an amendment to the language of the instruction will
clarify this point, and discourage improper
argument. We emphasize that the language
of the current instruction itself is not legally
inaccurate, inadequate, or unconstitutional.
Cases in which the current OUJI–CR (2d) 4–
78 has been used and applied are not subject
to reversal on this basis.
¶ 27 In conjunction with this case, the
Court will refer this issue to the Oklahoma
Uniform Jury Instruction Committee (Criminal) for promulgation of a modified jury instruction defining mitigating circumstances
in capital cases. To delineate the various
purposes of mitigating evidence, this Court
suggests including both (a) that mitigating
circumstances may extenuate or reduce the
degree of moral conduct or blame, and separately, (b) that mitigating circumstances are
those which in fairness, sympathy or mercy
would lead jurors individually or collectively
41.

21 O.S.2001, § 3001.1; Le, 311 F.3d at 1018.

42.

2001 OK CR 34, 37 P.3d 908, 949.

43. As Harris notes, OUJI–CR (2d) 4–79, describing possible mitigating circumstances, was
patterned after a similar New Mexico jury instruction. The language in the New Mexican
instruction corresponding to OUJI–CR (2d) 4–
78 reads: ‘‘A mitigating circumstance is any
conduct, circumstance or thing which would
lead you individually or as a jury to decide not
to impose the death penalty.’’
44. Browning v. State, 2006 OK CR 8, 134 P.3d
816, 830, cert. denied, ––– U.S. ––––, 127 S.Ct.
406, 166 L.Ed.2d 288 (2006); Wiggins v. Smith,

to decide against imposing the death penalty.43
[23] ¶ 28 The uniform jury instruction
given in this case did not unconstitutionally
limit the jury’s ability to consider mitigating
evidence. The prosecutor’s improper argument on this issue was cured by further
argument and instruction. Harris’s claim for
relief is denied. However, this Court finds
that the current uniform jury instruction defining mitigating circumstances, OUJI–CR
(2d) 4–78, should be modified to clarify the
constitutional scope of mitigating evidence
and discourage improper argument.
Ineffective Assistance of Counsel
[24–29] ¶ 29 Harris claims in Proposition
I that trial counsel was ineffective for failing,
before trial began, to seek a determination
that he was mentally retarded and thus ineligible for the death penalty. To prevail on
this claim, Harris must show that counsel’s
performance was so deficient that he did not
have counsel as guaranteed by the Sixth
Amendment, and that the deficient performance created errors so serious as to deprive
him of a fair trial with reliable results.44 We
measure trial counsel’s performance against
an objective standard of reasonableness under prevailing professional norms.45 There
must be a reasonable probability that, without counsel’s errors, the jury would have
concluded that a death sentence was not
supported by the balance of aggravating and
mitigating circumstances.46 ‘‘A reasonable
probability is one sufficient to undermine
confidence in the outcome.’’ 47 We give great
deference to trial counsel’s strategic decisions, considering the choices made from
539 U.S. 510, 521, 123 S.Ct. 2527, 2535, 156
L.Ed.2d 471 (2003); Strickland v. Washington,
466 U.S. 668, 697, 104 S.Ct. 2052, 2069–70, 80
L.Ed.2d 674, 693 (1984).
45. Rompilla v. Beard, 545 U.S. 374, 380, 125
S.Ct. 2456, 2462, 162 L.Ed.2d 360 (2005); Wiggins, 539 U.S. at 521, 123 S.Ct. at 2527.
46.

Browning, 134 P.3d at 831.

47. Williams v. Taylor, 529 U.S. 362, 394, 120
S.Ct. 1495, 1513–1514, 146 L.Ed.2d 389 (2000).

Resp. App. 129

HARRIS v. STATE
Cite as 164 P.3d 1103 (Okla.Crim.App. 2007)

counsel’s perspective at the time.48 We will
presume counsel’s conduct was professional
and could be considered sound strategy.49
This Court will not find counsel ineffective if
we find that Harris was not prejudiced by
counsel’s actions or omissions.50
[30] ¶ 30 A capital defendant who wishes
to claim mental retardation must raise that
claim with the trial court before the trial
begins.51 A threshold requirement for such
a claim is one IQ test of 70 or below; such a
test will not itself guarantee a finding of
mental retardation but may begin the process by which the court determines whether
a defendant is mentally retarded.52 Harris
had two IQ test scores, obtained during the
pretrial process, of 66 and 68.53 He complains that counsel did not use these scores
to initiate this process and attempt to determine whether he was mentally retarded before trial began. Harris argues that, given
his test scores, if counsel had asked for a
hearing to determine mental retardation the
trial court would have been required to hold
that hearing. At that hearing Harris might
or might not have been found mentally retarded, but if he were found to be retarded,
he would avoid the death penalty. Thus,
Harris claims, he had nothing to lose and
everything to gain by raising the issue, and
counsel was ineffective for failing to do so.
¶ 31 Harris cannot show he was prejudiced
by counsel’s failure. To prevail on a pretrial
claim of mental retardation, Harris would
have to show (1) significantly subaverage intellectual functioning; (2) manifested before
48. Rompilla, 545 U.S. at 380–81, 125
2462; Wiggins, 539 U.S. at 523, 123
2536; Strickland, 466 U.S. at 689, 104
2065; Hooks v. State, 2001 OK CR 1,
294, 317.

S.Ct. at
S.Ct. at
S.Ct. at
19 P.3d

49. Browning, 134 P.3d at 831; Ryder v. State,
2004 OK CR 2, 83 P.3d 856, 874–75.
50. Williams, 529 U.S. at 393, 120 S.Ct. at 1513
(defendant prejudiced where counsel’s actions
deny him a substantive or procedural right to
which he is entitled by law); Strickland, 466 U.S.
at 694, 104 S.Ct. at 2068; Hooks, 19 P.3d at 317.
51. Blonner v. State, 2006 OK CR 1, 127 P.3d
1135, 1139–40; State ex rel. Lane v. The Hon.
Jerry D. Bass, 2004 OK CR 14, 87 P.3d 629, 633;
Murphy v. State, 2002 OK CR 32, 54 P.3d 556,
567.

Okl.

1115

the age of 18; (3) accompanied by significant
limitations in adaptive functioning in at least
two of nine enumerated skill areas.54 All the
evidence in the record, including the evidence
from the first trial and competency hearing,
indicates that Harris could not meet this test.
Despite these two IQ scores, all Harris’s
other IQ scores were over 70. All Harris’s
experts, including the ones who testified at
his first trial and competency hearing, considered these scores along with Harris’s other characteristics and concluded he was not
mentally retarded.55 Harris’s expert, Dr.
Draper, testified at his trial that he was not
mentally retarded. She and other experts
stated in this and other proceedings that
Harris was ‘‘slow’’ or of low intelligence, but
all agreed that his employment history, aptitude as a transmission mechanic, and other
characteristics were not those of a mentally
retarded person.
¶ 32 Harris argues that this Court cannot
dispose of this claim using the prejudice analysis above. He admits the test for ineffective assistance of counsel is whether there is
a reasonable probability that, but for counsel’s unprofessional errors, the results of the
trial would have been different.56 Regarding
this claim, the different result would have
been a finding of mental retardation and
ineligibility for the death penalty. Thus, the
Court is required to review the record to see
whether, had counsel requested a hearing,
Harris would have prevailed on his claim of
mental retardation. There is no support in
the record for such a conclusion. However,
52.

Blonner, 127 P.3d at 1139.

53. All the experts for both the State and defense
agreed that these IQ test results, taken during
pretrial proceedings and while there were doubts
raised as to Harris’s competency, were less reliable than his other test scores, which were over
70.
54.

Murphy, 54 P.3d at 566.

55. One expert did testify at the competency hearing that, based on the two low scores, he believed
he had to say Harris was mildly mentally retarded, but that was not his conclusion after examining Harris and he found the scores surprising.
56.

Strickland, 466 U.S. at 687, 104 S.Ct. at 2064.

Resp. App. 130

1116

Okl.

164 PACIFIC REPORTER, 3d SERIES

Harris argues that only a jury, not this
Court, may make a determination of a defendant’s possible mentally retarded status under any circumstances. Harris has misunderstood this Court’s jurisprudence on this
issue. In a series of cases involving retroactive capital post-conviction procedures, this
Court has declined to make an initial finding
of fact regarding mental retardation, remanding for jury determination the question
of whether a capital defendant, convicted and
currently on Death Row, is mentally retarded.57 That is not the issue here. The issue
is whether, on this record, Harris’s counsel
was ineffective for failing to ask for a pretrial
determination of mental retardation. Nothing in this record shows that, had counsel
made that request, evidence would have
shown by a preponderance of the evidence
that Harris was mentally retarded. There is
a great deal of evidence in the record to show
otherwise, including the opinion of several
experts who testified that Harris was not
mentally retarded. We cannot conclude
there was a reasonable probability that, but
for counsel’s omission, the results of this
resentencing proceeding would have been
different.
[31, 32] ¶ 33 In Proposition II Harris
claims that trial counsel was ineffective for
failing to present evidence of diminished
mental capacity and probable mental illness.
This evidence was available to counsel or
easily discoverable, and much of it was presented at Harris’s first trial. Trial counsel
has a duty to investigate and present relevant mitigating evidence.58 However, where
counsel makes an informed decision to pursue a particular strategy to the exclusion of
other strategies, this informed strategic
57. See, e.g., Pickens v. State, 2005 OK CR 27, 126
P.3d 612, 616; Lambert v. State, 2005 OK CR 26,
126 P.3d 646, 650; Murphy v. State, 2005 OK CR
25, 124 P.3d 1198, 1208.
58. Rompilla, 545 U.S. at 380–81, 125 S.Ct. at
2462; Wiggins, 539 U.S. at 523, 123 S.Ct. at
2536; Williams, 529 U.S. at 393, 120 S.Ct. at
1513; Strickland, 466 U.S. at 694, 104 S.Ct. at
2052. See also Garrison v. State, 2004 OK CR
35, 103 P.3d 590, 619 (appellate counsel’s failure
to adequately participate in evidentiary hearing
on ineffective assistance of trial counsel, waiving
the issue, was itself ineffective where trial coun-

choice is ‘‘virtually unchallengeable’’.59 We
have noted that among counsel’s basic duties
is ‘‘to make informed choices among an array
of alternatives, in order to achieve the best
possible outcome for the client.’’ 60 The
United States Supreme Court has found
counsel ineffective where the failure to thoroughly investigate and present mitigating evidence ‘‘resulted from inattention, not reasoned strategic judgment.’’ 61
¶ 34 At Harris’s resentencing trial, defense
counsel presented mitigating evidence
through Harris’s sister, brother, former coworker and employer, son-in-law, and two
daughters. His most extensive mitigating
evidence was presented through Dr. Draper,
an expert witness in developmental analysis.
Dr. Draper testified extensively regarding
the developmental processes that led Harris
to commit these crimes. She began by discussing his tumultuous and abusive childhood. She described his medical problems
throughout childhood as well as his learning
disabilities, low intelligence, and academic
and social problems in school, including
schoolyard fights. Dr. Draper described
how, during Harris’s teenage years, his father taught him to be a transmission mechanic but also taught him to use drugs and
alcohol regularly. Dr. Draper discussed the
very negative effect on Harris of his mother’s
lingering death from cancer, the death of his
grandparents, and the family’s separation.
She testified regarding Harris’s brief first
marriage. Dr. Draper noted that Harris’s
first wife had alleged he was abusive and
filed for a victim’s protective order and divorce, but said Harris’s first wife told her
that Harris did not abuse her and she had
said otherwise because she wanted to leave
him. Dr. Draper told jurors of Harris’s atsel had failed to investigate or present mitigating
evidence).
59. Jones v. State, 2006 OK CR 5, 128 P.3d 521,
535, cert. denied, ––– U.S. ––––, 127 S.Ct. 404,
––– L.Ed.2d ––––, quoting Strickland, 466 U.S. at
690–91, 104 S.Ct. at 2066. See also Thacker v.
State, 2005 OK CR 18, 120 P.3d 1193, 1195
(presumption of sound trial strategy has highly
deferential review).
60.

Jones, 128 P.3d at 535.

61.

Wiggins, 539 U.S. at 526, 123 S.Ct. at 2537.

Resp. App. 131

HARRIS v. STATE
Cite as 164 P.3d 1103 (Okla.Crim.App. 2007)

tempt at suicide when his first wife left him.
She explained that for several years Harris
and Pam had custody of his daughters, and
described his love for his daughters as well
as his inability to engage emotionally as a
parent. She described his relationship with
Pam, including a mutual pattern of verbal
and emotional abuse. Dr. Draper showed
jurors how Harris depended on Pam emotionally and professionally.
¶ 35 Throughout her testimony Dr. Draper
emphasized that Harris’s chaotic and troubled background resulted in extreme emotional instability. She discussed how his low
intelligence and chronic substance abuse contributed to his inability to handle stress or
resolve problems. She described Harris’s
reliance on Pam, and his feelings of despair
and devastation when Pam left him. Dr.
Draper also emphasized Harris’s anger at his
situation, and at the loss of his tools, and his
inability to control or appropriately express
his anger. She testified that this inability
was caused by Harris’s immaturity, emotional instability, poor judgment, and confusion.
She noted his expressions of remorse for
Merle Taylor’s death, while agreeing that
Harris still blamed Pam for leaving him and
causing him to commit the crimes. She discussed psychological methods of predicting
future violence, and testified that in a controlled environment, medicated, without access to controlled substances and without a
romantic partner, she did not believe Harris
would be dangerous. Dr. Draper testified
that Harris had been diagnosed as mentally
ill and was on psychotropic medications in
jail. She stated that she did not further
explore the area of mental illness because
those diagnoses had been made after the
crimes occurred, and her focus was on explaining Harris’s actions and symptoms of
underlying difficulties which led to the
crimes. However, her observations of Harris’s behavior were consistent with the diagnoses.
¶ 36 After Dr. Draper testified, counsel
attempted to have a representative from the
jail testify regarding the medications Harris
took for his mental conditions. Counsel
failed to give notice of this testimony to the
State. The trial court noted that mere evi-

Okl.

1117

dence Harris was on medication would encourage jury speculation regarding Harris’s
mental condition. Harris argues that this
attempt shows counsel realized he had erred
in failing to present evidence of mental illness.
¶ 37 Harris complains that counsel failed to
present extensive evidence regarding his
mental state and diagnoses of mental illness.
Most of this evidence was presented at Harris’s first trial or his competency proceedings, and was readily available to counsel. A
significant portion of this evidence was presented at the first stage of Harris’s original
trial, to argue his mental state could not
support a finding of malice, rather than as
evidence in mitigation. After the crimes,
questions were raised regarding Harris’s
competency. At one point he was sent to
Eastern State Hospital, received treatment
and medication, and was declared competent.
Doctors representing the court, the State,
and the defense examined Harris throughout
the pretrial proceedings. He received several diagnoses of mental illness: bipolar disorder with psychotic features, schizo-affective
disorder, depressive with psychotic features.
Experts agreed at the very least Harris was
clinically depressed. They all also noted his
low intelligence. One expert for the State,
and the doctors at Eastern State Hospital,
suspected Harris was either malingering or
exaggerating his mental condition. One defense expert testified that, based on his contact with Harris shortly after the crimes,
Harris was probably suffering from mental
illness at the time of the crimes. Nobody
believed that Harris’s mental illness, even if
present when the crimes were committed,
rendered him legally insane; the experts
agreed that Harris knew right from wrong
and understood the consequences of his actions. Harris’s experts described the connection his mental illness and chronic substance abuse may have had with the crimes.
They testified that as a consequence of his
mental state, Harris was low functioning and
emotionally unstable, unable to solve problems or take action towards goals, highly
agitated and angry. At the first trial, Harris’s expert on future dangerousness testified
that he could not say Harris would not be a
danger to society; he did say that, in a

Resp. App. 132

1118

Okl.

164 PACIFIC REPORTER, 3d SERIES

controlled environment and with medication,
Harris would present less danger than otherwise.
[33] ¶ 38 After thoroughly considering
the evidence which was presented at Harris’s
resentencing trial, and the evidence which
was presented earlier and could have been
presented, this Court concludes that counsel
was not ineffective. Counsel was aware of
the evidence of mental condition and status.
Rather than rely on it to persuade jurors
that Harris’s mental state and after-diagnosed mental condition were mitigating circumstances, counsel chose a different path.
He called Dr. Draper to testify regarding
Harris’s development over his life. This evidence was comprehensive. It included Harris’s troubled and abusive childhood, his low
IQ and trouble in school, his difficulty with
marital relationships, his relationships with
his family and daughters, his dependency on
Pam, the mutually abusive nature of that
relationship. Dr. Draper also discussed Harris’s chronic substance abuse which began
when he was a teenager with his father, his
poor judgment, anger and inability to solve
problems, and his extreme emotional instability. She also discussed the likelihood that,
based on his past behavior and mental state,
Harris would be a danger in the future.
While Harris’s specific diagnoses of mental
illness were not presented to the jury, jurors
were told he had been diagnosed as mentally
ill. Those diagnoses were made after the
crimes, and Dr. Draper did describe the
highly emotional mental state Harris was in
at the time of the crimes. Dr. Draper used
all this evidence to explain why Harris could
not accept his circumstances and resorted to
murder.
¶ 39 Harris claims that the prejudice from
this decision is evident. At the first trial,
jurors heard much of this evidence. During
deliberations, they asked a question about
the type of prison in which Harris might
serve a sentence of imprisonment. The trial
court’s answer to this question, which was
inaccurate as a matter of law, resulted in the
case’s reversal and this resentencing trial.62
62.

Harris, 84 P.3d at 757.

Harris contends this indicates that his first
jury seriously considered imposing a sentence of less than death, and claims that, had
the evidence been presented again, his resentencing jury would have done the same.
This Court cannot speculate as to why Harris’s first jury asked their question, or what
its sentencing intent might have been.
Counsel chose to provide Harris’s resentencing jury with a thorough picture of his life,
intelligence, and emotional state, including
his anger, grief and despair immediately preceding the crimes. Through Dr. Draper,
jurors heard evidence which encompassed or
incorporated some of the evidence presented
at the first trial. We will not second-guess
counsel’s reasoned strategic judgment.
Counsel’s choice of mitigating evidence did
not amount to ineffective assistance.
¶ 40 In Proposition XI Harris raises several claims of ineffective assistance of counsel.
He fails to show any prejudice from counsel’s
alleged omissions, and we will not find counsel was ineffective.
¶ 41 Harris first notes that counsel failed
to object to errors raised in previous propositions, and asks that those be reviewed for
ineffective assistance of counsel. As we have
found no error in the previous propositions,
counsel cannot be ineffective for failing to
raise objections to issues contained therein.63
Harris also claims counsel failed to conduct a
thorough and independent investigation of
his case. We found in Propositions I and II
that counsel was not ineffective for failing to
claim Harris was mentally retarded, or for
failing to present the evidence of mental
status and mental illness raised in his first
trial and competency proceedings. Relying
on the issues raised in Propositions I and II,
Harris claims that counsel failed to independently investigate the case as previously developed in order to satisfactorily conclude
that the extant evidence was viable and reliable. This appears to be speculation, as the
record does not support this allegation.
[34] ¶ 42 Harris also claims that counsel
failed to present evidence directly bearing on
the continuing threat aggravating circum63. Williams, 529 U.S. at 393, 120 S.Ct. at 1513;
Strickland, 466 U.S. at 694, 104 S.Ct. at 2068.

Resp. App. 133

Okl.

HARRIS v. STATE
Cite as 164 P.3d 1103 (Okla.Crim.App. 2007)

stance. In fact, Dr. Draper did discuss
methods for predicting future dangerousness,
and gave her opinion that Harris would not
be a future danger to society. Harris argues
that counsel should have presented an expert
on risk assessment, who could have provided
an accurate and scientifically sound analysis
of the exact likelihood that Harris would be a
future danger. The experts who testified at
Harris’s first trial, and Dr. Draper, all testified that he was in fact likely to pose a risk of
future danger. Harris’s experts testified
that, under particular circumstances likely to
be found in prison, that risk was significantly
lessened, but they all agreed that Harris
posed more risk to the general population
than the average person. Given this evidence, we will not say counsel was unreasonable for choosing not to stress the issue of
Harris’s potential for danger to society by
using risk assessment evidence.64
¶ 43 This proposition is accompanied by an
Application for Evidentiary Hearing. To
support his claim that counsel did not conduct a thorough independent investigation,
Harris provides an affidavit with a psychological evaluation conducted after the trial
ended. As he notes in his brief, this evaluation is consistent with other psychological
evaluations which were available to counsel.
To support his claim that counsel failed to
present evidence bearing on the continuing
threat aggravating circumstance, Harris offers an affidavit containing a risk assessment
profile. This profile reaches a similar conclusion to that of Dr. Draper and other experts—in a controlled, structured environment, medicated, without access to controlled
substances, and without a romantic relationship such as that with Pam, Harris poses
little threat to society. The application for
evidentiary hearing and supplemental materials do not contain sufficient information to
show this Court by clear and convincing evidence there is a strong possibility trial counsel was ineffective for failing to use or identi64. Jones, 128 P.3d at 535; Strickland, 466 U.S.
at 690–91, 104 S.Ct. at 2066.
65. Rule 3.11(B)(3)(b), Rules of the Oklahoma
Court of Criminal Appeals, Title 22, Ch.18, App.
(2007).

1119

fy the evidence.65 Harris’s Application for
Evidentiary Hearing is denied.
Cumulative Error
¶ 44 In Proposition XII Harris claims that
the accumulation of errors in the preceding
propositions requires relief. In Proposition
III, we found the trial court erred in failing
to bring the jury into open court when a
question was presented in deliberations, but
that error was harmless. In Proposition VI
we found that error in argument was cured
by instructions. Even taken together, these
errors do not require relief.66
Mandatory Sentence Review
[35] ¶ 45 We must determine (1) whether
the sentences of death were imposed under
the influence of passion, prejudice, or any
other arbitrary factor, and (2) whether the
evidence supports the jury’s findings of aggravating circumstances.67 Upon review of
the record, we cannot say the sentences of
death were imposed because the jury was
influenced by passion, prejudice, or any other
arbitrary factor.
¶ 46 The jury was instructed on and found
the existence of two aggravating circumstances: (1) the defendant knowingly created
a great risk of death to more than one person, and (2) there existed a probability that
Harris would commit criminal acts of violence which would constitute a continuing
threat to society. Harris presented evidence
that he was abused and neglected as a child,
suffered the death of his mother as a teenager, had low intelligence, was a chronic substance abuser, was mentally ill, and was very
dependent on Pam Harris; that he had no
prior convictions, had no misconduct citations
in prison and only one while incarcerated in
jail, had a good prison record and could live
within prison society; that his family loved
and needed him and he was remorseful for
his actions. The jury was specifically instructed on thirteen mitigating factors, and
invited to consider other mitigating evidence
66.

Browning, 134 P.3d at 846.

67.

21 O.S.2001, § 701.13(C).

Resp. App. 134

1120

Okl.

164 PACIFIC REPORTER, 3d SERIES

they might find.68 Upon our review of the
record, we find that the sentences of death
are factually substantiated and appropriate.
¶ 47 Jimmy Dean Harris was tried by jury
and convicted of Murder in the First Degree,
in the District Court of Oklahoma County,
Case No. CF–1999–5071, resentenced to
death, and appeals. The Sentence of the
District Court is AFFIRMED. Pursuant to
Rule 3.15, Rules of the Oklahoma Court of
Criminal Appeals, Title 22, Ch. 18, App.
(2007), the MANDATE is ORDERED issued
upon the delivery and filing of this decision.
LUMPKIN, P.J.: concur in results.
C. JOHNSON, V.P.J., A. JOHNSON and
LEWIS, JJ.: concur.

,
2007 OK CIV APP 59

Mary Linda McCALL, an individual,
Plaintiff/Appellant,
v.
CHESAPEAKE ENERGY CORPORATION, an Oklahoma corporation; and
Chesapeake Operating, Inc., an Oklahoma corporation, Defendants/Appellees.
No. 102,929.
Released for Publication by Order of the Court
of Civil Appeals of Oklahoma, Division No. 2.

Court of Civil Appeals of Oklahoma,
Division No. 2.
Jan. 9, 2007.

judgment action seeking determination of
rights and responsibilities under joint operating agreement (JOA) with operator of
the wells, and seeking a finding that the
JOA was not a marketing agreement, and
that she was entitled to market her proportionate share of production from the
wells under the Natural Gas Market Sharing Act (NGMSA). Operator counterclaimed, seeking declaration that it had no
obligation to market owner’s share of production under the NGMSA, and a determination of owner’s election to market share
in one well under the NGMSA. The District Court, Vicki L. Robertson, J., entered
summary judgment in favor of operator.
Owner appealed.
Holdings: The Court of Civil Appeals,
John F. Fischer, J. held that:
(1) owner could not elect to market share
under NGMSA for wells covered by
JOAs;
(2) owner was obligated to bear her proportionate share of marketing fee for
well not covered by JOA;
(3) owner’s election to market share in
well not subject to JOA was not retroactive; and
(4) corporate parent of operator was not a
necessary party.
Affirmed.

Certiorari Denied April 9, 2007.
Approved for Publication by Order of the
Supreme Court April 9, 2007.

1. Appeal and Error O893(1)

Background: Owner of working interests
in natural gas wells brought declaratory

On de novo review, the Court of Civil
Appeals exercises its independent judgment

68. Harris had no prior convictions; had no reported misconduct as a Department of Corrections inmate; had a lifelong addiction to drugs
and alcohol beginning at age 14; Harris was
continuously confined from September 9, 1999,
to the date of trial, but had only one misconduct
write-up in the Oklahoma County Jail; on the
morning of the crimes Harris was overwhelmed
by the powerful emotions of anger and fear of life
without Pam Harris; was capable of living cooperatively within prison society; was diagnosed
with a low I.Q. which made it difficult for him to

solve problems; Harris has a sister and brother
who love him; has daughters who love and need
him; is remorseful for what he did and the pain
he caused the Taylor family and his own family;
his mental condition, alcoholism and drug abuse
combined with strong emotions led to his decision to bring a gun to AAMCO Transmission and
murder Taylor; as a young child Harris was
beaten by his father and neglected by both parents; Harris’s mother, the one adult who consistently loved him, died of cancer when he was a
teenager. Instruction No. 9.

Resp. App. 135

EXHIBIT

lg
COUNTY OF PAYNE
)
)
)

ss

STATE OF OKLAHOMA

AFFIDAVIT OF JENNIFER L.

CALLAHAN,

Ph.D.

1.

My name is Jennifer L. Callahan.
I am a licensed psychologist
in the State of Oklahoma, specializing in clinical psychology.
My Curriculum Vitae is attached as Exhibit 1.
I have personal
knowledge of the facts stated in this Affidavit.

2.

I was retained by Mr. Michael D. Morehead, an attorney with the
Oklahoma Indigent Defense System, to evaluate Mr. Jimmy Dean
Harris.
I was asked to perform a neuropsychological evaluation
in order to assist Mr. Harris' legal counsel in defining his
current
neurocognitive
profile
in
comparison
to
other
individuals of his age and educational level and to serve as a
comparison with resultB of past testing.
I was also asked to
identify
the
need
for
any
potential
future
neurological
testing.

3.

At
the
request
of
Mr.
Morehead,
I
conducted
a
neuropsychological evaluation of Mr. Harris on March 13, 2006,
for approximately 7 hours.
The evaluation was conducted at the
Oklahoma State Penitentiary in McAlester, Oklahoma.

4.

Mr. Harris was informed of the nature of the evaluation.
Mr.
Harris was also informed that the evaluation would form the
basis of a written report which would be delivered to his
defense
attorney,
Mr.
Morehead.
I
then
conducted
a
neuropsychological evaluation, as described more fully in my
Neuropsychological Consultation Report which is attached as
Exhibit 2.
5. Based upon my evaluation and the source materials provided to
me, I have formed an opinion within a reasonable degree of
scientific
certainty
that
Mr.
Harris
obtained
consistent
. results during the evaluation, with no indication of variable
effort or malingering.
This evaluat:lon, in conjunction with
past evaluations,
indicates that Mr.
Harris is functioning
within
the
borderline
range
for
intellectual
abilities.
However, his cognitive abilities are not uniformly at this
level and he demonstrates a range of strengths and weaknesses.
Cognitive weaknesses that may be particularly salient to the
instant crime include the following:
a. Mr.
Harris
evidences
impaired
speed
for
processing
information.
When information is presented at a rapid
rate, he is unable to process it efficiently and use that
information to make decisions.
b. Mr. Harris demonstrates impaired ability to reason when a
situation or problem i's ambiguous.
c. Mr.
Harris'
obtained results indicate that he has an
impaired ability to
anticipate
consequences
and plan
effectively.

Resp. App. 136

d. The history of psychosis and current
further neurological evaluation.
I

state

under

penalty

of

perjury

under

the

presentation

laws

of

merit

Oklahoma

that the foregoing is true and correct.

}" " -·

~---'\nnh;,__bf .·~
" "~:P v-vu
" r(\
(~~
--o~/ \d:Lo~~

-.

1

JENNIFER L. CALLAHAN
Subscribed and
2006.

sworn before me

My commission number is:
My commission expires:

this

OYOOfCfl<.P

3/'J... }0~

day

NOnRY PUBLIC

of

April,b((X)~

~0 ~"

Resp. App. 137

Exhibit A-1

Resp. App. 138

-

Vrt.J/ U\.J/ "'"VVV

.._ .. • V"%

l. .I~

":EVU

I ""Z"%

VVV I

CURRICULUM VITAE

JENNIFER L. CALLAHAN
Office Address:
Department of Psychology
Oklahoma State University
215 N. Murray
Stillwater, OK. 74078-3064
(405) 744-3788
FAX: (405) 744-8067

Home Address:
21 19 S. August St.
Stillwater, OK 74074
(405) 533-154 7
Email: jennifer.callahan@okstate.edu

EDUCATION

1997-2003

"

University of Wisconsin-Milwaukee
Ph.D. August, 2003

Milwaukee, WI

Clinical Psychology

Dissertation: Test of the Dose-Effect and Phase Models of Psychotherapy Outcome

Committee: Michael Hynan, Ph.D. (Chair), Vincent Adesso, Ph.D., ABPP; Anthony
Hains, Ph.D.; Susan Lima, Ph.D.; Robyn Ridley, Ph.D.

• M.S. May, 2000 Clinical Psychology
Thesis; Validity of the Perinatal Posttraumatic Stress Disorder Questionnaire
Committee: Michael Hynan, Ph.D. (Chair), Vincent Adesso) Ph.D., ABPP; Susan Lima,
Ph.D.; Robyn Ridley, Ph.D.

1989-1992

..

Jamestown Co1Iege
B.A.

May, 1992

Jamestown, North Dakota

Majors: Psychology; Applied Music; Music Education
I

Summa Cum Laude, with Honors
HONORS
1989-1992

1990-1992
1990-1991

1991
1991

1992
2000
2003
2005
2005

Jamestown College Achievement Scholarship
National Presbyterian Scholarship
Jeannette Gray Kroeze Music Scholarship
College Fellow (honorary academic ranking)
Alpha Chi National Academic Honor Society
Summa. Cum Laude, with honors for undergraduate thesis
Fazio Research Prize
Wisconsin Psychological Association Poster Award
College of Arts and Sciences Summer Research Award
APA Advanced Training Institute Fellowship (declined)

PROFESSIONAL POSITIONS
January 2005- Present
Oklahoma State University
• Director, Psychological Services Center

Stillwater, OK

Direct daily operations of the training clinic associated with the Department of Psychology. Oversee
personnel, budget, training, and future planning of the clinic.

December 2004- Present
Yale University
• Visiting Lecturer, Department of Psychiatry

New Haven, CT

Collaborate in on-going research projects related to psychiatry genetics as well as the prodromal to
psychosis studies.

Resp. App. 139

05/09/2006 TUE 09:47

{TX/RX NO 5342] ~002

VU'

VV'

.... V V V

. . . . . • 'V'OI:

~ "~

OIO'Y''Y'

I

""X"'X

"'"'"'I

Callahan 2

August 2004 - Present

•

Oklahoma State University

Stillwater, OK

Assistant Professor, Department of Psychology
Tenure-track faculty position in an APA accredited doctoral program for clinical psychology. Tea.ch
graduate level courses in assessment and provide practicum supervision of psychotherapy and
assessment services by predoctoral students. Director of Center for Applied Clinical Research.

July 2003 -July 2004

•

New Haven, CT

Yale University

Postdoctoral Associate, Psychological and Neuropsychological Assessment Service
Duties included providing clinical services within a variety of populations and settings~ supervision of
doctoral candidates in research and clinical activities, and conducting independent as weU as
collaborative research. Provide day-to-day administration of service, involving 15-20 contracts and
placements across settings.

July 2002- June, 2003
•

Yale University

New Haven, CT

Psychology Fellow, Psychological and Neuropsychological Assessment Service
Primary placement duties included providing psychological and neuropsychological assessments or
consultations in psychiatric and cognitive rehabilitation settings with both inpatients and outpatients.
s~condary placement was as a primary clinician in an inpatient psychiatric setting.

August 1997 -July 2002
•

University of Wisconsjn-Milwaukee

Milwaukee, WI

Clinical Psychology Trainee
Completed rotations in outpatient, inpatient, and residential treatment settings providing brief and
longwterm individual and group therapy to children, adolescents, adults, and families from diverse
backgrounds for a wide range of referral concerns. Also provided psychological assessments,
consultations, and program development in these settings.

Jun~.

"

1998

Indian Community School Project

Milwaukee, WI

Psychometric Technician
Administered and scored Woodcock-Johnson PsychoeducationaJ Battery; Revised protocols to Native
American children in K4 through 5th grades as part of a school-wide assessment of curricular
effectiveness.

July, 1993- May, 1998
•

Homme Youth and Family Programs

Wittenberg, WT

Lead Therapist (1993-1996)
Responsibilities included pre-placement interviews and placement decisions, individual, group and
family assessment, treatment planning, therapy, and comprehensive case management of delinquent
and at-risk youth.

•

Training Coordinator I Special Projects Manager (1996- 1998)
Responsibilities included design, implementation and supervision of a comprehensive training
program for 250+ staff members. As special projects manager, diverse duties included negotiating
managed care contracts, grant writing, coordination of consultation services, and screening of
employee applicants. Specialized in identifying strengths and weaknesses, suggesting remediation
steps and guiding the implementation of corrective action plans for problematic programs, services
and employees. Also served as a member of the Regional Steering Team tbr the larger agency.

Resp. App. 140
05/09/2006 TUE 09:47

[TX/RX NO 5342] 14J003

........

VVI

VV/

-.VVV

... .._ • VV

.L .!.a..l:;a..

"'ZVY

I ""Z"'Z

YVV I

Callahan3

COLLABORATIVE RESEARCH EXPERIENCE

April 2004-present

Psychiatry Genetics Study
Yale University
Provide neuropsychological assessments focusing on declarative memory in a family
study with known genetic mutation, implicating hippocampal functioning, that may be
linked to psychopathology.

March 2003July 2004

Alzheimer's Disease Research Unit
Yale University
Provide assessment of individuals experiencing progressive dementing conditions in
clinical trials with usage ofCiinician•s Interview Based Impressions of Change (CIBIC)
and Clinical Dementia Rating (CDR) instruments~ as well as quantitative
neuropsychological measures. Attend Al7..heirner's Disease Collaborative Study (ADCS)
meetings as representative of Yale group.

June 2002-

Prevention through Risk Identification, Management, and Education (''PRIME")
and Prodromal Research for Early Detection in a Collaborative '{earn
(":PREDIC'l'") Projects
Ya.le University
Serve as site coordinator for neurocognitive and social cognitive measurement. Provide
neuropsychological and social cognition assessments to adolescents who are considered
at-risk for the development of schizophrenia due to the display of what are thought to
constitute prodromal symptoms. Participants are enrolled in longitudinal study of
schizophrenia from a prospective research design in a multi-site study. Also, provide
training and on-going supervision in neuropsychiatric and social cognition measures to
pre-doctoral fellows.

Present

July 2002 -July 2004

Transcranial Magnetic Stimulation Study
Yale University
Complete neuropsychological assessments of participants enrolled in study of
transcranial magnetic stimulation in individuals with psychosis.

January 2003-- "Sleep, Study

May2004

Yale University
Neuropsychological assessmenr of individuals enrolled in 28-day sleep study in which
cocaine dependent participants reside on inpatient unit and undergo nightly sleep study.
Participants neuropsychological functioning is evaluated in context of early and late
abstinence as well as during cocaine binges. Part of a multi-site study.

September 2000 Psychotherapy Research Team
University ofWisconsin-Mi1waukee
-May 2003
One of the founding members of an on-going research team affiliated with the UWM
Psychology Clinic. Designed and implemented a clinica] database that is now fuJiy
operational and utilized for clinical record keeping with all psychotherapy clients seen in
the clinic. Analyzed the role of client /therapist bond in psychotherapy outcome.
PUBLICATIONS
Callahan, J.L., & Hynan, M.T. (2000). The validity of the Perinatal Posttraumatic Stress
Disorder Questionnaire. Journal ofPerinatology, 20, 13 7-138. (abstract).
CaUahan, J.L., & Hynan, M.T. (2002). Construct Va.lidity ofthe Perinatal Posttraumatic Stress
Disorder Questionnaire: A Replication and Extension. Journal ofPerinatology, 22, 448-454.
Callahan, J.L. (2002). Survivor: Internship Match. The Wisconsin Psychologist, May/June, 7-8.

Resp. App. 141
05/09/2006 TUE 09:47

ITX/RX NO 53421 14J004

Callahan4

Callahan, J.L. (2003)_ The case of the tumbling tumbleweed: Multiple co-morbid conditions and
the use of supportive factors. Clinical Case Studies, 2(3), 224-235.
Callahan, J.L. (2003 )- Androgen insufficiency and female sexual motivation. APS Observer,
16(8), I 8.
Callahan. J. L. (2003 )- Crib notes for infants. APS Observer, J6{8), 21.
Callahan, J.L. & Hynan, M.T. (2003). An exploratory factor analysis of the Perinatal
Posttraumatic Stress Disorder Questionnaire, Revised. Journal of Perinatology, 23, 176-1 77.
(abstract).
Callahan, J.L. & Hynan, M.T. (2005). Models ofPsychotherapy Outcome: Are They Applicable
In Training Clinics? Psychological Services, 2, 65-69.
Callahan, J·.L., Swift, J.K. & Hynan, M.T. (in press). Test of the Phase Model of Psychotherapy
in a Training Clinic. Psychological Services

Callahan, J.L. (in press). Demographically Corrected Norms: A Case Hlustration in High Stakes
Testing of this Unmet Need among Native Americans. Clinical Case Studies

MANUSCRIPTS UNDER REVIEW
Callahan, J.L. & Almstrom, C. (under review). Therapy-Specific and Trans-Situational Alliance
Factors in a Training Clinic Environment_
Callahan, J.L. (under review). The Tree of .Knowledge: An Examination oflts Roots to Promote
Future Growth.

Callahan. J.L., Borja, S.~ & Hynan, M.T. (under review). Modification of the Perinatal PTSD
Questionnaire to Enhance Clinical Utility.
Bo~ja,

S., Callahan, J.L., & Long, T. (under review). Positive and Negative Adjustment and
Social Support of Sexual Assault Survivors

Leffingwell, T.R., Collins, F., Callahan, J.L., & Cohen, L.M. (book chapter; under review).
Evidenced Based Practice of Substance Disorders: Research Evidence
Collins, F., Callahan • .J.L., Leffingwell, T.R., & Cohen~ L.M. (book chapter; under review).
Evidenced Based Practice of Substance Disorders: Clinical Expertise

Callahan, J.L., & Cohen, L.M., Collins, F., & Leffingwell, T.R. (book chapter; under review).
Evidenced Based Practice of Substance Disorders: Patient Values

PEER-REVIEWED PRESENTATlONS
Callahan, J.L., & Hynan, M.T. (October, 1999). Validity ofthe Perinatal Posttraumatic Stress
Disorder Questionnaire. Poster Presentation at the Annual Clinical Conference of the National
Perinatal Association. MUwaukee, Wl

Resp. App. 142
05/09/2006 TUE 09:47

[TX/RX NO 5342]

~ 005

'Y''V'f

,.,..,,

• " ' " ' ....

............... ...,....,

.....

..,

~..,..

...... .--·

-

------~

~·-

Callahan 5
Callahan, J.L., & Hynan, M.T. (April, 2000). dlidity ofthe Perinatal Posttraumatic Stress
Disorder Questionnaire. Paper presented at the Annual Graduate Student Research Symposium.
University of Wisconsin-Milwaukee.

Callahan, J.L. (March, 2002). Comparison ofteaching effectiveness and student satisfaction in
a web-enhanced versus traditional course curriculum. Paper presented at the Annual Graduate
Student Research Symposium. University of Wisconsin-Milwaukee.
Callahan, J.L. (May, 2002). Comparison of leaching effectiveness and student sa/.isfaction in a
web-enhanced versus traditional course curriculum. Poster presentation at the Council of
Teachers of Undergraduate Psychology~Midwestern Psychological Association Conference.
Chicago, IL.

Braun, M.M., Callahan, J.L., & Hynan, M.T. (August, 2002). Client-Therapist Bond as a
Predictor ofSyrnptornatic Improvement in Psychotherapy? Poster presentation at the American
Psychological Association Annual Conference. Chicago, IL.
Callahan, J.L., & Hynan, M.T. (August, 2002). Psychological Distress Before, During, and
After the September 11, 2001 Terrorist Attacks. Poster presentation at the American
Psychological Association Annual Conference. Chicago, IL.

CaUahan, J.L., & Hynan, M.T. (August, 2002). Scientist-practitioner research in a training
clinic and outcome questionnaire findings. Poster presentation at the American Psychological
Association Annual Conference. Chicago, IL.
Braun, M. M., Callahan J. L., & Hynan, M. T. (April, 2003). Psychotherapy
Outcome: Does Client-Therapist Bond Make a Difference? Poster presented at the
annual meeting of the Wisconsin Psychological Association. Madison, WI.
Callahan, J.L. (May, 2003). Traditional Tecu.:hing Methods Continue to Satisfy Students and
Encourage Responsibility. Poster presented at the American Psychological Society Annual
Convention. Atlanta, GA.
CaiJahan, J.L. & Hynan, M.T. (May, 2003). Examination ofthe Dose-Effect and Phase Models
of Psychotherapy Outcome. Poster presented at the American Psychological Society Annual
Convention. Atlanta, GA.

Callahan, J.L. & Hynan, M.T. (August, 2003). Psychometric findings ofthe Perinatal
Posttraumatic Stress Disorde'f' Questionnaire, Revised Poster presentation at the American
Psychological Association Annual Conference. Toronto, Canada.
Callahan, J.L. (November, 2003). Test ofthe Dose-Effect and Phase Models ofPsychotherapy
Outcome. Paper presentation at the North American Society for Psychotherapy Research Annual
Conference. Newport, RI.

Callahan, J.L. (October, 2005). Evidenced~based assessment ofdementia. Paper presentation at
the Oklahoma Psychological Association Annual Conference. Oklahoma City, OK.
FeHers, C. & Callahan, J.L. (February, 2006). Psychological Variables and Perception ofRisk in
Cheating Behaviors. Poster presentation at the Oklahoma State University Annual Research
Week. Stillwater, OK.
GRANTSMANSHIP

Resp. App. 143
05/09/2006 TUE 09:47

[TX/RX NO 53421 f41006

uo/U~t~uuo

~~;uo

raA quo

[qq

OUO/

Callahan 6
February 2005

Technology based clinical instruction
Internal Grant; Oklahoma State University
Awarded; $63; 157 plus $ 25K for asbestos abatement

October 2005

Technology for Applied Clinical Training
Internal Grant; Oklahoma State University
Awarded; $150,468

UNDERGRADUATE TEACHING EXPERIENCE

•

Psychopathology (course instructor)
Spring;2002

University of Wisconsin-Milwaukee

•

Personality Theories (course instructor)
Fa11,2001;Fall,2000

University of Wisconsin-Milwaukee

..

Social Psvcholog;y (course instructor)
Faii,200!

Carroll College, Waukesha, WI

•

Psychopatholo~

(teaching assistant)
Spring, 1999; Fall, 1998:

University of Wisconsin-Milwaukee

•

Child Psychology (teaching assistant)
Fall, 1997

University of Wisconsin-Milwaukee

Guest Lecturer

University of Wisconsin-Milwaukee

Spring, 200 I: Health Psychology
Spring, 2001: PersonalitY Theories
Spring; 200 I: Personality
Summer, 2000: Psychopathology
Summer, 1999: Child Psychology

GRADUATE TEACHING EXPERIENCE
•

Personali:ty Assessment (course instructor)
Faii,200S

Oklahoma State University

•

Cqgnitive Assessment (course instnzctor)
Summer, 2006

Oklahoma State University

•

Clinical Practicum (course instructor)
Faii,2004,2005;Spring,2005,2006

Oklahoma State University

•

Obiective Assessment (lead teaching assistant)
Fall, 2001; Fall, 2000; Fall, 1999

•

Projective Assessment (lead teaching assistant)
Spring, 2002; Spdng, 2001; Spring, 2000

University of Wisconsin-Milwaukee

University of Wisconsin-Milwaukee

Resp. App. 144
05/09/2006

TilE

09:47

[TX/RX NO 53421

~007

Exhibit

A~2

Resp. App. 145

..
NEUROPSYCHOLOGICAL CONSULTATION REPORT
Patient Name: Jimmy Dean Harris, Jr.
Date of Birth: 10/20/1956
Date of Evaluation: 03/13/2006
Examiner: Jennifer L. Callahan, Ph.D.

The following background information was obtained via self report during clinical interview and from records
provided by Mr. Harris' legal counsel.

IDENTIFYING INFORMATION AND REASON FOR REFERRAL
Mr. Harris is a 49-year-old, twice divorced, right-handed, Caucasian male in no apparent
distress, referred for evaluation by his appointed legal counsel to assist in defining his current
neurocognitive profile in comparison to other individuals ofhis age and educational level and to
serve as a comparison with results of past, and potentially future, testing.
BRIEF HISTORY
Social and Family History
Mr. Harris is the youngest of three children born in an intact family unit and raised in Oklahoma
City, Oklahoma. During an evaluation in childhood, Mr. Harris' mother described his birth and
early developmental milestone attainment as normal. Reportedly, Mr. Harris witnessed and
experienced physical abuse perpetrated by his father and his parents divorced when he was
approximately 8 years old. Following the divorce, Mr. Harris remained with his mother, who
typically worked two jobs to support the children. Both parents are now deceased. Family
history is remarkable for substance abuse (father and brother), cancer (mother and father), and
heart disease (father).
Mr. Harris married for the first time in 1977 and this union produced two daughters, before
formally dissolving in 1981. He then had another daughter with a woman, whom he later
married (1989), though this marriage also ended in divorce (1999).
Educational I Occupational History
Mr. Harris reportedly participated in special education services for reading, spelling, and math
during elementary school. The records are somewhat inconsistent in dating when Mr. Harris
discontinued formal education. Most records state that he dropped out during the 11th grade and
this is consistent with Mr. Harris' verbal self-report. However, at times it is reported that he·
completed 9th or 10th grade and elsewhere it indicates that he dropped out ofhigh school only 2
credits short of meeting matriculation requirements earning mostly C's and D's in his
coursework. Since discontinuing his formal education, Mr. Harris has worked inconsistently in
the oilfields, laying carpet, and plumbing. However, he primarily worked repairing
transmissions, a trade skill he learned from observation and informal instruction from co-workers
of his father (who was a mechanic).
Psychiatric and Medical History
Mr. Harris is status post chicken. pox (1961 ), status post appendectomy (1963), status post
tonsillectomy (1963), status post measles (-1964), status post left forearm fracture (1978), and

Resp. App. 146

Neuropsychological Consultation Report
Jimmy Dean Harris, Jr.

2

status post puncture wound to left hand, with resultant infection, necessitating surgery (1998). A
childhood accident involving a lawnmower resulted in a wire penetrating his abdomen and
necessitating surgery at approximately age 7.
In approximately 1978 or 1979, while his first marriage was dissolving, Mr. Harris reportedly
attempted suicide by drinking half a gallon of whiskey and another half a gallon of Raid,
resulting in hospitalization at Oklahoma Memorial Hospital and a diagnosis of heart arrhythmia.
Mr. Harris sustained a crushing injury on 1112811984 from a transmission being dropped on the
small finger of his right hand. After two surgeries, complicated by infection, amputation was
completed. Mr. Harris evidently compensated well for any loss of functioning with no lasting
impairment of occupational functioning ability following the procedure and recovery period.
Mr. Harris has a history of motor vehicle accident which allegedly resulted in concussion and
injury to neck and back (10/15/1998 in Dallas, TX), for which he underwent treatment (11/987/99) with Dr. Bill Gentry.
On 10/12/1999, Mr. Harris was admitted to Eastern State Hospital secondary to visual and
auditory hallucinations for treatment and restoration of competency. He was discharged
4/08/2000 with discharge diagnoses listed as: Major Depression, with psychotic features.
Competency was considered successfully restored.
Mr. Harris was readmitted to Eastern State Hospital on 6/06/2001 due to auditory hallucinations
with a goal of restoring competency. At that time his diagnosis was revised to Major
Depression, recurrent, with psychotic features. Intermittent memory problems were noted and
staff considered him to be "slow" in learning and processing information. Competency was
considered restored at discharge on 7/3 0/2001.
Finally, Mr. Harris reportedly has a long standing history of whiskey, marijuana, and valium
abuse dependence, with regular usage of alcohol and marijuana beginning at age 16. During his
period of greatest use, Mr. Harris was smoking 10 joints and drinking half a bottle ofNyQuil
daily, in addition to a case of alcohol weekly. Mr. Harris reportedly experienced repeated loss of
consciousness and legal involvement (public drunkenness and several DUI incidents) as a result
of his substance abuse. He has also previously reported experiencing seizure following ingest of
valium on at least three occasions. Finally, Mr. Harris has a history of cigarette smoking (up to 3
packs per day during his period of greatest use).

Evaluations to Date
Psychometric consultation on 4/20/1964 recorded diagnostic impressions of compulsive
personality, perception disorder, and dyslexia with further evaluation recommended at that time.
As a result, Mr. Harris underwent intelligence testing (Dr. Teresa Costiloe) for, apparently, the
first time at University of Oklahoma Hospital. Testing with the Stanford-Binet Revised resulted
in an estimated full scale IQ of 87. On the WISC, he obtained a full scale IQ of 83, with a nonsignificant difference between his obtained verbal IQ of 81 and non-verbal, performance IQ of
87. He was noted to be having learning difficulties in school as well as difficulty relating to
same aged children, communicating with family, and sleeping.

Resp. App. 147

Neuropsychological Consultation Report
Jimmy Dean Harris, Jr.

3

Bipolar Disorder with psychotic symptoms was diagnosed during serial competency evaluations
by Dr. John Smith (psychiatrist) spanning the course of Mr. Harris' court involvement. Dr.
Smith also diagnosed Mr. Harris as having Mild Mental Retardation, based in part on the
reported test results of the intelligence testing described below.
Intelligence testing on 10/20/2000 (Dr. Nelda Ferguson) with the WAIS-III resulted in a full
scale IQ of 63, without a statistically significant difference between his verbal IQ of 69 and nonverbal, performance IQ of 60. On the basis of these testing results, Mr. Harris was deemed to
evidence Mild Mental Retardation. Achievement testing (WRAT-3) demonstrated impaired
skills in word recognition (standard score: 66), spelling (standard score: 47), and arithmetic
(standard score: 64). Projective testing coupled with a review of Mr. Harris' background were
considered indicative of Bipolar Disorder and Borderline Personality Disorder. Of particular
note, the examiner observed what were thought to be several petit mal seizures during the
evaluation.
Another psychological evaluation was conducted from 3/08 to 3/21/2001 (Dr. Martin Krimsky)
while Mr. Harris was incarcerated. Intelligence testing with the Slossen (SIT-R) resulted in an
IQ equivalency of 66, while intelligence testing with the WAIS-R resulted in an IQ of 68. On
this basis, Mr. Harris was considered to have Mild Mental Retardation. Symptom presentation
and results of Rorschach testing were thought to be indicative of Bipolar Disorder with
psychosis.
Mr. Harris was seen on 4/8/2001 for evaluation of symptom feigning with the SIRS. All scores
fell within the honest or indeterminate range, with no scales falling in the probable or definite
range, which was counter to a malingering explanation for his symptom presentation.
Psychological evaluation was again performed on 7/20/2001 (Kim Burke, intern and Dr.
Elizabeth Grundy) while Mr. Harris was hospitalized at Eastern State Hospital. The MMPI-2
was considered uninterpretable due to Mr. Harris having an inadequate reading ability.
Evaluation of psychological symptom feigning was conducted with the SIRS with all scores
falling in the "honest" to "indeterminate" range. On the Test of Memory Malingering (TOMM)
he scored within normal limits. Cognitive testing with the WAIS-III, revealed borderline
impaired general intellectual abilities (FSIQ: 75) with no significant discrepancy between his
verbal abilities (VIQ: 79) and non-verbal, performance abilities (PIQ: 75). A relative strength in
span of auditory attention was noted. However, more in-depth testing of memory (WMS-III),
demonstrated borderline impaired general memory (Scaled score: 77), ~ith subcomponents of
memory ranging from the borderline impaired to low average range.
Medications
Primary medications used by Mr. Harris in the past several years, with good effect, include
Risperdal, Depakote, Celexa, Sinequan, Zoloft, Vistaril and Benadryl. Ineffectiveness of
Stelazine was noted. Recent medical records report no known medication allergies, but earlier
records indicate a codeine allergy.

Tests Administered

Resp. App. 148

4

Neuropsychological Consultation Report
Jimmy Dean Harris, Jr.
Animal Naming
Bells Test
Boston Naming Test
BriefVisual Memory Test-Revised (BVMT-R): Form 1
Brief Visual Memory Test-Revised (BVMT-R): Form 2
California Verbal Learning Test-11 (CLVT-11): Standard Form
California Verbal Learning Test-11 (CLVT-11): Alternative Form
Clock Drawing and Time Setting tasks
Digit Span (from Wechsler Memory Scale- III)
Digit Symbol-Coding (from Wechsler Adult Intelligence Scale- III)
Finger Oscillation
Graphic Sequencing
Greek Cross
Grip Strength
Grooved Pegboard
Hooper Visual Organization Test (Hooper)
Information and Orientation (from Wechsler Memory Scale- III)
Judgment of Line Orientation (JOLO): Form H
Letter Number Sequencing (from Wechsler Memory Scale - III)
Line Bisection
Lurian Motor Tasks
Repeatable Battery for the Assessment of Neuropsychological Status (RBANS): Form A
Rey-0 Complex Figure Test (Rey-0)
Ruff Figural Fluency Test (Ruff)
Stroop Color Word Test (Stroop)
Symbol Digit Modalities Test (SDMT)
Symbol Search (from Wechsler Adult Intelligence Scale- III)
Trail Making Tests (A & B)
Wechsler Abbreviated Scale of Intelligence (WASI)
Western Aphasia Battery (Abbreviated)
Wide Range Achievement Test- 4 (WRAT-4): Blue Form
Wide Range Achievement Test- 4 (WRAT-4): Green Form
WISC-III Mazes ,
Woodcock-Johnson III: Standard and Extended Cognitive Batteries (WJ:C)

Scoring Information
Raw score performances are converted to standard scores, represented as T-distributions with M=50 and SD=JO.
Lower values represent worse performance. Thus, T-values from 40 to 31 reflect "mild" impairment (i.e,, worse
than 1 SD from the mean), and T-values lower than 30 reflect "significant" impairment (i.e., worse than 2 SD from
the mean).

RESULTS
Behavioral Observations
Mr. Harris was well groomed but appeared somewhat older than his chronological age. He was
pleasant and cooperative, both upon approach and throughout the duration of the evaluation. He
was alert through the evaluation, which was accomplished in a single, extended session without
breaks. He ambulated without assistance or difficulty. Rate of speech rhythm and prosody were

Resp. App. 149

Neuropsychological Consultation Report
Jimmy Dean Harris, Jr.

5

unremarkable, but mild word finding difficulty with occasional compensatory circumlocutions
was evident. Mr. Harris denied experiencing current anxiety or depression and there was no
indication of hallucinations or delusional thinking at the time of the evaluation. There was no
evidence of noncompliance or symptom magnification and the results of this evaluation are
thought to be an accurate assessment ofMr. Harris' cognitive functioning from the point of view
of effort.
Orientation
Mr. Harris was alert, with no complaints of fatigue during the testing session. In assessing
orientation his only error was in misidentifying the town as "Oklahoma City" (instead of
McAlester). Nevertheless, he was able to properly name the correctional facility and was
otherwise fully oriented. Fund of personal knowledge was adequate for the purposes of the
evaluation.
Sensory-Perceptual Processes
Mr. Harris reportedly is prescribed corrective lenses, but he did not have them available during
the evaluation. However, no accommodations to testing materials or procedures were necessary
and the lack of corrective lenses is therefore not thought to have significantly interfered with his
performance on visually mediated tasks. On a task of line bisection he made two omissions, both
in the right visual field. On a more visually challenging symbol cancellation task, Mr. Harris'
performance was borderline impaired with three omissions in the left visual field and one
omission in the central field, despite taking adequate time for task completion and engaging in
routine self-monitoring of his performance. On a task requiring him to identify line orientations
Mr. Harris performed in the impaired range, with no localization of errors.
Attention, Concentration and Working Memory
Mr. Harris' span of auditory attention fell within the below average range (T=40), and the
discrepancy between his forward recall (6 digits) and reversed recall (3 digits) borders on
significance suggesting that his attention may be adversely impacted by increases in complexity.
This conclusion is supported by his below average WJ:C working memory index score (T=38)
and impaired (T=26) performance on a more complex working memory task that requires mental
ma,nipulation of letters and numbers. Similarly his RBANS attention index score, which is
partially dependent on processing speed, falls into the impaired range (T=29).
Processing Speed
On measures assessing Mr. Harris' speed of information processing, performances were
con~istently impaired. Although impaired, Mr. Harris' best performance was on a task of rapid
color naming (Stroop: T=32). On a similar task involving rapidly reading three color names
(red, blue, green) he performed more poorly (T=17), which is partially reflective ofhis poor
reading skills. On a simple visual motor processing task requiring the connection of serial
numbers (Trails A), Mr. Harris again performed in the impaired range (T=22). Mr. Harris also
performed in the impaired range on two different non-verbal coding tasks (Ts=26 and 23)
normed with different samples (WAIS-III and SDMT). Similarly, he performed in the impaired
range on a task of identifying matching symbols (T=20). Finally, Mr. Harris' decision making
speed was impaired (T=24). His WAIS-111 processing speed index score falls in the impaired

Resp. App. 150

Neuropsychological Consultation Report
Jimmy Dean Harris, Jr.

6

range (T=23), which is identical to his index score in the WJ:C index score for processing speed
(T=23).
Motor Functions
Finger Tapping
Grooved Pegboard
Grip Strength

Dominant: Impaired
Dominant: Impaired
Dominant: Impaired

Nondominant: Impaired
Nondominant: Impaired
Nondominant: Impaired

Mr. Harris demonstrated right-hand dominance and performed in the impaired range bilaterally
on all motor tasks presented to him, including: simple motor speed (Ts=24 and 28 for dominant
and nondominant hands, respectively), fine motor dexterity (Ts=33 and 28), and grip strength
(Ts=27 and 22). No abnormal laterality signs were noted. No akinetic tendencies were evident,
though mild tremor was evident on incidental behavior. Mr. Harris noted onset of tremor to have
followed initiation of psychotropic medications and considered the tremors to be a side effect of
his prescribed medications. Mildly tremulous lines were apparent on some drawing tasks as a
result of his tremor.
Language Functions
Spontaneous speech was typically fluent. Though occasional word finding difficulty was
demonstrated, Mr. Harris was able to convey relevant information satisfactorily. Execution of
simple two- and three-step serial commands was intact, as was comprehension of simple
questions. Mr. Harris made only one minor error (of eight) during repetition ofhigh and low
frequency phrases. Confrontational naming was slightly low (raw score: 51 of 60), but there
were no significant circumlocutions or paraphasic errors.
Spatial Functions
Mr. Harris' copy of a Greek cross figure was grossly intact, with only mild asymmetry. His
uncued clock drawing was mildly impaired due to poor spatial placement and orientation of the
numerals on the clock face. He performed within normal limits on a clock copy trial. Mr. Harris
made no errors on a time reading task and was also able to correctly indicate the time during time
setting tasks, though the hour and minute hands were indistinguishable on one trial (of four
administered).
Complex visual perception and integration was average (T=44), after correcting Mr. Harris'
score to accommodate his limited education. Visual-spatial thinking, as measured on the
Woodcock-Johnson III was also average (T=48). However, his performance in copying a
complex line drawing was severely impaired. This copy evidenced poor representation of details
and loss of appreciation for the gestalt, raising the possibility of constructional dyspraxia.
Intellectual Functioning .
Due to the possibility of practice effects or undesirable familiarity with item content stemming
from previous testing sessions the WAIS-III, a common measure of intelligence, was not
administered to Mr. Harris during this evaluation. Instead, Mr. Harris was administered the
WASI, an abbreviated scale of intelligence from the same publishing series as the WAIS-111, to
facilitate comparisons with those previous evaluations. On this brief measure, Mr. Harris' full

Resp. App. 151

Neuropsychological Consultation Report
Jimmy Dean Harris, Jr.

7

scale IQ was estimated to fall in the impaired to borderline impaired range (SS: 67-75), with
significantly better nonverbal abilities (T=36) than verbal abilities (T=26).
Intelligence was more comprehensively examined by administering both the standard and the
extended cognitive batteries from the Woodcock-Johnson III. On this instrument, Mr. Harris'
general intellectual abilities were found to be low (SS: 72-77), approximately equivalent to the
ability level of a 6 year, 10 month old child, with broad discrepancies in the underlying abilities.
For example, Mr. Harris demonstrated strength in his comprehension-knowledge (T=43) and
visual-spatial thinking (T=48), both of which fell within the average range. However, his
cognitive efficiency poses a significant weakness (T=31) that undermines his general intellectual
functioning. In addition, his cognitive abilities are also adversely impacted by his limited
phonemic awareness (T=38), and very limited cognitive fluency (T=31), working memory
capacity (T=38), and executive processes (T=29).
Functional Academic Skills
.Mr. Harris was administered two parallel forms of the WRAT-4 at different points in the
evaluation session. Using the "blue" form ofthe WRAT-4, Mr. Harris demonstrated impaired
functional academic skills in word recognition (T=22), sentence comprehension (T=23), spelling
(T=20), and math computations (T=22). Later in the evaluation, Mr. Harris demonstrated similar
impairment on the "green" form for word recognition (T=21), sentence comprehension (T=21),
spelling (T=20), and math computations (T=28). Combining this information, Mr. Harris' grade
level equivalency is at the 1st grade level of spelling skills and at the 2"d grade level for word
recognition, spelling comprehension, and math computations.
Memory Functions
Although still low, Mr. Harris demonstrated better memory ability for information presented in a
related context for both short-term (T=41) and delayed retrieval (T=37) on the WoodcockJohnson III than was demonstrated on recalling a list of words. Mr. Harris was administered two
parallel forms of the CVLT-II, which is a verbal list learning task, at different points in the
evaluation. Learning of the list across five trials was impaired for each form (Ts=25 and 29).
Spontaneous recall following a brief delay was consequently impaired (Ts=30 and 25). Cued
recall was also impaired (Ts=20 and <20), though forced choice recognition was acceptable
(81.2% and 75%). Mr. Harris demonstrated a clear "recency" effect with 58% and 59% of freely
recalled list items corning from the final portion of each list.
Free recall across three learning trials for line drawings was also impaired on two parallel forms
of the BVMT-R (Ts=<20 on each form). Free recall following a brief delay was similarly
impaired (Ts=20 on each form). Mr. Harris' scores on visual memory testing are somewhat
lower than those obtained on his WJ:C memory performances and also the CVLT-II list learning
performances, and may partially reflect his poor visuo-constructional abilities.
Self-Regulation I Executive Functions
After correcting for Mr. Harris' limited educational background, semantic fluency (animal
naming) was impaired (T=20) as was phonemic fluency (T=25). These scores might have been
negatively impacted by Mr. Harris' underlying limited phonemic awareness (WJ:C T=38),

Resp. App. 152

Neuropsychological Consultation Report
Jimmy Dean Harris, Jr.

8

though behaviorally Mr. Harris appeared to be experiencing more basic thought blocking. Some
support for the possibility of thought blocking is found in Mr. Harris' impaired score for
cognitive fluency on the Woodcock-Johnson III (T=31).
Non-verbal figural fluency was not substantially better, despite removing the phonemic qualities
of the task, and revealed impairment (T=29). Further, he evidenced a loss of cognitive set during
one trial of the task. Although there was no significant verbal perseveration, non-verbal
perseveration was prominent during both design fluency (T=31) and complex motor
programming.
Complex motor programming was broadly impaired. He required extended modeling and verbal
mediation to acquire the necessary set to carry out all motor programming tasks. Following
acquisition, he was prone to loss of set and within task motor perseveration. Graphic sequencing
evidenced perseverative tendencies, With clear perseveration at one point early in the task and
more pronounced, resulting in a loss of set, at the conclusion of the task.
On a planning task in which Mr. Harris was asked to solve mazes, he performed in the impaired
range (T=19). Performance on a task requiring the simultaneous tracking of, and alternation
between, two mental sequences (numbers and letters) was impaired due to slowing, but Mr.
Harris also loss the cognitive set required near the end of the task, necessitating reminding him
of the task requirements for completion. Finally, Mr. Harris demonstrated impaired ability in
executive processes (T=29) on the Woodcock-Johnson III.

CONCLUSIONS
1. Mr. Harris obtained remarkably consistent results during the current evaluation. This is
despite being tested using parallel forms, without warning, at different points in the
evaluation and using tests that are normatively based and standardized on unrelated
groups of people. There is no indication from Mr. Harris' behavior or the results of
testing of variable effort.
2. Comparison ofthe current findings with prior evaluations does appear to indicate some
variability in scores for intellectual ability. However, closer review of those results
indicates greater consistency than one may appreciate initially.
For example in 1964, at the age of7, it was reported that Mr. Harris obtained a full scale
IQ of 83-on the WISC. This score report is complicated by two issues:
•

First, an individual's IQ is not truly represented by a single number. Rather, a
person's true IQ falls within a defined possible range and will vary under normal
circumstances while remaining within that range. For the WISC, the IQ range for
a score of83 was from 78 to 88.

•

Second, Mr. Harris was administered the WISC in 1964, which is 15 years after
the test was introduced. Since that time, scholars have since found what is often
referred to as the "Flynn" effect. The Flynn effect refers to the observation that

Resp. App. 153

Neuropsychological Consultation Report
Jimmy Dean Harris, Jr.

9

the average IQ drifts upward slightly each year, which necessitates the
development of new IQ tests on a regular basis. The publishers of the WISC have
acknowledged that for this series of tests, the Flynn effect is most pronounced in
the lower IQ ranges. In this test series, the Flynn effect equates to scores drifting
YJ to~ a scaled score point annually. For Mr. Harris, this means that a score of
83±5 in 1964 would equate to a score of75.5±5 (using the more likely~ point
drift estimate) had the WISC not been as dated of a test at the time of
administration to Mr. Harris. This range is consistent with the currently obtained
findings on both the WASI and WJ:C measures.
In late 2000 and into 2001, Mr. Harris was administered intelligence tests on several
occasions over a relatively brief period of time. Several of the tests appeared to reflect
impaired general intelligence with a full scale IQ in the low to middle 60's. However,
these tests were administered when Mr. Harris was reported to be psychotic. Acute
psychosis is known to have a negative impact on one's intellectual functioning; largely,
because such individual's are often unable to optimally focus on the tasks presented to
them during testing. However, repeat testing in the sUmm.er of 2001, after Mr. Harris was
medicated and stabilized, revealed a full scale IQ range that is again consistent with the
current findings.
3. The current findings, in conjunction with past evaluations, indicate borderline intellectual
functioning. However, Mr. Harris' cognitive abilities are not uniformly at this level and
he demonstrates a range of strengths and weaknesses. He demonstrates a relative
strength in his visual-spatial thinking abilities, which has historically been reflected in his
ability to maintain employment repairing transmissions. Areas of relative weakness are
more common, and these are outlined below:
•

Mr. Harris' word recognition and sentence comprehension skills are impaired and
he may be considered functionally illiterate. He is able to sign his name and may
be vulnerable to exploitation by signing paperwork that others misrepresent to
him verbally. When information is presented to him verbally, it should be
presented slowly using vocabulary understandable to Mr. Harris. This may
require several repetitions due to his slowed information processing speed and
poor memory (see below). His verbal comprehension skills are a relative strength
and Mr. Harris is able to understand verbally presented information as long as it is
put in terms that are known to him.

•

Mr. Harris' speed of information processing poses a significant liability in a wide
range of circumstances. People involved in his care should be aware of this and
allow him additional time to process information before expecting him to respond.

•

Mr. Harris experiences considerable difficulty both with learning new information
and with recalling memories or previously learned information. New information
should be presented in small amounts, with much repetition and extra time
allowed for processing and encoding before he is expected to recall and utilize

Resp. App. 154

Neuropsychological Consultation Report
Jimmy Dean Harris, Jr.

10

newly learned information. Memory of unrelated information, or information not
presented within a meaningful framework, is likely to be particularly problematic.
•

Further, Mr. Harris demonstrates rapid forgetting and set backs are to be-expected
as he learns new information. He is able to recall information better if provided
with cues for his response, but his best performance may be elicited by presenting
him with forced choice response options (e.g., did counsel say "x option" or "y
option" to you?). This format should only be used if one of the two choices
presented is, in fact, accurate information while the other choice is not something
Mr. Harris has ever been exposed to.

•

Mr. Harris' decision making speed and ability to plan and organize is impaired.
He is most likely to function optimally in settings that are clearly defined and well
structured with high levels of positive reinforcement.

4. According the available records, Mr. Harris did not evidence any psychotic symptoms
until considerably later than is typically observed in men. While this is a somewhat
unusual course, it is not incompatible with a diagnosis of mood disorder with psychotic
features (a diagnosis he presently carries) or a diagnosis of schizoaffective disorder (a
diagnosis which alternatively may account for his historical presentation and cannot be
ruled out from the information provided).
Yet, an alternative non-psychiatric explanation merits ruling out at this time. Some
seizure disorders are strongly linked to hallucinatory experiences [e.g., temporal lobe
epilepsy (TLE)] and this might account for the late onset of Mr. Harris' reported
hallucinations. During this evaluation Mr. Harris appeared to display thought blocking,
which is not uncommon in those with significant mood disorders or psychosis. It might
be that the previous evaluator who noted what they thought were petit mal seizures was
observing similar behaviors; however, it is also possible that the thought blocking
episodes in this evaluation are better conceptualized as absence seizures related to seizure
disorder. In addition, mild difficulty in sensory testing and some possibility of
constructional dyspraxia are found in this evaluation.
In general, the findings of the present evaluation are not strongly supportive of TLE, but
seizure disorder cannot be ruled out on the basis of this evaluation alone and merits
inquiry. Further evaluation by a neurologist, with consideration of possible
neuroimaging (MRI) is encouraged to facilitate conceptualizing Mr. Harris'
neurocognitive profile. Mr. Harris is presently taking medication from the anti-seizure
class and this should be communicated to the physician prior to completing such an
evaluation.

5. Based on the inconsistencies found in the medical records with respect to medication
allergies, it is recommended that Mr. Harris avoid formulas containing codeine.

Resp. App. 155

Neuropsychological Consultation Report
Jimmy Dean Harris, Jr.

11

Licensed Psychologist #982

/

Resp. App. 156

-

Mar 2 7 0 1 1 l : l l a

~~~~~
,

.

DEFENDANT'S

SOUTH OKLAHOMA CITY COUNSELING CLINIC
1 1 45 S.W. 74th.BLDG. E. SUITE201

OKLAHOMA

a n ,OK 73139

(405) 631 -2593

Psychological Examination
Name: Jimmy Dean Harris, Age: 44 -4
Dates of Testing: 3 - 8, 21-01
ate of Birth: 10 - 20 -- 56
SSN: 447 - 58 - 3946
Referred by: Catherine Hammenten. ~ k l a h o m aCounty Public Defenders Office
Place tested: Oklahoma County Detention Center
Techniques used: interview, Slosson Intelligence-revised (SI T-R),
Rorschach test, Wechsler adult inteliigence scale-revised (WAIS-R), review of
police records, reports from Eastern State Hospital, report of J.R Smith M.D.
In connection with a homicide this is an evaluation of the personality and mental
functioning of Mr. Jimmy Dean Harris. Two sessions were required because of
some possible ambiguity concerning level of intellectual functioning. For much of
his adult life Mr. Harris has worked in the repair of auto transmission, which
seemingly would require comprehension of moderately complex elements of
visual construction. .
His behavior differed markedly in each session. In the first he was talkative,
sociable and pleasant and, if I asked a question he would amplify freely to the
point of rambling. At the end of formal testing, while waiting to be ushered out,
he focused his attention on sounds and words from an adjoining area. He said
his wife and daughter were on the units, that someone was saying the name of
his daughter, Chris, and that his wife (in reality his ex-wife) was engaged in an
affair with the rnan.who ran the jail and who had influence over the judge and the
District Attorney's office. In the second session he continued to respond in a
cooperative manner but there was no evidence of delusional ideas or sensory
aberration or hallucination, and his mood was subdued, on the low side with
limited verbal output.
Test Findings
On the SIT-R Mr. Harris achieved a Mean Age Equivalent of 10.7 years and an I.
Q. equivalent (Total Standard Score) of 66 which classifies as mild mental
retardation and has a percentile ranking of 2. Because this result seemed
inconsistent with a career in automotive transmission repair an alternate I. Q. test
was administered on 3 - 21 -- 01, namely the WAIS-R. On this test, which
consists of I 1 subtests, which are divided into a verbal and performance scale.
he achieved a full-scale IQ of 68, which also classifies as mild mental retardation.
Results are consistent with one another and with certain features of his history,
namely very limited ability in reading and writing as well as early learning

Resp. App. 157

Mar

27 01

1l:lla

problems in school.
Rorschach test data are consistent with a manic depressive disorder with
psychosis, also known as bipolar disorder. Manic features are evident from
quantitative data, namely the fairly high number of human movement and color
responses. Also supporting this assessment is the quality of some
verbalizations. For example, on one card he offered, "two dogs kissing, puppy
lave (followed by) Santa Claus shaped like a cat." And on the following card he
saw "Boys ain't got no damn clothes on, have no earthly idea. Dingus McGee's
hangin out. Two screws, weird looking people mixing up a cocktail, whipping up a
martini, a cocktail gIass, whipping up, stamng up." On the depressive side is his
perception of various animals or leaves described as damaged. My assessment
of bipolar disorder with psychosis is consistent with and independent of that of J.
R. Sniith, M.D.
While the purpose of the examination of Mr. Harris was to assess level of
functioning, test and interview data presently castdoubt on his current legal
competence to stand trail. For one thing, one cannot predict what the mood or
state of Mr. Harris' mind will be at the time of the trail, or whether or not he will be
able to endure the stress of a trail without decornpensation. Mr. Harris may at
times report event to his attorneys in a factual matter; however he is also prone
to reporting events on the basis of delusiona.1interpretation or hailucination. .His
present ability to accurately perceive and recollect, and his ability to rationally
and capably assist his attorneys is questionable.

Martin Krimsky, Ph.D.

Resp. App. 158

Case 5:08-cv-00375-F Document 32-2 Filed 03/03/09 Page 2 of 3

NlEllDA M. IFJEJRGU§ON. Jl>I..JD.
PSYCHOLOGIST
P. 0. BOX 14423

OKLAHOMA CITY, OKLAHOMA 73113·0423

405-842-8333

Name:
Jimmy Dean Harris
Date of Exam:
2000-10-20
Birthdate:
1956-10-20
CA:
44 years
Psychologist: Nelda M. Ferguson, Ph.D.
Case No. CF 99-5071
Jimmy Dean Harris, -a 44-year-E>ld male, wasC·referred -for
the administration of the Wechsler Adult Intelligence Scale III to determine his level of intelligence.
The Wechsler Adult Intelligence Scale - III was
administered in an effort to evaluate the patient's cognitive
functioning and to observe for any atypical or unusual
scatter. Jimmy earned a Verbal I.Q. of 69 and a Performance
I.Q. of 60, which yields a Full Scale I.Q. of 63, and places
him in the mentally retarded range of intelligence.
The Wechsler Adult Intelligence Scale - III (WAIS-III) is
a battery of tests designed to evaluate intellectual
abilities. The WAIS-III consists of the Verbal Scales and the
Performance Scales.
The Verbal Scales evaluate word knowledge, logical and
abstract thinking, general knowledge, judgment, common sense,
arithmetic ability and short term memory.
The Performance Scales assess non-verbal problem solving,
visual motor and perceptual organization and speed and
accuracy in writing and copying. Included in these tests are
tasks such as puz-zles, reproducing designs with blocks,
writing and copying, finding the missing part in a well known
picture, and matrix reasoning.
The following scaled scores were earned on the WAIS-III
and they are meaningful and significant when compared to a
mean of 10 on each subtest:

Resp. App. 159

Case 5:08-cv-00375-F Document 32-2 Filed 03/03/09 Page 3 of 3
Jimmy Dean Harris

Page 2

Wechsler Adult Intelligence Scale
III
(Mean 1 0)
Verbal

Sed. Sc.

Vocabulary
Similarities
Arithmetic
Digit Span
Information
Comprehension

6
3
5

7
5

3
Verbal I.Q.
Performance I.Q.
Ful-l Scale LQ.

Performance

Sed. Sc.

Picture Completion
Digit Symbol
Block Design
Matrix Reasoning
Picture Arrangement
Symbol Search
69
60
63

4
2
5

3
4
2

2%
.4%
1%

---- -----

Jimmy functions at the 1% on the WAIS-III, which is in
the mild range of mental retardation.
Diagnostic Impression
Axis I
317.00

Mental Retardation - Mild

~eM/ ?/! ~'$1AJ#VGJq!
~

~a M. Ferguson, Ph
Licensed Psychologist

Resp. App. 160

